SIGAR                            Special Inspector General for
                                  Afghanistan Reconstruction




                                          SIGAR 14-75 Financial Audit




      USAID’s Accelerated Sustainable Agriculture
      Program and Afghanistan Stabilization Initiative:
      Audit of Costs Incurred by Chemonics
      International, Inc.




                                                         JULY

                                                     2014
SIGAR 14-75-FA/ASAP and ASI
                                                       July 2014
                                                       USAID's Accelerated Sustainable Agriculture Program and

SIGAR
Special Inspector General for
                                                       Afghanistan Stabilization Initiative: Audit of Costs Incurred by
                                                       Chemonics International, Inc.

                                                        SIGAR 14-75-FA

Afghanistan Reconstruction                              WHAT THE AUDIT FOUND
                                                        Kearney & Company, P.C. (Kearney) identified t hree internal control
WHAT THE AUDIT REVIEWED                                 deficiencies and five instances of Chemonics International. lnc.'s
                                                        (Chemonics) noncompliance with the terms of t he award and applicable
The U.S. Agency for Internat ional Development
                                                        laws and regulations. These internal cont rol deficiencies and instances of
(USAID) awarded Contract No. 306-C-00-07-
                                                        noncompliance result ed in Kearney questioning $2,032.485 in costs;
00501-00 t o Chemonics Int ernational. Inc.
(Chemonics) t o implement t he Accelerat ed             including $2,032.3 12 in unsupported cost s-cost s not supported by
Sustainable Agriculture Program (ASAP). The             sufficient documentation t o allow Kearney to det ermine their accuracy and
                                                        allowability; and $1 73 in ineligible costs-costs prohibited by the cont ract.
program sought t o provide economic
                                                        applicable laws. or regulations.
opportunit ies in agriculture for rural Afghans.
USAID also awarded Contract No. 306-DOT-1-
02-08-00033-00 to Chemonics to support t he                      Category           Questioned Costs Total      Ineligible   Unsupported
Afghanistan Stabilization Initiative (ASI) to build    Allowances (ASAP)                                $4 3         $ 43               $0
t rust and confidence bet ween communit ies
                                                        Other Direct Costs (ASAP)                 $164.308             $0      $164 .308
and t he Afghan government t hrough small
                                                        Subcontracts {ASAP)                        $4 9 ,170           $0         $49.170
community improvement projects.
                                                        Grants & Associated Fees                  $875.146             $0      $875.14 6
SIGAR's financial audit. performed by Kearney           (ASAP)
& Company, P.C. (Kearney), covered t he period          Salaries & Wages (ASI)                         $ 2 34          $0            $234
November 22. 2006, through October 30.                 Allowances {ASI)                              $7.764            $0          $ 7 .764
2011. and expenditures of $ 132,8 18.195 for            Other Direct Costs (ASI)                   $17.463          $130          $17.333
ASAP. and June 26. 2009. through June 25.
                                                        Grants (ASI)                              $918 ,357            $0      $918 ,357
2012. and $119 .5 49,834 for ASI. Kearney
                                                       Totals                                   $2,032,485          $173      $2,032,312
(1) identified and reported on signifi cant
defi ciencies or material weaknesses in                With regard t o internal controls. Kearney found deficiencies with
Chemonics' internal controls related t o the           Chemonics' review and approval procedures. recordkeeping, and cost
t ask order; (2) identified and reported on            allocations. These deficiencies affect ed the support for Chemonics'
instances of material noncompliance with t he          approval of and competition for grant s and t he allocation of cost s. For
t erms of t he award and applicable laws and           example. the audit ors questioned $787,795 due t o a lack of competitive
regulations. including any pot ential fraud or         bidding document at ion. In another inst ance. Kearney found t hat $ 19 .899
abuse; (3) determined and reported on                  in employee vacation costs were charged solely t o one contract. althOugh
whether Chemonics has taken correct ive                t he employee worked on m ultiple projects.
action on prior findings and recommendations;
and (4) expressed an opinion on the fair               The five instances of Chemonics' noncompliance with t he terms of the
present ation of Chemonics' Special Purpose            award and applicable laws and regulations involved some overlap with the
Financial St at ement. See Kearney's report for        internal control findings, because the five inst ances related t o
the precise audit objectives.                          document ation not provided to t he auditors and t o the improper cost
                                                       allocations.
In contract ing with an independent audit firm
and drawing from t he results of a contracted           Kearney also identified 28 prior audit fi ndings, which could have a material
audit. SIGAR is required by auditing standards          effect on the Special Purpose Financial Stat ement. Of t hose. Chemonics
t o provide oversight of t he work performed.           had not taken adequate corrective action on 13. Although Chemonics
Accordingly, SIGAR reviewed Kearney's audit             disagreed that any of t he 13 were valid findings, Kearney identified three
results and found t hem to be in accordance             as repeat fi ndings.
wit h generally accept ed government auditing
standards.


         For more information, contact SIGAR Public Affairs at (703) 545-5974 orsigar.pentagon.ccr.mbx.public-affairs@mail.mil.
                                                                 Lastly, in Kearney’s opinion, Chemonics’ Special Purpose
                                                                 Financial Statement for the Accelerated Sustainable
                                                                 Agriculture Program presented fairly in all material respects,
                                                                 revenues received, costs incurred and the balance for the
                                                                 indicated periods in accordance with requirements
                                                                 established by SIGAR. However, Kearny issued a qualified
                                                                 opinion on the Special Purpose Financial Statement for the
                                                                 Afghanistan Stabilization Initiative because of the
                                                                 unsupported costs related to Other Direct Costs and Grants
                                                                 balances. This lack of sufficient and appropriate evidence
                                                                 was partially attributable to a terrorist attack that destroyed
                                                                 Afghanistan Stabilization Initiative documentation.



 Aftermath of the April 15, 2010, attack on the Afghanistan
 Stabilization Initiative headquarters that destroyed original
 documentation.
 Source: Chemonics


WHAT SIGAR RECOMMENDS
Based on the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
1. Determine the allowability of and recover, as appropriate, $2,032,485 in questioned costs identified in the report.
2. Advise Chemonics to address the report’s three internal control findings.
3. Advise Chemonics to address the report’s five noncompliance findings identified.




     For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 7, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Chemonics International, Inc. (Chemonics)
under two USAID contracts—one supporting the Accelerated Sustainable Agriculture Program (ASAP) 1 and the
other supporting the Afghanistan Stabilization Initiative (ASI). 2 The audit, performed by Kearney & Company,
P.C. covered the period November 22, 2006, through October 30, 2011, and expenditures of $132,818,195
for ASAP, and the period June 26, 2009, through June 25, 2012, and expenditures of $119,549,834 for ASI.
Based on the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:

      1. Determine the allowability of and recover, as appropriate, $2,032,485 in questioned costs identified
         in the report.

      2. Advise Chemonics to address the report’s three internal control findings.

      3. Advise Chemonics to address the report’s five noncompliance findings.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(F-024)




1   USAID contract number 306-C-00-07-00501-00
2   USAID contract number 306-DOT-I-02-08-00033-00
OFFICE OF THE SPECIAL INSPECTOR
   GENERAL FOR AFGHANISTAN
        RECONSTRUCTION

               Chemonics International, Inc.


Financial Audits of Costs Incurred under Contract Numbers 306-C-
 00-07-00501-00 (for the Period November 22, 2006 to October 30,
2011) and 306-DOT-I-01-08-00033-00 (for the Period June 26, 2009
                        and June 25, 2012)



                                  March 25, 2014




                                           Point of Contact
                                        David Zavada, Partner
                                      1701 Duke Street, Suite 500
                                         Alexandria, VA 22314
                                  703-931-5600, 703-931-3655 (fax)
                                       dzavada@kearneyco.com
            Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com

TRANSMITTAL LETTER

May 23, 2014



Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202


To the Special Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) is pleased
to submit this Audit Report, as required under Contract Number GS-23F-0092J, Task
HHSP233201300469G, for Chemonics International, Inc. (Chemonics). The Audit Report is in
regard to Chemonics Contract Number 306-C-00-07-00501-00 for Accelerated Sustainable
Agriculture Program (ASAP) for November 22, 2006 to October 30, 2011, and Chemonics
Contract Number 306-DOT-I-01-08-00033-00 for Afghanistan Stabilization Initiative (ASI) for
June 26, 2009 to June 25, 2012.

We appreciate the opportunity to provide you with our Report. When preparing the Report, we
considered comments, feedback, and interpretations provided by the Office of the Special
Inspector General for Afghanistan Reconstruction (SIGAR), both orally and in writing,
throughout the audit Planning, Fieldwork, and Reporting Phases of this engagement.

Thank you for providing us with the opportunity to assist SIGAR and conduct the financial audit
of the two contracts noted above. If any additional information is needed, please do not hesitate
to contact me at (703) 931-5600.

Sincerely,




David Zavada, CPA, Partner
Kearney & Company, P.C.
                                                                    Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                                              Chemonics International, Inc.
                                                                                                                             Audit Report




                                                   TABLE OF CONTENTS
                                                                                                                                    Page #

EXECUTIVE SUMMARY ...........................................................................................................1 
  Background .................................................................................................................................1 
  Objectives, Scope, and Methodology ........................................................................................2 
  Summary of Results ...................................................................................................................4 
  Summary of Chemonics’ Response to Findings ......................................................................6 
SPECIAL PURPOSE FINANCIAL STATEMENTS.................................................................7 
NOTES TO THE SPECIAL PURPOSE FINANCIAL STATEMENTS ..................................9 
AUDITOR’S NOTES TO THE QUESTIONED COSTS ........................................................12 
INDEPENDENT AUDITOR’S REPORT .................................................................................14 
INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ...............................17 
INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE..............................................19 
SCHEDULE OF FINDINGS AND RESPONSES ....................................................................21 
APPENDIX A – PRIOR AUDIT FINDINGS AND STATUS .................................................46 
APPENDIX B – CHEMONICS INTERNATIONAL, INC.’S RESPONSE TO AUDIT
  REPORT ....................................................................................................................................54 
APPENDIX C – AUDITOR’S EVALUATION OF CHEMONICS INTERNATIONAL,
  INC. RESPONSE TO AUDIT REPORT ................................................................................82 
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                        Chemonics International, Inc.
                                                                                                       Audit Report


EXECUTIVE SUMMARY

Background

The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted
Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) to perform
an audit of the Special Purpose Financial Statements (SPFS) of two contracts awarded to
Chemonics International, Inc. (Chemonics) by the Unites States Agency for International
Development (USAID).

Accelerated Sustainable Agriculture Program (ASAP) – Contract No. 306-C-00-07-00501-00

USAID initiated a contract to accelerate broad-based, market-led agriculture development
capable of responding and adapting to market forces in ways that provide new economic
opportunities for rural Afghans. Objectives of ASAP included identification of markets, the
commodities appropriate for the market, the required package of interventions, technologies, and
other technical assistance for a selected commodity group or market area.

The ASAP contract was awarded to Chemonics for the period of November 22, 2006 through
March 31, 2010. The contract was a cost plus, fixed fee contract with an initial amount of
$61,697,007, covering the base and all option periods. Subsequent modifications increased the
funding to $132,673,106 and extended the period of performance to October 31, 2011.

Afghanistan Stabilization Initiative (ASI) – Contract No. 306-DOT-I-02-08-00033-00

The USAID, Office of Transition Initiative (OTI) initiated a three-year program in Afghanistan
in June 2009 entitled “Afghanistan Stabilization Initiative” (ASI). The ASI program was
designed to build confidence and trust between the Government of the Islamic Republic of
Afghanistan (GIRoA) and communities through the identification and implementation of small
community improvement projects in unstable areas of Afghanistan.

ASI was designed to support GIRoA in post-conflict areas through small, community-driven
activities in order to increase the willingness and capacity of communities to cooperate and
interact with GIRoA, and expand GIRoA’s capacity to exercise timely, credible, and responsive
civil functions.

The ASI contract was awarded to Chemonics for the period of June 26, 2009 through June 25,
2012. Chemonics was contracted to increase public access to information about GIRoA’s social,
economic, and political activities and policies in Afghanistan; and create conditions that build
confidence between communities and the GIRoA through the improvement of the economic and
social environment in the region. The contract was a cost plus, fixed fee contract for the amount
of approximately $159,600,000, with modifications revising the Statement of Work (SOW) and
decreasing the funding of the contract to $120,000,000.




                                                1
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


Objectives, Scope, and Methodology

Objectives

In accordance with the contract awards, the specific audit objectives of this financial statement
audit are to:

       Express an opinion on whether the SPFS for the awards presents fairly, in all material
        respects, the revenues received, costs incurred, items directly procured by the U.S.
        Government, and balances for the period audited, in conformity with the terms of the
        awards and Generally Accepted Accounting Principles (GAAP) or other comprehensive
        basis of accounting
       Evaluate and obtain a sufficient understanding of the audited entity’s internal control
        related to the awards and assess control risk; and identify and report on significant
        deficiencies, including material internal control weaknesses
       Perform tests to determine whether the audited entity complied, in all material respects,
        with the awards’ requirements and applicable laws and regulations; and identify and
        report on instances of material non-compliance with terms of the awards and applicable
        laws and regulations, including potential fraud or abuse that may have occurred
       Determine and report on whether the audited entity has taken adequate corrective action
        to address findings and recommendations from previous engagements that could have a
        material effect on the SPFS.

Scope

Our audits of the SPFS covered the following USAID contracts awarded to Chemonics:

       No. 306-C-00-07-00501-00: ASAP, for the period of November 22, 2006 through
        October 30, 2011
       No. 306-DOT-I-02-08-00033-00: ASI, for the period of June 26, 2009 through June 25,
        2012.

Our review of indirect costs was limited to determining whether the indirect rates per the
Negotiated Indirect Cost Rate Agreement were properly applied to the direct costs, subsequently
reported on the SPFS, correctly calculated, and appropriately charged to the U.S. Government in
accordance with the agreement. The scope of our audit does not include procedures to verify the
material accuracy of Chemonics’ indirect cost rates and fixed fee rates. These rates are subject
to USAID oversight through an incurred cost audit. Therefore, such information has not been
subject to the auditing procedures beyond those designed to test the application of those
unaudited rates in the preparation of the SPFS; accordingly, we do not express an opinion or
provide any assurance on the rates.

Our audit was conducted for the purpose of forming an opinion on the SPFS in accordance with
the SPFS presentation requirements in Note 1. Therefore:




                                                 2
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


      The Transmittal Letter and the information presented in the Table of Contents, Executive
       Summary, and Management’s Responses to Our Findings are presented for the purpose
       of additional analysis and are not required parts of the SPFS. Such information has not
       been subject to the auditing procedures applied during the audit of the SPFS, and
       accordingly, we do not express an opinion or provide any assurance on it
      The scope of our audit does not include procedures to verify the efficacy of the ASAP
       and ASI programs, and accordingly, we do not express an opinion or provide any
       assurance on it.

Methodology

We conducted our audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS), as published in the Government Accountability Office’s (GAO) Government
Auditing Standards (GAS or “Yellow Book”). Those standards require that we plan and perform
our audit to obtain reasonable assurance about whether the SPFS of the costs incurred under the
awards are free of material misstatement. An audit includes:

      Obtaining an understanding of Chemonics’ internal controls related to the award,
       assessing control risk, and determining the extent of audit testing needed based on the
       control risk assessment
      Examining, on a test basis, evidence supporting the amounts and disclosures presented in
       the SPFS.

Our audit approach enables us to redefine the audit scope as necessary, and consists of the
following four phases:

Planning Phase: Kearney developed an understanding of Chemonics and the SPFS by
performing the following:

      Analyzing and comparing booked to billed costs
      Reviewing for changes in estimation and allocation methodologies and/or processes
      Reviewing the financial statements and footnotes
      Holding preliminary discussions with Chemonics personnel concerning their methods
       and processes
      Identifying significant costs
      Reviewing indirect rate applications
      Identifying significant sub-contracts.

Kearney also obtained the status and adequacy of the corrective actions taken based on prior
audits for follow-up in subsequent phases.

Internal Control Understanding/Evaluation Phase: Kearney performed procedures to obtain a
sufficient understanding of the controls and compliance requirements in place over each of the
cost categories to be tested. The results of this phase were considered in determining the nature
and extent of procedures to be performed in the Testing Phase.



                                                3
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


Testing Phase: This phase consisted of validating transaction populations and applying various
sampling techniques, obtaining sufficient appropriate audit evidence that provides reasonable
assurance as to whether the SPFS and related assertions are free of material misstatement, and
determining whether costs claimed are allowable, allocable, and reasonable. This phase also
consisted of testing costs incurred for compliance with the contract and applicable laws and
regulations.

Reporting Phase: In this phase, Kearney provided Chemonics’ management with an appropriate
Management’s Representation Letter and performed wrap-up procedures designed to assess and
confirm the completion of the audit in accordance with all relevant standards.

The scope of our audit reflects our assessment of control risk and includes tests of incurred costs
to provide a reasonable basis for our opinion.

Summary of Results

Opinion

Kearney issued an unqualified opinion on the SPFS for ASAP, which concludes that the SPFS
presents fairly, in material respects, the program revenues, costs incurred and fees applied, and
resulting revenue over/(under) expenses for the indicated period in accordance with the terms of
the agreements, and in conformity with the basis of accounting described in Note 2 of the SPFS.
Kearney issued a qualified opinion on the SPFS for ASI, which concluded that except for the
effects of the unsupported costs related to the Other Direct Costs (ODC) and Grants balances, the
SPFS presents fairly, in material respects, the program revenues, costs incurred and fees applied,
and resulting revenue over/(under) expenses for the indicated period in accordance with the
terms of the agreements, and in conformity with the basis of accounting described in Note 2 of
the SPFS. The qualification resulted from a lack of sufficient, appropriate audit evidence. This
was partially attributable to lack of documentation as a result of a terrorist attack that destroyed
ASI documentation. See the Independent Auditor’s Report section of this document for our
opinion.

Questioned Costs

There are two categories of questioned costs—ineligible and unsupported. Ineligible costs are
those costs that are deemed unallowable in accordance with the terms of the contract and
applicable laws and regulations. Unsupported costs are those costs for which Chemonics was
unable to provide sufficient supporting documentation, including evidence of proper approvals,
for Kearney to determine the accuracy and allowability of the costs. Kearney noted a total of
$173 in ineligible costs and $2,032,312 in unsupported costs, for a total of $2,032,485 of
questioned costs, as shown in Table 1 below.




                                                 4
KEARNEY&                                         Office of the Special lnspec.tor General for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report


                                  Table 1 - Total Questioned Costs

                                               Questioned     Schedule of Findings and
   Contract            Cost Category
                                               Amount($)        Responses Reference
ASAP               Allowances                           43 Chemonics ASAP NFR 2014-2.4
                   ODCs                            164,308 Chemonics ASAP NFR 2014-2.1
                                                           Chemonics ASAP NFR 2014-2.2
                                                           Chemonics ASAP NFR 2014-2.4
                                                           Chemonics ASAP NFR 2014-3
                   Grants and Fees                 875,146 Chemonics ASAP NFR 2014-2.3
                                                           Chemonics ASAP NFR 2014-2.4
                   Subcontracts                     49,170 Chemonics ASAP NFR 2014-2.1
Total Questioned Costs - ASAP                      1,088,667
ASI             Allowances                             7,764 Chemonics ASI NFR 2014-2 .2
                   ODCs                                17,463 Chemonics ASI NFR                     2014-2 .1
                                                               Chemonics ASI NFR                    2014-2 .6
                   Grants                             91 8,357 Chemonics ASI NFR                    2014-1.1
                                                               Chemonics ASI NFR                    2014-1.4
                                                               Chemonics ASI NFR                    2014-2 .1
                                                               Chemonics ASI NFR                    2014-2 .4
                   Salaries and Wages                      234 Chemonics ASI NFR                    2014-1.4
Total Questioned Costs - ASI                         943,818
Total Questioned Costs - Chemonics                 2,032,485

Internal Control Findings

There are two categories of internal control findings- material weaknesses and significant
deficiencies. A deficiency in internal control exists when the design or operation of a control
does not allow man agement or employees, in the nonnal course of performing their assigned
functions, to prevent, or detect and con ect Inisstatements on a timely basis. A material weakness
is a deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material Inisstatement of the entity's finan cial statements will not be prevented,
or detected and conected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
impo1tant enough to merit attention by those charged with governance. A summaiy of each
catego1y of internal control findings is as follows:

Keainey repo1ted two material weaknesses as follows:

    1. Inadequate Review an d Approval Procedures (Chemonics ASAP NFR 2014-1 ,
       Chemonics ASI NFR 2014-1 .1, Chemonics ASI NFR 2014-1 .2, Chemonics A SI NFR
       2014-1.3, Chemonics ASI NFR 2014-1.4, Chemonics ASI NFR 2014-1 .5)
    2. Inadequate Recordkeeping (Chemonics ASAP NFR 2014-2 .1, Chemonics A SAP NFR
       2014-2.2, Chemonics ASAP NFR 2014-2.3, Chemonics ASAP NFR 2014-2.4,



                                                  5
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


        Chemonics ASI NFR 2014-2.1, Chemonics ASI NFR 2014-2.2, Chemonics ASI NFR
        2014-2.3, Chemonics ASI NFR 2014-2.4, Chemonics ASI NFR 2014-2.5, Chemonics
        ASI NFR 2014-2.6).

Kearney reported one significant deficiency as follows:

   1.   Improper Cost Allocations (Chemonics ASAP NFR 2014-3).

Compliance Findings

As part of our audit of Chemonics’ SPFS, we performed tests to determine compliance with
provisions of the contract and other laws and regulations that have a direct and material effect on
the SPFS. We identified the following instances of non-compliance:

   1. Grant Supporting Documentation was Not Provided (Chemonics ASI NFR 2014-2.4)
   2. Grant Closeout Documentation was Not Provided (Chemonics ASAP NFR 2014-2.3 and
      Chemonics ASI NFR 2014-2.5)
   3. Unexplained Discrepancies between General Ledger (GL) Balances and Grant Closeout
      and/or Supporting Documentation (Chemonics ASI NFR 2014-1.3)
   4. Competitive Bidding Documentation Not Provided (Chemonics ASAP NFR 2014-2.1
      and Chemonics ASI NFR 2014-2.1) .
   5. Improper Cost Allocations (Chemonics ASAP NFR 2014-3).

Review of Prior Findings and Recommendations

Kearney identified 28 findings stated in prior audit reports that could have a material effect on
the SPFS. Kearney inquired about whether Chemonics had implemented corrective actions plans
(CAP) to address the findings, and subsequently determined the status and adequacy of those
corrective actions. Of the 28 findings, Kearney noted that Chemonics has implemented adequate
corrective actions to address 15 findings, and that 13 have not been adequately addressed. Of
those not adequately addressed as part of our fieldwork, Chemonics disagreed that all 13 were
valid audit findings; as such, Chemonics had not yet taken corrective actions toward these
findings. Of the 13 with which Chemonics disagrees, Kearney identified three findings as repeat
findings, which we reported in Chemonics ASAP NFR 2014-2.1, Chemonics ASAP NFR 2014-
2.4, Chemonics ASAP NFR 2014-3, Chemonics ASI NFR 2014-2.1 and Chemonics ASI NFR
2014-2.6. See Appendix A of this report for a summary of the prior audit findings and the status
of each.

Summary of Chemonics’ Response to Findings

Chemonics has provided a response to the findings contained in this report, which is included as
Appendix B of this report.




                                                 6
                                       SPECIAL PURPOSE FINANCIAL STATEMENTS

                            Chemonics International, Inc.                                Auditor’s Questioned Costs
Special Purpose Financial Statement for Costs Incurred under ASAP Contract No. 306-                Note A
                                  C-00-07-00501-00
            For the period of November 22, 2006 through October 30, 2011
                                               Budget        Actual
                                                 ($)           ($)         Notes    Ineligible Unsupported Auditor’s
                                              (Audited)     (Audited)    (Audited)     ($)           ($)        Notes

Amounts paid by the U.S. Government                               132,673,106   4         0              0

Costs Incurred and Fees:
 Salaries and Wages                                                35,274,711             0               0
 Travel and Transportation                                          3,597,951             0               0
 Allowances                                                         9,341,567            43               0     B
 Other Direct Costs                                                30,669,632             0         164,308     C
 Subcontracts                                                      49,815,015             0          49,170     D
 Grants and Associated Fees                                         4,119,319             0         875,146     E
Total Costs Incurred and Fees                    132,673,106      132,818,195   5        43       1,088,624     J

Amounts Paid by the U. S. Government
over/(under) lesser of costs incurred and
fees or project budget                                                     0    6       (43)    (1,088,624)

The accompanying notes are an integral part of this financial statement.




                                                                   7
                           Chemonics International, Inc.                                  Auditor’s Questioned Costs
        Special Purpose Financial Statement for Costs Incurred under ASI No. 306-                   Note A
                                  DOT-I-00-08-00033-00
                  For the period of June 26, 2009 through June 25, 2012
                                                 Budget       Actual
                                                   ($)          ($)        Notes     Ineligible       Unsupported    Auditor’s
                                                (Audited)    (Audited)   (Audited)      ($)               ($)         Notes

Amounts Paid by the U.S. Government                              119,549,834   4                  0             0

Costs Incurred and Fees:
  Salaries and Wages                                           30,993,638                     0               234       F
  Travel and Transportation                                     3,015,421                     0                 0
  Allowances                                                    7,268,965                     0             7,764       G
  Other Direct Costs                                           19,851,731                   130            17,333       H
Subtotal Costs Incurred and Fees:                              61,129,755
  Grants                                                       26,789,790                     0           918,357        I
  Subcontracts                                                 31,630,289                     0                 0
 Subtotal Costs Incurred and Fees:                             58,420,079
Total Costs Incurred and Fees                     120,000,000 119,549,834      5            130           943,688        J

Amounts Paid by the U. S. Government
over/(under) lesser of costs incurred and
fees or project budget                                                     0   6          (130)          (943,688)

The accompanying notes are an integral part of this financial statement.




                                                                   8
                               Chemonics International, Inc.
                     Notes to the Special Purpose Financial Statements
                                          (Audited)

Note 1. Basis of Presentation

The accompanying Special Purpose Financial Statements (SPFS) include revenues and costs
incurred under:

       Accelerating Sustainable Agriculture Program (ASAP) – Contract No. 306-C-00-07-
        00501-00 for the period of November 22, 2006 through October 30, 2011
       Afghanistan Stabilization Initiative (ASI) – Contract No. 306-DOT-I-02-08-00033-00 for
        the period of June 26, 2009 through June 25, 2012.

Because the SPFS for each contract present only a selected portion of the operations of
Chemonics in Afghanistan, these SPFS do not, nor are they intended to, present the financial
position, changes in nets assets, or cash flows of Chemonics in Afghanistan. The information in
these SPFS are presented in accordance with the requirements specified by the Office of the
Special Inspector General for Afghanistan Reconstruction (SIGAR) and are specific to the
aforementioned Federal awards. Therefore, some of the amounts presented in these SPFS may
differ from amounts presented in, or used in the preparation of, Chemonics’ basic financial
statements.

Note 2. Basis of Accounting

The SPFS reflect the amount paid by the United States Government and the costs incurred and
fees charged by Chemonics under the aforementioned ASAP and ASI contracts. The SPFS for
each contract were prepared using a comprehensive basis of accounting other than Generally
Accepted Accounting Principles (GAAP). The contractual basis of accounting is in compliance
with ASAP Contract No. 306-C-00-07-00501-00 and ASI Contract No. 306-DOT-I-02-08-
00033-00. Revenues are recognized when earned and expenses are recognized when incurred.
Direct costs are recorded when incurred and invoiced to the Government shortly thereafter.
Indirect costs are estimated and invoiced using established indirect rates negotiated with the
United States Agency for International Development (USAID) and subsequently adjusted when
actual indirect rates are established.

Note 3. Foreign Currency Conversion Method

Chemonics converts its expenses that were paid in local currency (Afghanis) into reporting
currency (U.S. Dollar [USD]) by applying a Standard Exchange Rate (SER) to foreign currency
transactions. The SER is adjusted monthly.

Note 4. Amounts Paid by the United States Government

Both the ASI and ASAP contracts represent cost plus, fixed fee awards, and as such, the United
States Government pays Chemonics as costs were incurred and fees were charged. Any amounts


                                               9
paid by the United States Government in excess of costs incurred and applicable fees charged in
accordance with the respective contract represent an adjustment due to USAID.

Note 5. Budget and Costs Incurred by Budget Category

Because the budgets presented in the respective contracts differ from the presentation in the
SPFS, management has only presented the total budget amount for each contract in the SPFS.

For the purpose of this presentation, the actual incurred costs reported in the SPFS are reported
fully burdened utilizing approved indirect rates as stated in the Chemonics’ Negotiated Indirect
Cost Rate Agreement with USAID, as allowed by the respective contracts. Fee amounts were
allocated to the budget categories on a pro-rata basis. This presentation differs from Chemonics’
usual presentation to USAID, for which the presentation displays direct costs, indirect costs, and
fees as separate categories. The intent of presenting the financial information as shown in this
SPFS is to prevent disclosure of Chemonics’ proprietary indirect rates as well as the fee charged
on the contract; disclosure could put Chemonics at a competitive disadvantage in future
procurements. Chemonics has not undergone incurred cost audits of its indirect rates for any
period covered by the SPFS. The results of the audits of the indirect rates may result in changes
to the rates applied during the preparation of these SPFS, and consequently may result in changes
to the incurred costs charged to the contracts.

Note 6. Amounts Paid by the United States Government over/under Lesser of Costs
Incurred and Fees or Project Budget

The amounts paid by the United States Government over/under costs incurred and fees applied
on the SPFS represents the difference between the lesser of costs incurred and fees charged by
Chemonics and the budget of the contract amount reimbursed to Chemonics by USAID.

An amount paid by the United States Government over/(under) costs incurred and fees applied of
$0 indicates that funds are neither expected to be received by Chemonics from the Federal
Government, nor expected to be paid to the Federal Government by Chemonics, with the
exception of possible future indirect rate adjustments.

For clarification, in the case of the ASAP contract, the total costs incurred and fees applied were
$132,818,195. Since this amount was in excess of the contract’s budget of $132,673,106,
Chemonics only received $132,673,106 from the U.S. Government for this contract. Thus,
Chemonics does not expect to receive funds from the U.S. Government, nor does it owe funds to
the U.S. Government, for this project, with the exception of possible future indirect rate
adjustments.

In the case of the ASI contract, the total costs incurred and fees applied were $119,549,834.
Since this amount was less than the contract’s budget of $120,000,000, Chemonics only received
$119,549,834 from the U.S. Government for this contract. Thus, Chemonics does not expect to
receive funds from the U.S. Government, nor does it owe funds to the U.S. Government, for this
project, with the exception of possible future indirect rate adjustments.



                                                10
Note 7. Currency

All amounts are presented in USDs and have been rounded to the nearest whole USD.
Note 8. Program Status

For ASAP, all program activities are completed and all fees and costs incurred have been billed
to USAID, with the exception of indirect rate adjustments.

For ASI, all program activities are completed and all fees and costs incurred have been billed to
USAID, with the exception of indirect rate adjustments.

Note 9. Subsequent Events

Chemonics’ management has performed an analysis of the activities and transactions subsequent
to the period of performances of the ASAP and ASI SPFS as of March 25, 2014. Chemonics has
not undergone incurred cost audits of its indirect rates for any period covered by the SPFS. The
results of the audits of the indirect rates may result in changes to the rates applied during the
preparation of these SPFS, and consequently may result in changes to the incurred costs charged
to the contracts.




                                                11
                                 Chemonics International, Inc.
                       Notes to the Special Purpose Financial Statements
                           Auditor's Notes to the Questioned Costs

In addition to the Notes to the Financial Statements presented above associated with the
Afghanistan Stabilization Initiative (ASI) and Accelerated Sustainable Agriculture Program
(ASAP) Special Pmpose Financial Statem ents (SPFS), which ar e the responsibility of
Chem onics International, Inc.' s (Chemonics) management and identified with numerical
notations, Kearney & Company, P .C. (refened to as " Kearney," "we," and "our" in this repo1i)
has included the following alphabetical notations to facilitate understanding.

Note A. Questioned C osts

Questioned costs are those costs that are questioned by the auditor because of an audit finding
potentially related to:

     1. A violation or possible violation of a provision of law, regulation, contract, grant,
        cooperative agreement, or other agreement or document governing the use of Federal
        funds
     2. Where, at the time of the audit, the costs are not supported by adequate documentation
     3. Where th e costs incmTed appear unreasonable an d do not reflect the actions a pm dent
        person would take in the circumstances.

Questioned costs identified by the auditor ar e presented in the SPFS in two categories-
unsupported an d ineligible costs. Unsuppo1ied costs are those costs th at, after a full review of all
documentation provided, th e auditor has concluded are inadequately or insufficiently
documented to determine the allowability and accuracy of costs. Ineligible costs are those that
are explicitly questioned because they are unreasonable, prohibited by the audited contract or
applicable laws an d regulations, or not awar d-related. Questioned costs are fully burdened with
applicable indirect rates and applicable fees assigned in the contract using the year in which the
expense was incmTed.

The questioned costs repo1ied as unsuppo1ied costs on the SPFS ar e the actual dollars questioned
as a result of our testing procedures. No projected enor or consideration of precision is included
in these am ounts.

Notes B through I. Explanation of Questioned Cost s

                                          I             I
                                                                         Schedule of Findin2s and
Note     Line Item            Questioned Cost Description
                                                                           Responses Reference
 B      ASAP          •   Ineligible costs of $43 due to lodging         Chemonics ASAP NFR
        Allowan ces       costs exceeding the Depa1iment of State        2014-2.4
                          limitations
 c      ASAP          •   Unsuppo1i ed costs of $2,148 due to a lack     Chemonics ASAP NFR
        ODCs              of competitive bidding documentation           2014-2.1



                                                  12
                                                                     Schedule of Findings and
Note    Line Item            Questioned Cost Description
                                                                       Responses Reference
                     •   Unsuppo1ted costs of $440 due to a lack     Chemonics ASAP NFR
                         of proper timekeeping documentation         2014-2.2
                     •   Unsupported costs of $141 ,027 due to a     Chemonics ASAP NFR
                         lack of consent to subcontract              2014-2.4
                     •   Unsupported costs of $794 due to a lack     Chemonics ASAP NFR
                         of suppo1t ing documentation                2014-2.4
                     •   Unsuppo1ted costs of $19,899 due to         Chemonics ASAP NFR
                         improper cost allocation methods            2014-3
 D     ASAP Sub- •       Unsuppo1ted costs of $49,170 due to a       Chemonics ASAP NFR
       contracts         lack of competitive bidding                 2014-2.1
                         documentation
 E     ASAP          •   Unsuppo1ted costs of $856,496 due to an     Chemonics ASAP NFR
       Grants an d       unresolved prior year audit finding         2014-2.3
       Associated    •   Unsupported costs of $18,650 due to a       Chemonics ASAP NFR
       Feed              lack of approval to incur costs             2014-2.4
 F     ASI           •   Unsupported costs of $234 due to period     Chemonics ASI NFR
       Salaries          of performance discrepancies                2014-1.4
       an d Wages
 G     ASI           •   Unsupported costs of $7,764 due to a lack   Chemonics ASI NFR
       Allowan ces       of international travel approval            2014-2.2
 H     ASI Other     •   Unsupported costs of $4,026 due to a lack   Chemonics ASI NFR
       Direct            of suppo1ting documentation                 2014-2.6
       Costs         •   Ineligible costs of $ 130 due to purchase   Chemonics ASI NFR
       (ODC)             of ineligible goods                         2014-2.6
                     •   Unsuppo1ted costs of $13,307 due to a       Chemonics ASI NFR
                         lack of competitive bidding                 2014-2.1
                         documentation
  I    ASI Grants    •   Unsupported costs of $95,844 due to costs   Chemonics ASI NFR
                         exceeding budgeted amounts                  2014-1.4
                     •   Unsupported costs of $24,190 due to         Chemonics ASI NFR
                         insufficient invoice approvals              2014-1.1
                     •   Unsuppo1ted costs of $10,528 due to a       Chemonics ASI NFR
                         lack of Grant agreement documentation       2014-2.4
                     •   Unsupported costs of $787,795 due to a      Chemonics ASI NFR
                         lack of competitive bidding                 2014-2.1
                         documentation

Note J. Auditor's Note to SPFS Budget Explanation

Neither the ASI nor the ASAP contracts delineated costs in the budget by line item. Thus, the
presentation of Total Costs Incuned an d Fees is presented for a comparison of total budgeted
against total actual.




                                               13
                                                          1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



                           INDEPENDENT AUDITOR’S REPORT

To the President and Chief Executive Officer of Chemonics International, Inc. and the Special
Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) has audited
the Special Purpose Financial Statements (SPFS) of Chemonics International, Inc. (Chemonics)
for Contract Number 306-DOT-I-01-08-00033-00, Afghanistan Stabilization Initiative for the
period of June 26, 2009 through June 25, 2012 (herein referred to as the ASI contract); and for
Contract Number 306-C-00-07-00501-00, Accelerated Sustainable Agriculture Program for the
period of November 22, 2006 through October 30, 2011 (herein referred to as the ASAP
contract). The SPFS and accompanying footnote disclosures are the responsibility of
Chemonics’ management. Our responsibility is to express an opinion on the SPFS based on our
audit.

Except as discussed in the paragraph below, we conducted our audit of the SPFS in accordance
with auditing standards generally accepted in the United States of America, and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the SPFS for each contract are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the SPFS. An audit also includes assessing the accounting principles
used and significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our opinion.

The accompanying SPFS for each contract was prepared for the purpose of complying with
financial statement presentation requirements for the Office of the Special Inspector General for
Afghanistan Reconstruction (SIGAR) and reporting the amounts paid by the U. S. Government,
costs incurred and reimbursed, and resulting amounts paid by the U. S. Government over/(under)
the lesser of costs incurred and fees or project budget for the ASAP contract between Chemonics
and the United States Agency for International Development (USAID), as discussed in Note 1.
Further, as described in Note 2, the SPFS for each contract were prepared using a comprehensive
basis of accounting other than Generally Accepted Accounting Principles (GAAP).

We were unable to obtain adequate audit evidence specific to the Other Direct Costs (ODC) and
Grants balances for the ASI contract. Kearney noted a material amount of unsupported costs
related to these balances. Although the total questioned costs were not aggregately material to
the SPFS taken as a whole, we believe that these cost categories are of particular significance to
Chemonics and represent a substantial proportion of the SPFS.

In our opinion, except for the effects of such adjustments, if any, as might have been determined
to be necessary had we been able to examine adequate evidence regarding the ODC and Grant
balances, the matters discussed above, the SPFS for the contracts referred to in the first
paragraph above, present fairly, in all material respects, the amounts paid by the U. S.
Government, costs incurred and reimbursed, and resulting amounts paid by the U. S.


                                                14
Government over/(under) the lesser of costs incurred and fees or project budget for the indicated
periods, in accordance with the terms of the agreements and in conformity with the basis of
accounting described in Note 2 of the SPFS.

Our audit was conducted for the purpose of forming an opinion on the SPFS in accordance with
the SPFS presentation requirements in Note 1. Questioned costs are those costs that are
questioned by the auditor because of an audit finding. Therefore:

      The Transmittal Letter and the information presented in the Table of Contents, Executive
       Summary, and Management’s Responses to Our Findings are presented for the purpose
       of additional analysis and are not required parts of the SPFS. Such information has not
       been subject to the auditing procedures applied in the audit of the SPFS; accordingly, we
       do not express an opinion or provide any assurance on it
      The SPFS and accompanying notes are the responsibility of Chemonics’ management.
       The auditor’s questioned costs and accompanying notes are not part of the SPFS, and are
       a result of the audit procedures
      The scope of our audit of indirect costs was limited to determining whether the indirect
       rates per the Negotiated Indirect Cost Rate Agreement were properly applied to the direct
       costs and subsequently reported on the SPFS, and does not include procedures to verify
       the material accuracy of Chemonics’ indirect cost rates and fixed fee rates, as discussed
       in Note 5. These rates are subject to USAID oversight through an incurred cost audit.
       Therefore, such information has not been subject to the auditing procedures beyond those
       designed to test the application of those unaudited rates in the preparation of the SPFS;
       accordingly, we do not express an opinion or provide any assurance on the rates.

In accordance with Government Auditing Standards, we have also issued reports, dated March 25,
2014, on our consideration of Chemonics’ internal control over financial reporting (internal
control) and on our tests of its compliance with certain provisions of the contract agreement and
applicable laws and regulations. The purpose of those reports is to describe the scope of our
testing of internal control and compliance with certain provisions of the agreement and applicable
laws and regulations, as well as the results of that testing, and not to provide an opinion on
internal control or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards, and should be considered in assessing the
results of our audit.

                                 *      *       *      *       *




                                               15
This report is intended for the information of Chemonics, USAID, and SIGAR, and is not
intended to be and should not be used by anyone other than these specified parties. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be
considered before any information is released to the public.




Alexandria, Virginia
March 25, 2014




                                               16
                                                         1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                         PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


           INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

To the President and Chief Executive Officer of Chemonics International, Inc. and the Special
Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) has audited
the Special Purpose Financial Statements (SPFS) of Chemonics International, Inc. (Chemonics)
for Contract Number 306-C-00-07-00501-00, Accelerated Sustainable Agriculture Program for
the period of November 22, 2006 through October 30, 2011 (herein referred to as the ASAP
contract); and for Contract Number 306-DOT-I-01-08-00033-00, Afghanistan Stabilization
Initiative for the period of June 26, 2009 through June 25, 2012 (herein referred to as the ASI
contract), and have issued our Independent Auditor’s Report dated March 25, 2014. Except as
discussed in that report, we conducted our audit in accordance with auditing standards generally
accepted in the United States of America, and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the SPFS and accompanying footnote disclosures are free of material
misstatement.

Chemonics’ management is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments made by management are required to
assess the expected benefits and related costs of internal control policies and procedures. The
objectives of internal control are to provide Chemonics’ management with reasonable, but not
absolute, assurance that the assets are safeguarded against loss from unauthorized use or
disposition; transactions are executed in accordance with Chemonics management’s
authorization and in accordance with the terms of the agreements; and transactions are recorded
properly to permit the preparation of the SPFS in conformity with the basis of accounting
described in Note 2 to the SPFS. Because of inherent limitations in internal control, errors or
fraud may nonetheless occur and not be detected. Also, projection of any evaluation of the
structure to future periods is subject to the risk that procedures may become inadequate due to
changes in conditions, or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

In planning and performing our audit of the SPFS, Kearney considered Chemonics’ internal
control over financial reporting (internal control) by obtaining an understanding of the design
effectiveness of Chemonics’ internal controls, determining whether controls had been placed in
operation, assessing the control risk, and performing tests of Chemonics’ controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the SPFS, and not
to provide an opinion on the internal controls. Accordingly, we do not express an opinion on the
effectiveness of Chemonics’ internal control.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control that might be
significant deficiencies or material weaknesses; therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified. However, as


                                               17
described in the accompanying Schedule of Findings and Responses, we identified certain
deficiencies in internal control that we consider to be material weaknesses or significant
deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the two deficiencies described in the
accompanying Schedule of Findings and Responses, Table 3, to be material weaknesses.

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the one deficiency described in the Schedule of Findings and
Responses, Table 4, to be a significant deficiency.

Additionally, Chemonics’ management has given its response to the findings presented in our
report. We did not audit Chemonics’ response to the findings, and accordingly, we do not express
an opinion on it.

This report is intended solely for the information and use of Chemonics, the United States
Agency for International Development (USAID), and the Special Inspector General for
Afghanistan Reconstruction (SIGAR), and is not intended to be and should not be used by
anyone other than these specified parties. Financial information in this report may be privileged.
The restrictions of 18 U.S.C. 1905 should be considered before any information is released to the
public.




Alexandria, Virginia
March 25, 2014




                                                 18
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



               INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE

To the President and Chief Executive Officer of Chemonics International, Inc. and the Special
Inspector General for Afghanistan Reconstruction:

Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) has audited
the Special Purpose Financial Statements (SPFS) of Chemonics International, Inc. (Chemonics)
for Contract Number 306-C-00-07-00501-00, Accelerated Sustainable Agriculture Program for
the period of November 22, 2006 through October 30, 2011, (herein referred to as the ASAP
contract); and for Contract Number 306-DOT-I-01-08-00033-00, Afghanistan Stabilization
Initiative for the period of June 26, 2009 through June 25, 2012 (herein referred to as the ASI
contract) and have issued our Independent Auditor’s Report dated March 25, 2014. Except as
discussed in that report, we conducted our audit in accordance with auditing standards generally
accepted in the United States of America, and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the SPFS is free of material misstatement resulting from violations of
agreement terms, and laws and regulations that have a direct and material effect on the
determination of the SPFS amounts. Chemonics’ management is responsible for compliance
with agreement terms and applicable laws and regulations.

As part of obtaining reasonable assurance about whether the SPFS for each contract are free of
material misstatement, we performed tests of Chemonics’ compliance with certain provisions of
agreement terms, and applicable laws and regulations. However, our objective was not to
provide an opinion on overall compliance with such provisions. Accordingly, we do not express
such an opinion.

The results of our tests of compliance with certain provisions of agreement terms and applicable
laws and regulations disclosed five instances of non-compliance, described in the accompanying
Schedule of Findings and Responses, Table 5, that are required to be reported under Government
Auditing Standards.

Auditors must plan and perform the audit to obtain sufficient appropriate audit evidence for
obtaining reasonable assurance about whether the financial statements are free of material
misstatement (whether caused by error or fraud). The results of our tests of compliance with
certain provisions of agreement terms, and applicable laws and regulations did not disclose any
instances of fraud or abuse. However, our objective was not to provide an opinion on instances
of fraud. Accordingly, we do not express such an opinion.

Additionally, Chemonics’ management has given its response to the findings presented in our
report. We did not audit Chemonics’ response to the findings, and accordingly, we do not express
an opinion on it.

                                *       *      *       *          *



                                               19
This report is intended solely for the information and use of Chemonics, the United States
Agency for International Development (USAID), and the Special Inspector General for
Afghanistan Reconstruction (SIGAR), and is not intended to be and should not be used by
anyone other than these specified parties. Financial information in this report may be privileged.
The restrictions of 18 U.S.C. 1905 should be considered before any information is released to the
public.




Alexandria, Virginia
March 25, 2014




                                                20
KEARNEY&                                        Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report


SCHEDULE O F FINDINGS AND RESPONSES

Kearney & Company, P.C. (refe1Ted to as "Kearney,'' "we," and "our" in this repo1i) noted
individual control deficiencies that, in the aggregate, resulted in two material weaknesses, as
shown in Table 3 below; one significant deficiency, as shown in Table 4 below; and instances of
non-compliance, as noted in Table 5 below.

Material Weaknesses
The individual control deficiencies that contributed to the material weaknesses identified below
are documented in the Condition sections of the referenced Notifications of Finding and
Responses (NFR), and are summarized and referenced here accordingly.

Specific to the Other Direct Costs (ODC) and the subcontractor balances for both the
Afghanistan Stabilization Initiative (ASI) and Accelerated Sustainable Agriculture Program
(ASAP) contracts, and the Salaries and Grants balance for the ASI contract, Kearney noted a
significant amount of internal control issues, that when taken considered aggregately, indicate a
reasonable possibility that a material misstatement of the entity's financial statements will not be
prevented, or detected and conected on a timely basis.

                                 Table 3 - Material Weaknesses
                                                                    Schedule of Findings and
                     Deficiency Summary
                                                                      Responses Reference
Material Weakness #1- Inadequate Review and Approval Procedures: Chemonics
International, Inc. (Chemonics) did not have adequate internal review and approval procedures in
place during the periods under audit
• Relevant suppo1i ing documentation for Grants was not           Chemonics ASAP NFR 2014-1
    properly approved, resulting in unsuppo1ied costs of          Chemonics ASI NFR 2014-1.1
    $24,190. Multiple other exceptions were noted due to
    inadequately approved m:ants and ODC documentation
•   Control  deficiencies were noted due to inadequate review     Chemonics ASI NFR 2014-1.4
    procedures over Grants and Payroll, resulting in
    unsuppo1ied costs of $96,078. Additional exceptions were
    noted due to a transliteration issue and an exchange rate
    issue
• Grant closeout documentation was not properly reviewed,         Chemonics ASI NFR 2014-1.3
    resulting in unexplained discrepancies between general
    ledger (GL) balances and supporting documentation for
    Grants
• Inadequate review and approval procedures led to                Chemonics ASI NFR 2014-1.2
    unprevented/undetected clerical en ors pertaining to Payroll
    and Grants transactions
•   Grants  and subcontractor documentation was not properly      Chemonics ASI NFR 2014-1.5
    reviewed resulting in timing issues for approvals and
    creation of am:eement documentation




                                                 21
KEARNEY&                                        Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report



                                                                    Schedule of Findings and
                     Deficiency Summary
                                                                      Responses Reference
M aterial W eakness #2 - Inadequate Recor dkeeping: Chemonics was unable to provide
adequate suppo11ing documentation, as the required documentation to suppo11 the controls, and
in some instances the costs incmTed, was unavailable or did not exist
• Lack of competitive bidding documentation for Grants an d Chemonics ASAP NFR 2014-
    ODCs resulted in unsuppo11ed costs of $801 ,102, and lack    2. 1
    of competitive bidding documentation for subcontractors      Chemonics ASI NFR 2014-2.1
    and ODCs resulted in unsuppo11ed costs of $5 1,318
• Lack of documentation to suppo1i the adequate closeout of Chemonics ASAP NFR 201 4-
    a Grant resulted in unsuppo1ied costs of $856,496. Two       2.3
    other exceptions were noted due to lack of closeout          Chemonics ASI NFR 201 4-2.5
    documentation
• Control deficiencies were noted due to lack of suppo1i ing     Chemonics ASAP NFR 201 4-
    documentation for Grants, Allowan ces, and ODCs              2.4
    resulting in unsuppo1ied costs of $160,471 and ineligible    Chemonics ASI NFR 2014-2.6
    costs of $43 , and for Grants an d ODCs resulting in
    unsupported costs of $4,026 an d ineligible costs of $130.
    One other exception was noted in which a subcontractor
    period of perfo1man ce was not extended but the
    overarching Grant agreement was extended
• Lack of documentation to suppo1i the Grant agreement for Chemonics ASI NFR 2014-2.4
    Grants costs incmTed resulted in unsuppo1ied costs of
    $10,528. Three oth er exceptions were noted related to lack
    of suooorting documentation for Grant costs incuned
• Lack of documentation to suppo1i the approval of               Chemonics ASI NFR 2014-2.2
    international travel for allowance costs incmTed resulted in
    unsupported costs of $7,764. An additional exception was
    noted where an approved expense repo1i was not provided
    to suppo1i the approval of travel costs incmTed .
•   Lack  of documentation to suppo1i the costs incmTed an d/or Chemonics ASAP NFR 2014-
    receipt of goods/services for ODCs resulted in unsuppo1i ed 2.2
    costs of $440. Four other exceptions were noted in which     Chemonics ASI NFR 2014-2.3
    proper documentation to support th e receipt of goods was
    not provided

                                 *       *       *          *          *
Significant Deficiency
The individual control deficiencies that contributed to the significant deficiency identified below
are documented in the Condition sections of th e referenced NFR, and are summarized and
referenced here accordingly.




                                                 22
KEARNEY&                                        Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report


                                            ,
                           ·    S                                Schedule of Findings and
                    D efi1c1ency ummary
                                                                   Responses Reference
Significant Deficiency #1 - Improper Cost Allocations: Chemonics used improper accounting
methods to allocate Rest and Relaxation (R&R), Regional Rest Break (RRB), and other vacation
costs incmTed by an employee
• Costs associated with R&R, RRB, and other vacation costs Chemonics ASAP NFR 2014-3
    for an employee were charged solely to the ASAP contract;
    however, the employee worked on multiple projects
    throughout this time and the costs should have been
    allocated equitably, resulting in unsupported costs of
    $19,899. As an allocation methodology was not
    determined, the entire amount of related costs were
    questioned.

                                 *      *        *          *          *
Non-compliance and Other Matters
The individual contrnl deficiencies that contributed to the non-compliance and other matters
identified below are documented in the Condition sections of the referenced NFR, and are
summarized and referenced here accordingly.


                                                       '
                Instance of Non-compliance                                   Schedule of Findings and
                                                                               Responses Reference
Grants suppo1ting documentation not provided                               Chemonics ASI NFR 2014-2.4
Grants closeout documentation not provided                                 Chemonics ASI NFR 2014-2.5
                                                                           Chemonics ASAP NFR 2014-
                                                                           2.3
Unexplained discrepancies between GL balances and Grants                   Chemonics ASI NFR 2014-1.3
closeout documentation
Competitive bidding documentation not provided                             Chemonics ASI NFR 2014-2.1
                                                                           Chemonics ASAP NFR 2014-
                                                                           2.1
Improper cost allocations                                                  Chemonics ASAP NFR 2014-3




                                                 23
KEARNEY&                                         Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                      Chemonies International, Inc.
                                                                                                            Audit Report



                                  Chemonics ASAP NFR 2014-1

Condition: Inadequate Chemonics International, Inc. (Chemonics) internal processes over
Accelerated Sustainable Agriculture Program (ASAP) transactions occmTing between November
22, 2006 and October 31 , 2011 resulted in contrnl deficiencies, which are described in fmth er
detail below. The dollar values reported in this finding are whole United States Dollars (USD)
fully burdened using the rates per Chemonics ' Negotiated Indirect Cost Rate Agreement and
other relevant fees to the contract.

Relevant suppo1t ing documentation pertaining to Grants was not properly approved by
superviso1y Chemonics personnel in the following instance:

   •   Grants: For a total of 10 instances related to one Grant, a Grant modification was not
       signed an d agreed to by Chemonics and the grantee until after the effective date;
       however, additional documentation provided sufficiently suppo1ied the costs. These
       instan ces did not result in questioned costs.

Cause: Chemonics did not have adequate internal control processes, specifically related to the
review and approval of transactions, in place during the period under audit to ensure
documentation was reviewed and approved as appropriate, and was timely an d adequately
maintained to suppo1i incmTed costs.

Criteria: Per the Government Accountability Office's (GAO) Standards for Internal Control in
the Federal Government, dated N ovember 1999:

       "Transactions should be promptly recorded to maintain their relevan ce an d value to
        management in controlling operations an d making decisions. This applies to the entire
        process or life cycle of a transaction or event from the initiation and authorization
        through its final classification in surnmaiy records. In addition, control activities help to
        ensure that all transactions ar e completely and accurately recorded."

The Committee ofSponsoring Organizations of the Treadway Commission (COSO) , Internal
Control - Integrated Fram ework, Chapter 7, Control Activities, Principle 10 states, "The
organization selects and develops control activities that contribute to the Initigation of risks to the
achievement of objectives to acceptable levels."

The COSO, Internal Control-Integrated Framework, Chapter 7, Control Activities, Principle 10,
Subsection Business Process Control Activities states, "Accuracy - Transactions ar e recorded at
th e conect am ount in the account (an d on a timely basis) as each stage of processing."

Effect: Internal controls, in some instances, may not be operating effectively to prevent or detect
material Inisstatements.

Recommendation #1: Keain ey & Company, P.C. (refe1Ted to as "Kearney," "we," and "our" in
this report) recommends that Chemonics improve procedures to ensure that proper reviews an d




                                                  24
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                        Chemonics International, Inc.
                                                                                                       Audit Report


approvals are performed and adequately documented with sufficient support for all contract costs
incurred.

Management’s Response:

Chemonics’ management provided an overall response to the audit report and specific responses
to each individual finding. The full text of Chemonics’ response is included in Appendix B to
this report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management Response in Appendix C.




                                               25
KEARNEY&                                       Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                    Chemonies International, Inc.
                                                                                                          Audit Report



                                 Chemonics ASAP NFR 2014-2

Condition: Chemonics ' internal processes did not produce or retain sufficient doclllllentation for
ASAP trnnsactions occuning between November 22, 2006 and October 31, 2011 , resulting in
control deficiencies and a total of $1,068,768 in questioned costs ($1,068,725 unsuppo1ied and
$43 ineligible), which are described in fmiher detail below. The dollar values repo1ied in this
finding are whole USD fully burdened using the rates per Chemonics' Negotiated Indirect Cost
Rate Agreement and other relevant fees to the contract.

ASAP NFR 2014-2.1 - Competitive Bidding Documentation

Chemonics did not provide sufficient documentation to evidence that competitive bidding
procedures were followed when required, in the following instances:

   •   Subcontracts: For two instances related to one subcontract, one in 2009 and one in 2010,
       sufficient bidding doclllllentation was not provided to suppo1i the fair value assessment
       and was not documented prior to the award. While a monthly repo1i was provided, it did
       not suppo1i the vendor nor the ex edienc of the vendor chosen, resultin in unsu 01ied
       costs of $49 ,170.
   •   ODCs: For one instance in 2008, sufficient bidding doclllllentation was not provided to
       su 01i the fair market value of the costs, resultin in unsuppo1ied costs of $2,148.11


ASAP NFR 2014-2.2 - Timesheets, Receiving Reports, and Invoices

Chemonics could not provide sufficient doclllllentation to suppo1i costs incmTed and/or receipt of
goods/services for Grants and ODCs, in the following instances:

   •   For two instances in 2007 for Grants, doclllllentation to evidence receipt of
       goods/services was not provided until well after the costs were incuned
   •   For one instance in 2007 for ODCs, timesheets or other evidence that the intended
       recipients of the a ments received a ent was not rovided, resultin in unsuppo1ied
       costs of $440.
   •   For four instances for ODCs, evidence that the goods were received was provided;
       however, an exception was noted as receipt of goods prior to payment was not provided.

ASAP NFR 2014-2.3 - Grant Closeout Documentation

The Grant Completion Ce1i ificate and other related closeout documentation, as required by the
Chemonics Grants Manual to suppo1i the closeout of the Grant agreement, was not provided in
the following instances:

   •   In 20 instances, adequate Grant closeout documentation was not provided, including the
       completion certificate, thus not allowing for completion of a reconciliation between the
       general ledger (GL) and the completion ce1i ificate, resulting in a control issue and no
       questioned costs


                                                26
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


      In ten instances related to one grant, the audit report received for the grantee indicated
       questioned costs. Based on the questioned costs as a result of a previous audit, costs
       associated to the grantee were deemed unsupported in the amount of $856,496.


ASAP NFR 2014-2.4 – Miscellaneous

Chemonics could not provide sufficient documentation to support costs incurred for Grants,
Allowances, and ODCs in the following instances:

      An instance for Grants was noted in which neither a Grant agreement nor a work plan,
       which was to serve as a Grant agreement, was provided, resulting in unsupported costs of
       $18,650.
      An instance for Allowances was noted in which lodging was claimed in excess of the
       Department of State (DOS) limit. United States Agency for International Development
       (USAID) approval was not provided to support the lodging amount exceeding the DOS
       limit, resulting in ineligible costs of $43.

      An instance for ODCs was noted in which consent to subcontract for Modifications 2 and
       3 was not provided, resulting in unsupported costs of $141,027.

      An instance for ODCs was noted in which no supporting documentation was provided,
       resulting in unsupported costs of $794.


Cause: Chemonics was unable to provide adequate supporting documentation because the
required documentation to support the controls, and in some instances the costs incurred, was
unavailable or did not exist. Due to records maintenance and retention practices in place during
the contract period, Chemonics’ records are maintained in hard copy, which further complicates
Chemonics’ ability to provide sufficient, timely supporting documentation.

Criteria: Per the Federal Acquisition Regulation (FAR), Subpart 13.0, Simplified Acquisition
Procedures, Section 13.003, “Policy”:

       “(a) Agencies shall use simplified acquisition procedures to the maximum extent
             practicable for all purchases of supplies or services not exceeding the simplified
             acquisition threshold (including purchases at or below the micro-purchase
             threshold). This policy does not apply if an agency can meet its requirement using—
             (1) Required sources of supply under Part 8 (e.g., Federal Prison Industries,
                  Committee for Purchase from People Who are Blind or Severely Disabled, and
                  Federal Supply Schedule contracts);
             (2) Existing indefinite delivery/indefinite quantity contracts; or
             (3) Other established contracts.
        (b)(1) Each acquisition of supplies or services that has an anticipated dollar value
               exceeding $3,000 ($15,000 for acquisitions as described in 13.201(g)(1)) and not
               exceeding $100,000 ($250,000 for acquisitions described in paragraph (1) of the


                                                 27
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


              Simplified Acquisition Threshold definition at 2.101) is reserved exclusively for
              small business concerns and shall be set aside (see 19.000 and Subpart 19.5).
              See 19.000(b) and 19.502-2 for exceptions.”

Per the FAR, Subpart 13. 1, Procedures, Section 13.104, “Promoting Competition”:

       “The contracting officer must promote competition to the maximum extent practicable to
        obtain supplies and services from the source whose offer is the most advantageous to the
        Government, considering the administrative cost of the purchase.
              (a) The contracting officer must not—
                  (1) Solicit quotations based on personal preference; or
                  (2) Restrict solicitation to suppliers of well-known and widely distributed
                   makes or brands.
              (b) If using simplified acquisition procedures and not providing access to the
                  notice of proposed contract action and solicitation information through the
                  Governmentwide point of entry (GPE), maximum practicable competition
                  ordinarily can be obtained by soliciting quotations or offers from sources
                  within the local trade area. Unless the contract action requires synopsis
                  pursuant to 5.101 and an exception under 5.202 is not applicable, consider
                  solicitation of at least three sources to promote competition to the maximum
                  extent practicable. Whenever practicable, request quotations or offers from two
                  sources not included in the previous solicitation.”

Per the Federal Acquisition Regulation (FAR), Subpart 13.106, Soliciting Competition,
Evaluation of Quotations or Offers, Award and Documentation, Section 13.106-3, “Evaluation
of Quotations or Offer”:

       “(a) Considerations. In soliciting competition, the contracting officer shall consider
           the guidance in 13.104 and the following before requesting quotations or offers:
          (2) If only one response is received, include a statement of price reasonableness in the
              contract file. The contracting officer may base the statement on—
              (i) Market research;
              (ii) Comparison of the proposed price with prices found reasonable on previous
                    purchases;
              (iii) Current price lists, catalogs, or advertisements. However, inclusion of a price
                    in a price list, catalog, or advertisement does not, in and of itself, establish
                    fairness and reasonableness of the price;
              (iv) A comparison with similar items in a related industry;
              (v) The contracting officer’s personal knowledge of the item being purchased;
              (vi) Comparison to an independent Government estimate; or
              (vii) Any other reasonable basis.”

Per FAR, Subpart 13.104, Promoting Competition:

       “(b) If using simplified acquisition procedures and not providing access to the notice
           of proposed contract action and solicitation information through the Governmentwide


                                                 28
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


          point of entry (GPE), maximum practicable competition ordinarily can be obtained by
          soliciting quotations or offers from sources within the local trade area. Unless the
          contract action requires synopsis pursuant to 5.101 and an exception under 5.202 is
          not applicable, consider solicitation of at least three sources to promote competition
          to the maximum extent practicable. Whenever practicable, request quotations or
          offers from two sources not included in the previous solicitation.”

Per FAR, Subpart 6.1, Full and Open Competition, Section 6.101, “Policy”:

       “(a) 10 U.S.C. 2304 and 41 U.S.C. 253 require, with certain limited exceptions (see
            Subparts 6.2 and 6.3), that contracting officers shall promote and provide for full and
            open competition in soliciting offers and awarding Government contracts.
        (b) Contracting officers shall provide for full and open competition through use of the
            competitive procedure(s) contained in this subpart that are best suited to the
            circumstances of the contract action and consistent with the need to fulfill the
            Government’s requirements efficiently (10 U.S.C. 2304 and 41 U.S.C. 253).”

Per FAR, Subpart 31.2, Contracts With Commercial Organizations, Section 31.201-2 (d),
“Determining Allowability”:

       “A contractor is responsible for accounting for costs appropriately and for maintaining
        records, including supporting documentation, adequate to demonstrate that costs
        claimed have been incurred, are allocable to the contract, and comply with applicable
        cost principles in this subpart and agency supplements. The contracting officer may
        disallow all or part of a claimed cost that is inadequately supported.”

Per the Code of Federal Regulations (CFR), Section 226.53, Retention and Access Requirements
for Records:

      “(a) This section sets forth requirements for record retention and access to records for
       awards to recipients. USAID shall not impose any other record retention or access
       requirements upon recipients.
       (b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID.”

Per CFR, Section 226.71, Closeout Procedures:

      “(a) Recipients shall submit, within 90 calendar days after the date of completion of the
       award, all financial, performance, and other reports as required by the terms and
       conditions of the award. USAID may approve extensions when requested by the
       recipient.
       (b) Unless USAID authorizes an extension, a recipient shall liquidate all obligations
       incurred under the award not later than 90 calendar days after the funding period or the


                                                29
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                        Chemonics International, Inc.
                                                                                                       Audit Report


       date of completion as specified in the terms and conditions of the award or in agency
       implementing instructions.”

Per the Automated Directives System (ADS), Chapter 303, Grants and Cooperative Agreements
to Non-Governmental Organizations, Section 303.3.13, “The Award Process and Elements of an
Award”:

      “Before the award is signed, the AO must ensure that all of the elements of a legally
       binding agreement are present. These are:

                 Competent parties,
                 Proper subject matter,
                 Sufficient consideration,
                 Mutual understanding, and
                 Agreement on the terms of the assistance instrument.”

The Chemonics’ USAID-approved Grants Manual states, “If the completion report is deemed
acceptable and all other requirements have been met, the grants manager will prepare a
Completion Certificate, which upon signature by the recipient and ASAP-Chemonics COP
serves to formally close the grant file.”

Per Chemonics’ Procurement Guidelines for the Accelerating Sustainable Agriculture Program
(ASAP) in Afghanistan, Section IV, “Local Procurement Procedures, C, Direct Contract
Procedures”:

      “Procurements of commodities and services within the host country which are undertaken
       directly by USAID or its contractors shall be in accordance with the requirements of
       FAR/AIDAR. Grants and cooperative agreements are subject to the procurement
       standards in those agreements.”

The Chemonics’ Procurement Guidelines for the Accelerating Sustainable Agriculture Program
(ASAP) in Afghanistan, Section IV, “Local Procurement Procedures, G, Simplified Acquisition
Procedures” states:

      “Most local procurement can be done by ‘Simplified Acquisition’ Procedures (up to
       $100,000):

           Transaction Value           Procedure
           1. $500 and below*          May purchase without quotations. Make sure price is
                                       reasonable.
           2. Over $500 - $100,000     Issue solicitation document with clear requirements,
                                       specifications and evaluation criteria. At least three
                                       (3) quotations required.”

Per Chemonics’ Procurement Guidelines for the Accelerating Sustainable Agriculture Program
(ASAP) in Afghanistan, Section IV, “Local Procurement Procedures, I, Document the Award”:


                                               30
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                        Chemonics International, Inc.
                                                                                                       Audit Report




       “Document the award for the files. Show that:
          1. Offers were properly solicited and/or advertised.
          2. Offers were properly submitted.
          3. Necessary waivers, approvals, and authorizations were obtained.
          4. Competition requirements were met or lack of competition was justified.”

Effect: The conditions noted above, in regard to lack of supporting documentation, may result in
the following:

      Increased risk that costs incurred are greater than the fair market value, and/or the
       Government does not receive the best value for procured goods/services when a
       contractor lacks sufficient competitive bidding documentation
      Increased risk that the work was not completed by the grantee or the costs claimed were
       not accurate due to lack of sufficient closeout documentation
      Increased likelihood or frequency that other miscellaneous costs incurred are unallowable
       because relevant documentation was not provided.

Recommendation #2: Kearney recommends that Chemonics either provide the necessary
supporting documentation or reconciliation to USAID in support of their contract closeout
procedures, or return the questioned amount of $1,068,768 based on lack of supporting
documentation or explanations for the variances identified.

Recommendation #3: Kearney recommends that Chemonics improve procedures to ensure that
adequate documentation is maintained and readily available to support all costs incurred.

Management’s Response:

Chemonics’ management provided an overall response to the audit report and specific responses
to each individual finding. The full text of Chemonics’ response is included in Appendix B to
this report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management Response in Appendix C to this report.




                                               31
KEARNEY&                                         Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                      Chemonies International, Inc.
                                                                                                            Audit Report



                                 Chemonics ASAP NFR 2014-3

Condition: Chemonics ' internal processes did not account for the allocation of costs to the
appropriate ASAP cost objective for transactions between November 22, 2006 and October 30,
2011 , resulting in non-compliance and a total of $19,899 unsuppo1ied costs, which are described
in fmi her detail below. The dollar values repo1ied in this finding are whole USDs fully burdened
using the rates per Chemonics ' Negotiated Indirect Cost Rate Agreement an d other relevant fees
to the contract.

Between November 2007 and Febrnaiy 2010, the rest an d relaxation costs within ODCs for an
employee were charged directly to the ASAP cost objective, although the employee 's direct
sala1y was spread across four contracts and seven Contract Line Item Numbers (CLIN).
Chemonics did not implement proper accounting methods to ensure that costs were app1  o iriately
recorded to the ro er contracts and CLINs, resultin in unsupported costs of $19,899.


Cause: Chemonics inconectly interpreted the FAR and concluded that Rest and Relaxation
(R&R) costs could be chai·ged to the employee 's default project assignment, even though the
employee worked on multiple assignments. Chemonics did not have adequate internal review
processes or oth er internal controls in place during th e period under audit to ensure that
accounting inte1p retations were fully justified an d in compliance with guidance, specifically
FAR.

Criteria: Per FAR, Subpait 31.2, Contracts With Commercial Organizations, Section 31.201-4,
"Determining Allocability":

       "A cost is allocable if it is assignable or chargeable to one or more cost objectives on the
       basis of relative benefits received or other equitable relationship. Subject to the
       foregoing, a cost is allocable to a Government contract if it -
               (a) Is incmTed specifically for the contract;
               (b) Benefits both the contract and other work, and can be distributed to them in
                    reasonable propo1iion to the benefits received; or
               (c) Is necessaiy to the overall operation of the business, although a direct
                    relationship to any particulai· cost objective cannot be shown."

Per FAR, issued March 2005 by the General Services Administration (GSA), Depaiiment of
Defense (DoD), and the National Aeronautics and Space Administration (NASA), Section
31.202, "Direct Costs, (a)":

      "No final cost objective shall have allocated to it as a direct cost any cost, if other costs
       incuned for the same pmpose in like circumstan ces have been included in any indirect
       cost pool to be allocated to that or any other final cost objective. Direct costs of the
       contract shall be charged directly to the contract. All costs specifically identified with
       oth er final cost objectives of the contractor ai·e direct costs of those cost objectives and
       ai·e not to be chai·ged to th e contract directly or indirectly."



                                                  32
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


Per FAR, issued March 2005 by GSA, DoD, and NASA, Section 31.203, “Indirect Costs, (b)”:

       “After direct costs have been determined and charged directly to the contract or other
       work, indirect costs are those remaining to be allocated to intermediate or two or more
       final cost objectives. No final cost objective shall have allocated to it as an indirect cost
       any cost, if other costs incurred for the same purpose, in like circumstances, have been
       included as a direct cost of that or any other final cost objective.”

Effect: The condition noted above, in regard to misallocation of costs, results in costs being
misallocated and incorrectly charged to the ASAP cost objective and other cost objectives being
incorrectly undercharged.

Internal controls, in some instances, may not be operating effectively to prevent or detect
material misstatements.

Recommendation #4: Kearney recommends that Chemonics improve procedures to ensure that
all direct charges to cost objectives are proper and in accordance with FAR and other
requirements.

Recommendation #5: Kearney also recommends that Chemonics return any or all of the
questioned $19,899 that remains unallowable based on the re-allocation of costs.

Management’s Response:

Chemonics’ management provided an overall response to the audit report and specific responses
to each individual finding. The full text of Chemonics’ response is included in Appendix B to
this report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management Response in Appendix C to this report.




                                                 33
KEARNEY&                                      Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                   Chemonies International, Inc.
                                                                                                         Audit Report



                                 Chemonics ASI NFR 2014-1

Condition: Inadequate Chemonics internal processes over Afghanistan Stabilization Initiative
(ASI) transactions occmTing between June 26, 2009 and June 25 , 2012 resulted in contrnl
deficiencies and a total of $120,268 in unsuppo1ied costs, which are described in fmiher detail
below. The dollar values repo1ied in this finding are whole USDs fully bmdened using the rates
per Chemonics' Negotiated Indirect Cost Rate Agreement and other relevant fees to the contract.

AS! NFR 2014-1.1-InsufficientApprovals

Relevant suppo1iing documentation pe1iaining to Grants and ODCs was not properly approved
by superviso1y Chemonics personnel in the following instances:

   •   Grants: Instances of insufficient approval related to Grant and subcontract agreements,
       modifications, Memorandum of Negotiation, Clearance Fonns, Completion Certificates,
       and closeout documentation, specifically:
          Six instances related to three Grants in which the Memorandum of Negotiation was
          not signed
          91 instances related to 76 Grants in which the Memorandum of Negotiation was
          signed after the staii date of the Grant agreement
          20 instances related to 15 Grants in which the Grant closeout documentation was not
          signed for more than one year after the end of the Grant agreement
          41 instances related to 36 Grants in which USAID approval was not provided for the
          Grant closeout
          75 instances related to 61 Grants in which the Grant agreement was not signed until
          after the staii date of the Grant
          44 instances related to 36 Grants in which the Grant modification was signed after the
          staii date of the modification
          17 instances related to 12 Grants in which the Grant modification was not signed
          Two instances related to two Grants in which the subcontract agreement was not
          signed
          16 instances related to 15 Grants in which the Grant Clearance F01m was not signed
          until after the sta1i date of the Grant agreement
          10 instances related to seven Grants in which the Grant Completion Ce1iification was
          not signed by the grantee
          10 instances related to seven Grants in which the subcontract modification was not
          appropriately signed by all paiiies until after the effective date of the modification
          One instance related to one Grant in which the Grant Clearance Fo1m was not
          approved by USAID
          20 instances related to 10 Grants and one subcontractor that implemented 13 Grants
          in which the subcontract agreement not appropriately signed by all pa1iies until after
          the staii date of the agreement
   •   Grants: Instances of insufficient approval(s) of payment related suppo1iing
       documentation:




                                               34
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


       -   One instance in which the invoice was not properly approved by appropriate
           Chemonics personnel, resulting in unsupported costs of $24,190.

       - Two instances in which the Purchase Order (PO) was not approved until after the
         delivery of goods occurred
      ODCs: Instances of insufficient approval were noted:
       - For one instance in 2009, the expense report was not approved. As costs were
         sufficiently supported, this exception did not result in questioned costs
       - For one instance, the PO was approved after the invoice and delivery of the goods.
         As the goods were received and the costs were sufficiently supported, this exception
         did not result in questioned costs.

ASI NFR 2014-1.2 – Clerical Issues

Clerical errors were not prevented or detected by Chemonics’ internal controls in the following
instances:

      Payroll: In one instance related to payroll, due to a clerical error, an employee had an
       incorrect amount of retroactive salary paid based on a pay raise. The error resulted in an
       inconsequentially lower amount of costs incurred; therefore, this error did not result in
       questioned costs
      Grants: For four instances related to one subcontractor that implemented 13 Grants,
       fingerprints were used in lieu of signatures, and the fingerprints were either smudged or
       faint and would therefore be unusable to verify the identification of the individual. For
       one instance related to one Grant, the incorrect Grant budgeted amount was recorded on
       the activity closeout documentation.

ASI NFR 2014-1.3 – Unexplained Discrepancies between GL Balances and Grant Closeout
Documentation

Unexplained discrepancies remained between GL balances and Grant closeout documentation, in
the following instances:

      Grants: A total of 12 instances related to nine Grants were identified in which the
       transactions recorded in the GL did not reconcile to the amount that was recorded on the
       activity closeout documentation. While none of these costs were considered to be
       unsupported as sufficient supporting documentation was provided to support the
       individual costs, a control deficiency was noted.

ASI NFR 2014-1.4 – Improper Review Procedures

Adequate review procedures were not performed over Grants and Payroll in the following
instances:

      In one instance in 2012 for Payroll, the period of performance on the Employee
       Agreement did not reconcile to the period of performance on the Earnings Statement,


                                                35
                                                  Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                            Chemonics International, Inc.
                                                                                                           Audit Report


        resulting in unsupported costs of $234.

       For two instances for Payroll, a transliteration issue occurred, resulting in the employee’s
        name not appearing the same on all supporting documentation. Since the costs were
        otherwise fully supported, only a control issue was noted
       For one instance for Grants, the total amount of subcontract costs incurred exceeded the
        amount of USD costs authorized by USAID in the consent to subcontract. This was the
        result of a change in the exchange rate applied per the consent to subcontract versus the
        exchange rate applied to the actual payment due to the timing of the payment. The final
        amount paid by Chemonics for all costs, including this subcontract, did not exceed the
        ceiling of the previously, USAID-approved in-kind grant, nor did it exceed the ceiling for
        the local currency (Afghani) amount per the subcontract, and therefore did not result in a
        questioned cost
       For eight instances in 2010 for Grants, the total costs incurred exceeded the budgeted
        amounts, resulting in unsupported costs of $69,671.

       For four instances in 2011 for Grants, the total costs incurred exceeded the budgeted
        amounts, resulting in unsupported costs of $26,173.


ASI NFR 2014-1.5 – Timing Issues

Timing issues were noted in the supporting documentation provided by Chemonics in the
following instances:

       For nine instances for subcontractors, the payment was not made within 30 days of
        receipt of the invoice, as required by the subcontract agreement. Through review of other
        relevant documentation provided by Chemonics, the costs incurred were considered
        reasonable. As a result, these instances did not result in unsupported costs
       For one instance for Grants, the Grant modification was not issued until the previous
        modification had ended, resulting in a control issue
       For two instances for Grants related to one Grant, the Grant modification was not issued
        until six months after the original contract period of performance had ended, resulting in
        a control issue.

Cause: Chemonics did not have adequate processes specifically related to the review and
approval of internal controls in place during the period under audit to:

       Identify and correct clerical errors during the course of its review processes (ASI NFR
        2014-1.2)
       Ensure relevant reconciliations were performed to ensure that supporting documentation
        was accurate (ASI NFR 2014-1.3)
       Ensure documentation was reviewed and approved as appropriate, and was timely and
        adequately maintained to support incurred costs (ASI NFR 2014-1.1, 2014-1.4, 2014-
        1.5).



                                                   36
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


Criteria: The following criteria apply to various conditions identified, which are referenced
accordingly as noted below.

ASI NFR 201401.1 – Insufficient Approvals; ASI NFR 2014-1.4 – Improper Review Procedures;
and ASI NFR 2014-1.5 – Timing Issues

The COSO, Internal Control – Integrated Framework, Chapter 7, Control Activities, Principle 10
states, “The organization selects and develops control activities that contribute to the mitigation
of risks to the achievement of objectives to acceptable levels.”

The COSO, Internal Control – Integrated Framework, Chapter 7, Control Activities, Principle 10,
Subsection Business Process Control Activities states, “Accuracy – Transactions are recorded at
the correct amount in the account (and on a timely basis) as each stage of processing.”

Further, per FAR Subpart 52.2, Text of Provisions and Clauses, Section 52.216-7, “Allowable
Cost and Payment”:

       “(b) Reimbursing costs
         (1) For the purpose of reimbursing allowable costs (except as provided in
             paragraph (b)(2) of this clause, with respect to pension, deferred profit sharing, and
             employee stock ownership plan contributions), the term “costs” includes only—
            (ii) When the Contractor is not delinquent in paying costs of contract performance in
                 the ordinary course of business, costs incurred, but not necessarily paid, for—
               (A) Supplies and services purchased directly for the contract and associated
                    financing payments to subcontractors, provided payments determined due will
                    be made—
                  (1) In accordance with the terms and conditions of a subcontract or invoice; and
                  (2) Ordinarily within 30 days of the submission of the Contractor’s payment
                      request to the Government.”

Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section VI,
“Forms, Subsection 11, Memorandum of Negotiation” states, “This is an internal form for
completion by the grant specialist and signature by the Operations Manager or Field Director.”

Per Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section II,
“Grants, Subsection F, Grant Implementation, sub-subsection F4, Modifications”:

      “The OTI country representative must approve all modifications to grants where
       substantive programmatic elements are changing or that increase the total estimated cost
       by more than 10% or based on other criteria agreed established by either the TO or OTI.
       A modification is defined as a change in the project description, change to the start or end
       dates, or a change to the activity budget. OTI approval will be requested in writing by
       the COP and maintained in the grant file.”




                                                 37
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


Per Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section VI,
“Forms, Subsection Grant Agreement Templates, Certifications, and Annexes, sub-subsection
16(b). Simplified Grant Agreement Format for US grantees”:

      “ANNEX ONE: TERMS & CONDITIONS OF THE GRANT AGREEMENT
       7) Allowable Costs. The Grantee shall neither request nor be reimbursed for
       expenditures incurred that are not allowable costs under this Agreement as detailed in
       Annex 4 or that are in excess of the ASI Grant Budget Commitment. Costs allowed are
       those that are both included in the approved Budget and allowable under all applicable
       USAID, Chemonics, and GRANTEE regulations including OMB Circular A-122. The
       Grantee is authorized up to ten percent (10%) flexibility to adjust costs within Approved
       Budget line items, as long as the ASI Grant Budget Commitment is not exceeded.”

Per Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section VI,
“Forms, Subsection Grant Agreement Templates, Certifications, and Annexes, sub-subsection
16(a). Simplified Grant Agreement Format for non-US grantees”:

      “ANNEX ONE: TERMS & CONDITIONS OF THE GRANT AGREEMENT
       7) Allowable Costs. The Grantee shall neither request nor be reimbursed for
       expenditures incurred that are not allowable costs under this Agreement as detailed in
       Annex 4 or that are in excess of the ASI Grant Budget Commitment. Costs allowed are
       those that are both included in the approved Budget and allowable under all applicable
       USAID, Chemonics, and GRANTEE regulations including OMB Circular A-122. The
       Grantee is authorized up to ten percent (10%) flexibility to adjust costs within Approved
       Budget line items, as long as the ASI Grant Budget Commitment is not exceeded.”

ASI NFR 2014-1.2 – Clerical Errors

Per FAR, Subpart 31.2, Costs with Commercial Organizations, Section 31.201-2, “Determining
Allowability”:

      “(d) A contractor is responsible for accounting for costs appropriately and for maintaining
       records, including supporting documentation, adequate to demonstrate that costs claimed
       have been incurred, are allocable to the contract, and comply with applicable cost
       principles in this subpart and agency supplements. The contracting officer may disallow
       all or part of a claimed cost that is inadequately supported.”

ASI NFR 2014-1.3 – Unexplained Discrepancies between GL Balances and Grant Closeout
Documentation

Per CFR, Section 226.53, “Retention and Access Requirements for Records”:
      “(a) This section sets forth requirements for record retention and access to records for
       awards to recipients. USAID shall not impose any other record retention or access
       requirements upon recipients.
       (b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of


                                                38
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID.”

Per CFR, Section 226.71, “Closeout Procedures”:

       “(a) Recipients shall submit, within 90 calendar days after the date of completion of the
       award, all financial, performance, and other reports as required by the terms and
       conditions of the award. USAID may approve extensions when requested by the
       recipient.
       (b) Unless USAID authorizes an extension, a recipient shall liquidate all obligations
       incurred under the award not later than 90 calendar days after the funding period or the
       date of completion as specified in the terms and conditions of the award or in agency
       implementing instructions.”

Effect: The closeout documentation and/or GL could be incomplete because the reconciliations
and resulting discrepancies were not properly performed and/or documented. Lack of
reconciliation and/or resolution of discrepancies resulting from the reconciliation increased the
risk that costs were assigned to the incorrect Grant(s), which could result in a Grant being over-
expended.

Internal controls, in some instances, may not be operating effectively to prevent or detect
material misstatements.

Recommendation #6: Kearney recommends that Chemonics improve procedures to ensure that
proper reconciliations, reviews, and approvals are performed and adequately documented with
sufficient support for all contract costs incurred.

Recommendation #7: Kearney recommends that Chemonics either provide the necessary
supporting documentation or reconciliations to USAID in support of their contract closeout
procedures, or return the unsupported amount of $120,268 based on lack of supporting
documentation or explanations for the variances identified.

Recommendation #8: Kearney recommends that Chemonics work with USAID to determine a
way to receive the appropriate amount in the consent to subcontract to account for potential
exchange rate fluctuations.

Management’s Response:

Chemonics’ management provided an overall response to the audit report and specific responses
to each individual finding. The full text of Chemonics’ response is included in Appendix B to
this report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management Response in Appendix C to this report.


                                                 39
KEARNEY&                                        Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report



                                  Chemonics ASI NFR 2014-2

Condition: Chemonics internal processes did not produce or retain sufficient doclllllentation for
ASI transactions occmTing between June 26, 2009 and June 25 , 2012, resulting in control
deficiencies and a total of $823,550 in questioned costs ($823,420 unsupported and $130
ineligible), which are described in fmi her detail below. The dollar values repo1ied in this finding
are whole USDs fully burdened using the rates per Chemonics' N egotiated Indirect Cost Rate
Agreement and other relevant fees to the contract.

AS! NFR 2014-2.1 - Competitive Bidding Documentation

Chemonics did not provide sufficient documentation to evidence that competitive bidding
procedures were followed when required in the following instances:

    •   Grants: Instan ces were noted in which sufficient competition documentation was not
        provided:
           Two instan ces, one in 2009 and one in 2010, related to one Grant, in which evidence
           of competition for the Grant was not provided, resulting in unsuppo1ied costs of
           $256,594
           Four instances in 2010 in which evidence of competition for the subcontractor/vendor
           was not rovided, resultin in unsu orted costs of $246,357.

           Four instances in 2011 in which evidence of competition for the subcontractor/vendor
           was not rovided, resultin in unsu orted costs of $284,844.

    •   ODCs: For one mstance m 2011 , su 1c1ent 1 ding documentation was not provided to
        su 01i the fair market value of the costs, resultin in unsu po1ied costs of $13 ,307.                     II
AS! NFR 2014-2.2 - Travel Documentation

Chemonics did not provide sufficient documentation to suppo1i the approval of travel expenses
in the following instances:

    •   For two instan ces in 2010 for Allowances, doclllllentation to suppo1i the pre-
        authorization of travel was not rovided, resultin in unsu 01ied costs of $7,764.                       II
    •   For one instance for Allowances, an approved expense repo1i was not provided to
        suppo1i the approval of travel costs incmTed. Since th e costs were sufficiently supported,
        this exception did not result in questioned costs.

AS! NFR 2014-2.3 -Receiving Reports

Chemonics did not provided sufficient documentation to suppo1i costs incmTed and/or receipt of
goods/services, in th e following instances:




                                                 40
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


       For five instances for ODCs, receiving reports were not obtained until after the payment
        was made. While the costs are supported, a control deficiency was noted, as the goods
        were not noted as received until after the payment was made
       For one instance for Grants, photographs were received to indicate that the construction
        was completed and the materials were used; however, a formal receipt of goods prior to
        payment was not provided, resulting in a control issue.

ASI NFR 2014-2.4 – Grant Supporting Documentation

Chemonics did not provide sufficient Grant supporting documentation to support costs incurred
or proper Grant agreement procedures were completed:

       Two instances in which evidence that an environmental assessment was completed was
        not provided
       One instance in which the activity closeout documentation was not provided to
        sufficiently support that the Grant activities were fully completed by the grantee
       One instance in which the Certification Regarding Terrorist Financing was not provided
       One instance in 2012 in which the Grant Agreement was not provided, resulting in
        unsupported costs of $10,528.


ASI NFR 2014-2.5 – Grant Closeout Documentation

Chemonics did not provide documentation to support the closeout of the Grant agreement, as
required by the ASI Grants Manual. For five instances related to five Grants, adequate Grant
closeout documentation was not provided, specifically the Grant Completion Certificate, causing
no reconciliation to be completed between the GL and the Grant Completion Certificate,
resulting in a control issue and no questioned costs.

ASI NFR 2014-2.6 – Miscellaneous

       In two instances for ODCs, one in 2009 and one in 2011, no supporting documentation
        was provided to support the costs incurred, resulting in unsupported costs of $4,026.

       In two instances for ODCs, both in 2009, luxury goods were purchased for a guest house,
        resulting in ineligible goods in the amounts of $130.

       For one instance for Grants, a Grant modification was provided extending the period of
        performance of the Grant; however, documentation was not provided to support the
        extension of the subcontractor period of performance. Costs were adequately supported;
        therefore, this exception did not result in questioned costs.

Cause: Chemonics was unable to provide adequate supporting documentation, as the required
documentation to support the controls, and in some instances the costs incurred, was unavailable
or did not exist. Due to records maintenance and retention practices in place during the contract



                                                41
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


period, Chemonics’ records are maintained in hard copy, which further complicates Chemonics’
ability to provide sufficient, timely supporting documentation.

Criteria: Per FAR, Subpart 13.0, Simplified Acquisition Procedures, Section 13.003, “Policy”:

      “(a) Agencies shall use simplified acquisition procedures to the maximum extent
            practicable for all purchases of supplies or services not exceeding the simplified
            acquisition threshold (including purchases at or below the micro-purchase
            threshold). This policy does not apply if an agency can meet its requirement
            using—
            (1) Required sources of supply under Part 8 (e.g., Federal Prison Industries,
                 Committee for Purchase from People Who are Blind or Severely Disabled, and
                 Federal Supply Schedule contracts);
            (2) Existing indefinite delivery/indefinite quantity contracts; or
            (3) Other established contracts.
       (b)(1) Each acquisition of supplies or services that has an anticipated dollar value
              exceeding $3,000 ($15,000 for acquisitions as described in 13.201(g)(1)) and not
              exceeding $100,000 ($250,000 for acquisitions described in paragraph (1) of the
              Simplified Acquisition Threshold definition at 2.101) is reserved exclusively for
              small business concerns and shall be set aside (see 19.000 and Subpart 19.5).
              See 19.000(b) and 19.502-2 for exceptions.”

Per FAR, Subpart 13.1, Procedures, Section 13.104, “Promoting Competition”:

       “The contracting officer must promote competition to the maximum extent practicable to
        obtain supplies and services from the source whose offer is the most advantageous to the
        Government, considering the administrative cost of the purchase.
              (a) The contracting officer must not—
                  (1) Solicit quotations based on personal preference; or
                  (2) Restrict solicitation to suppliers of well-known and widely distributed
                   makes or brands.
              (b) If using simplified acquisition procedures and not providing access to the
                  notice of proposed contract action and solicitation information through the
                  Governmentwide point of entry (GPE), maximum practicable competition
                  ordinarily can be obtained by soliciting quotations or offers from sources
                  within the local trade area. Unless the contract action requires synopsis
                  pursuant to 5.101 and an exception under 5.202 is not applicable, consider
                  solicitation of at least three sources to promote competition to the maximum
                  extent practicable. Whenever practicable, request quotations or offers from
                  two sources not included in the previous solicitation.”

Per FAR, Subpart 6.1, Full and Open Competition, Section 6.101 “Policy”:

       “(a) 10 U.S.C. 2304 and 41 U.S.C. 253 require, with certain limited exceptions (see
            Subparts 6.2 and 6.3), that contracting officers shall promote and provide for full and
            open competition in soliciting offers and awarding Government contracts.


                                                42
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


       (b) Contracting officers shall provide for full and open competition through use of the
           competitive procedure(s) contained in this subpart that are best suited to the
           circumstances of the contract action and consistent with the need to fulfill the
           Government’s requirements efficiently (10 U.S.C. 2304 and 41 U.S.C. 253).”

Per FAR, Subpart 31.2, Contracts With Commercial Organizations, Section 31.201-2 (d)
“Determining Allowability”:

       “A contractor is responsible for accounting for costs appropriately and for maintaining
        records, including supporting documentation, adequate to demonstrate that costs
        claimed have been incurred, are allocable to the contract, and comply with applicable
        cost principles in this subpart and agency supplements. The contracting officer may
        disallow all or part of a claimed cost that is inadequately supported.”

Per ADS, Chapter 303, Grants and Cooperative Agreements to Non-Governmental
Organizations, Section 303.3.6.1, “Competition Requirements”:

       “In accordance with the Federal Grant and Cooperative Agreement Act, USAID
        encourages competition in the award of grants and cooperative agreements so that it
        may identify and fund the best projects to achieve program objectives. Unless USAID
        authorizes an exception in accordance with 303.3.6.5, USAID must award all grants and
        cooperative agreements competitively. Competition requires that the Agency publish an
        announcement in accordance with 303.3.5, seek applications from all eligible and
        qualified entities, conduct an impartial review and evaluation of all applications (see
        303.3.6.4), and make an objective recommendation to the AO for award.”

ADS, Chapter 303, Grants and Cooperative Agreements to Non-Governmental Organizations,
Section 303.3.6.1, “Exceptions to Competition” states, “When competition is required, an other
than full competition action may only be taken by an AO when an exception to competition
applies and is documented in accordance with this section 303.3.6.6.”

Per CFR, Section 226.53, “Retention and Access Requirements for Records”:

      “(a) This section sets forth requirements for record retention and access to records for
       awards to recipients. USAID shall not impose any other record retention or access
       requirements upon recipients.
       (b) Financial records, supporting documents, statistical records, and all other records
       pertinent to an award shall be retained for a period of three years from the date of
       submission of the final expenditure report or, for awards that are renewed quarterly or
       annually, from the date of the submission of the quarterly or annual financial report, as
       authorized by USAID.”

Per CFR, Section 226.71, “Closeout Procedures”:

       “(a) Recipients shall submit, within 90 calendar days after the date of completion of the
       award, all financial, performance, and other reports as required by the terms and


                                                43
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


       conditions of the award. USAID may approve extensions when requested by the
       recipient.
       (b) Unless USAID authorizes an extension, a recipient shall liquidate all obligations
       incurred under the award not later than 90 calendar days after the funding period or the
       date of completion as specified in the terms and conditions of the award or in agency
       implementing instructions.”

Per Administrative Procedures Afghanistan Stabilization Initiative - South, Section II (L),
“Travel Procedures”:

      “Both expatriate and local employees might be required to travel on field trips outside
       project offices, and perhaps to other parts of Afghanistan. Chemonics’ policy is that such
       trips should, to the extent possible, be programmed and approved in advance by the
       employee‘s supervisor and the Project, Country, or Regional Security Directors (as
       appropriate to the project) on a monthly basis. Under no conditions should travel be
       made on the assumption of approval.”

Per Administrative Procedures Afghanistan Stabilization Initiative - South, Section II (L.1),
“International & Regional Travel Programming”:

       “All employees who anticipate that they will be traveling for project purposes should
       submit a detailed agenda to their supervisors as early as possible. The high-risk security
       environment necessitates that trip programming is also reviewed and approved by
       appropriate Security Director in addition to the employee‘s supervisor. The agenda
       should show the purpose of the field trip and its justification, the anticipated date and
       time of departure and return, as well as with whom they expect to meet and how they
       expect to allocate their time and effort in support of the trip purpose. Within two weeks
       of returning, the individual or team shall submit a trip report to their supervisor
       comparing the trip with the proposed agenda. The trip report shall show the reason for the
       trip, general observations, details of all activities, deliverables accomplished and/or
       failures and explanations, and shall conclude with recommendations. The same
       procedures and approvals apply to necessary but unanticipated field trips.”

Per the Activity Management Guide Afghanistan Stabilization Initiative, Section II (E), “Grant
Award”:

       “Once the grant has been cleared by the OTI representative (or TOCOTR/CO when
       applicable), the GS will generate the grant agreement. Grant agreements are generated
       through the Activity Database, using information contained in database grant fields. The
       template for these grant agreements are included in Forms 14-19. Any information
       required by the grant agreement that must be customized will be input into the grant
       agreement by the GS, and the grant agreement will be printed and finalized for signature
       by the grantee and ASI South’s representative (must have delegation of authority). The
       DCOP or designee signs all grants on behalf of ASI South. The official Grant Agreement
       will also document that the required USAID approval (country representative and, where
       applicable, TOCOTR or CO) has been obtained and is on file.”


                                                44
                                              Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                        Chemonics International, Inc.
                                                                                                       Audit Report


Effect: The conditions noted above, in regard to lack of supporting documentation, may result
in:

      Increased risk that costs incurred are greater than the fair market value, and/or the
       Government does not receive the best value for procured goods/services when a
       contractor lacks sufficient competitive bidding documentation
      Increased risk that the work was not completed by the grantee or the costs claimed are not
       accurate due to lack of sufficient closeout documentation
      Increased likelihood or frequency that other miscellaneous costs incurred are unallowable
       because relevant documentation was not provided.

Recommendation #9: Kearney recommends that Chemonics either provide the necessary
supporting documentation or reconciliations to USAID in support of their contract closeout
procedures, or return the questioned amount of $823,550 based on lack of supporting
documentation or explanations for the variances identified.

Please also see Recommendation #3.

Management’s Response:

Chemonics’ management provided an overall response to the audit report and specific responses
to each individual finding. The full text of Chemonics’ response is included in Appendix B to
this report.

Auditor’s Evaluation of Management’s Response:

Kearney has provided an evaluation of Management Response in Appendix C to this report.




                                               45
              Office of the Special Inspector General for Afghanistan Reconstruction
                                                        Chemonics International, Inc.
                                                                       Audit Report




         APPENDIX A –
PRIOR AUDIT FINDINGS AND STATUS




               46
KEARNEY&                                       Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                    Chemonies International, Inc.
                                                                                                          Audit Report


Kearney & Company, P.C. (refe1Ted to as "Kearney," "we,'' and "our" in this repo1i) identified
findings stated in prior audit repo1is that could have a material effect on the Special Purpose
Financial Statements (SPFS). Kearney then inquired about whether Chemonics International,
Inc. (Chemonics) implemented coITective action plans (CAP) to address the findings and
determined the status of the CAPs. Kearney identified the following prior audit findings:

Audit ofProgress Made by Chemonics on Accelerated Sustainable Agriculture Program (ASAP}
(United States Agency for International Develop ment [USAID} Office ofInspector General
{OIG} Audit Report No. 5-306-08-009-P) .

The following represents a summaiy of the findings related to Chemonics' ASAP contract, as
repo1i ed by the USAID OIG in their repo1i, dated August 8, 2008:

No      Previously Reported Findings               Kearney's Conclusion on Current Status
1  We recommend that the USAID/                 In coordination with the Mission an d the
   Afghanistan Cognizant Technical              Overseas Private Investment Corporation
   Officer (CTO) prepai·e an                    (OPIC), a Mazai· foods initiative paiiner,
   Implementation Plan identifying the          USAID/Washington has been reevaluating the
   critical tasks needed to implement the       project 's stm cture to detennine the most
   Mazai· foods initiative. This                effective way for the initiative to meet USAID's
   Implementation Plan should identify all      goals. This finding is considered closed with
   tasks that ai·e behind schedule and how      adequate actions taken.
   the Inission is going to address the
   delay. Fmiher, the Inission should
   develop a process for periodically
   updating the Implementation Plan .
2  We recommend that USAID/                     The Mission conducted a training session on 22
   Afghanistan require its Environmental        Code of Federal Regulations (CFR) 216
   Officer to provide annual training to        (Regulation 16) as presented in ADS 204 in
   CTOs and require Inission personnel to       N ovember 2007 and repeated the training in
   comply with the environmental                June 2008 . This finding is considered closed
   regulations outlined in Mission Order        with adequate actions taken.
   04-14 an d US AID ' s Automated
   Directives System (ADS) 204.
3  We recommend that USAID/                     US AID/Afghanistan revised the Mission Order
   Afghanistan revise its Inission order to     to more specifically define CT Os'
   be consistent with USAID 's ADS 204,         responsibilities when it comes to monitoring an d
   which defines CTO responsibilities for       follow-up of the enviromnental complian ce
   monitoring compliance w ith                  issues in all USAID financed activities an d
   environmental regulations.                   projects. This finding is considered closed with
                                                adequate actions taken.
4    We recommend that                          Based on consultation with the
     USAID/Afghanistan obtain a written         USAID/Afghanistan Legal Advisor (RLA), the
     legal decision from its General Counsel    USAID Office of the General Counsel (OGC),
     on how to proceed for completed an d in    and the USAID Agency Environmental
     process projects in which enviromnental    Coordinator, the Mission is requiring that, in


                                                47
KEARNEY&                                      Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                   Chemonies International, Inc.
                                                                                                         Audit Report



No       Previously Reported Findin2s              Kearney's Conclusion on Current Status
     regulations were not followed.             accordance with 22 CFR 216.3(a)(7), the
                                                contractor shall conduct the environmental
                                                review of the ongoing or completed subprojects
                                                or aspects thereof, which was required by the
                                                Initial Environmental Evaluation for the
                                                Strategic Objective Grant Agreement. This
                                                finding is considered closed with adequate
                                                actions taken.
5    We recommend that USAID/                   The Mission revised the Mission Order 201.01
     Afghanistan prepare procedures             to include the requirement that programs
     requiring review of constm ction design considering constiuction in their activities be
     plans and provide quality assurance        required to meet with OIEE. This finding is
     oversight by the Office of Infrastiucture, considered closed with adequate actions taken.
     Engineering, and Energy (OIEE).
6    We recommend that USAID/                   The CTO and OIEE are actively working
     Afghanistan require engineers from the     together to take conective action on constiuction
     Office of Infrasti11cture, Engineering,    defects and to include OIEE engineers on final
     and Energy work with Chemonics to          building inspections. This finding is considered
     take conective action on each of the       closed with adequate actions taken.
     constiuction defects and require these
     engineers to be pa1t of the final
     inspection.
7    We recommend that USAID/                   The CTO and Office of Program and Project
     Afghanistan reevaluate Chemonics'          Development (OPPD) reviewed ASAP's revised
     March 2008 revised Marking and             Branding Strategy and Marking Plan, and
     Branding Plan and make a                   approved all revisions including requests for
     determination on whether to approve        exceptions. The CTO fo1warded this revised
     any exceptions to marking requirements Plan to the Contracting Officer (CO) on July 20,
     included in the Plan.                      2008 for approval per ADS 320.3.2.5. The CO
                                                will review and provide final plan approval or
                                                disapproval to Chemonics. This finding is
                                                considered closed with adequate actions taken.
8    We recommend that USAID/                   The recent May 12, 2008 Mission Order 302 .02
     Afghanistan develop procedures             addresses CTO ce1tification on
     requiring CTOs to verify and document, conti·actor/recipient compliance with delive1y
     as pa1t of their site visits, that items   requirements under their respective awards.
     purchased or built with USAID funds        Marking of the items purchased or built with
     are properly marked.                       USAID funds is pait of the delive1y
                                                requirement and by issuing the Mission Order
                                                the Mission fully complied with the auditors'
                                                recommendation. This finding is considered
                                                closed with adequate actions taken.
9    We recommend that USAID/                   Chemonics/ASAP has revised its Perfo1mance
     Afghanistan's CTO issue a technical        Management Plan (PMP) to include responding
     directive requiring Chemonics to define to the audit recommendation. This third PMP


                                               48
KEARNEY&                                        Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report



No        Previously Reported Findin2s              Kearney's Conclusion on Current Status
     the roles and responsibilities of the       revision was sent to the CTO on July 17, 2008.
     Monitoring an d Evaluation Staff, to        This revised PMP is under review but includes
     include a system to ensure that the         all above recommended measures. The CTO
     program's data is accurate and easily       does not believe an additional technical directive
     accessible.                                 is necessaiy since the response to the
                                                 recommendation is included in the July 17, 2008
                                                 ASAP PMP. This finding is considered closed
                                                 with adequate actions taken.
10   We recommend that the CTO perfonn a         USAID/Afghanistan is planning to conduct a
     data quality assessment before the          data quality assessment for all FY 2008
     issuan ce of the next annual repo1t.        perfo1mance data that will be repo1ted to
                                                 Washington before November 16, 2008. OPPD
                                                 will make sure that CTOs, in conjunction with
                                                 their implementing paitners, unde1take this
                                                 important task. This finding is considered
                                                 closed with adequate actions taken.
11   We recommend that USAID/                    The USAID/Afghanistan Office of Financial
     Afghanistan dete1mine the allowability      Management (OFM) is cunently conducting a
     and collect as appropriate $37,573 for      financial review that covers the questioned costs.
     commodities purchased by Chemonics          OFM will subinit its recommendation to the CO
     without prior written approval from the     by August 15, 2008. If the CO detennines that
     m1ss1on.                                    some or the entire commodity purchases shall be
                                                 disallowed, a Bill for Collection will be issued to
                                                 Chemonics. This finding is considered closed
                                                 with adequate actions taken.
12   We recommend that USAID/                    In a CTO meeting with ASAP on July 11 , 2008,
     Afghanistan's CTO issue a technical         ASAP agreed to begin identifying restricted
     directive to require Chemonics to           commodity purchases in their monthly invoices.
     identify in its invoice costs associated    The CTO an d OFM will verify complian ce with
     with restricted commodities.                the requirement in Chemonics' July 2008
                                                 invoice that is expected to be received in August
                                                 2008. This finding is considered closed with
                                                 adequate actions taken.
13   We recommend that USAID/                    In a May 31, 2008 letter to the CTO and CO,
     Afghanistan direct Chemonics to reduce      Chemonics will credit all prograin income,
     future billings to US AID by $129,731       including said amount, to the ASAP contract.
     for program income collected as of          Responsible pa1ties (CO, CTO) will evaluate
     Mai·ch 31 , 2008, and comply with the       upcoming July and August invoices to ensure
     te1ms of the contract for any income        Chemonics' complian ce. This finding is
     received after March 31, 2008.              considered closed with adequate actions taken.
14   We recommend that USAID/                    Since May 2008, OPPD has staited the process
     Afghanistan develop procedures              of reviewing contractors ' an d grantees' PMPs
     requiring the Prograin and Project          for complian ce with ADS 203 prior to approval
     Development Office to review                by the CTO. OPPD will ensure fo1mal
     perfonnan ce management plans of            procedures for reviewing partners' PMPs ai·e in


                                                 49
KEARNEY&                                          Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                       Chemonies International, Inc.
                                                                                                             Audit Report



No        Previously Reported Findin2s                Kearney's Conclusion on Current Status
     contrnctors and grantees for compliance       place by October 15, 2008. This finding is
     with USAID 's Automated Directives            considered closed with adequate actions taken.
     System 203 prior to approval by the
     CTO.
15   We recommend that USAID/                      In concmTence with the CTO and CO, on May
     Afghanistan direct Chemonics to               18, 2008 OFM requested ASAP to review its
     conduct a review of its billing system        billing system, coITect systernic eITors, and
     and take necessa1y action to address the      revise and resubrnit January an d Febmary 2008
     systemic eITors found in its billing of       invoices (Attachment C). ASAP resubmitted
     costs.                                        January and Febma1y invoices from June 20 to
                                                   June 22, 2008 along with invoices for March,
                                                   April, May, and June. This finding is considered
                                                   closed with adequate actions taken.

Financial Audit of Costs Incurred by Chemonics International, Inc. in Support of USAID 's
Alternative Livelihoods Program - Southern Region

The following represents a summary of the findings issued by Crowe Ho1wath, LLP in their
repori, dated May 3, 2013:

No        Previously Reported Finding                  Kearney's Conclusion on Current Status
16   Chemonics direct char·ged home office          Chemonics disagreed with the finding,
     costs ar·e frequently observed within the      indicating that the auditor did not provide
     components of indirect cost pools.             adequate time or information regar·ding issues
                                                    related to these costs. The repo1i has not been
                                                    finalized to date as to whether this issue is
                                                    closed or needs coITective action.

                                                    As Chemonics disagrees with the finding,
                                                    coITective action has not been taken.
17   Three vendors were selected using sole         Chemonics disagreed with the finding,
     source procurements, and the contents          indicating that the procurement of the goods
     of the procurement file were                   using sole source justification was adequately
     insufficient to suppo1i the justifications     an d sufficiently documented. The repo1i has not
     of the use of sole source procurements.        been finalized to date as to whether this issue is
                                                    closed or needs coITective action.

                                                    As Chemonics disagrees with the finding,
                                                    coITective action has not been taken.

                                                    Kearney notes that this condition repeated in
                                                    this audit. See Schedule of Findings and
                                                    Responses Chemonics ASI NFR 2014-2.1 and
                                                    Chemonics ASAP NFR 2014-2. 1.



                                                   50
KEARNEY&                                        Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                     Chemonies International, Inc.
                                                                                                           Audit Report



No        Previously Reported Findin2                Kearney's Conclusion on Current Status
18   Two vendors incuned charges under the        Chemonics disagreed with the finding,
     contract against which General and           indicating that the subcontractors used had the
     Administrative (G&A) indirect charges        same contract ten ns as used by Chemonics
     were assessed. Chemonics could not           themselves and that the charges are properly
     detennine whether all or a subset of its     supported by contract te1ms and applicable
     subcontracts included fixed daily rate       regulations. The repo1t has not been finalized to
     charges, or if procedures were               date as to whether this issue is closed or needs
     conducted to detennine if                    conective action.
     subcontractors ' indirect costs were
     allowable.                                As Chemonics disagrees with the finding,
                                               conective action has not been taken.
19   Chemonics did not provide                 Chemonics disagreed with the finding,
     documentation suppo1ting the pre-         indicating that documentation was provided and
     approval to procure the local services of that additional documentation was provided in
     one vendor.                               response to the audit report. The repo1t has not
                                               been finalized to date as to whether this issue is
                                               closed or needs conective action.

                                             As Chemonics disagrees with the finding,
                                             conective action has not been taken.
20   Twenty-two instances were identified in Chemonics disagreed with the finding,
     which the G&A rate on the invoice       indicating that their accounting system is
     submitted to USAID did not agree to     automated and did not miscalculate the G&A
     the G&A rate agreed upon between        rate. Chemonics indicated that the materials
     Chemonics and US AID.                   amount on the cover page was inaccurate and
                                             would therefore cause the G&A calculation to
                                             also be inaccurate. The repo1t has not been
                                             finalized to date as to whether this issue is
                                             closed or needs conective action.

                                                  As Chemonics disagrees with the finding,
                                                  conective action has not been taken.
21   Chemonics did not provide notice to          Chemonics disagreed with the finding,
     Office of Small and Disadvantaged            indicating that the company did not consider the
     Business Utilization (OSDBU) at least        requirement to apply due to the majority of the
     45 days prior to placing an order that       work being perfo1med in Afghanistan.
     exceeds the small purchase threshold, as
     required by USAID Acquisition                As Chemonics disagrees with the finding,
     Regulation (AIDAR) 752.219-8 and             conective action has not been taken.
     Federal Acquisition Regulation (FAR)
     19.708(a)(2).
22   Chemonics invoiced USAID for costs           Chemonics disagreed with the finding and
     for which the contractor could not           provided additional supporting documentation,
     provide sufficient documentation             which was again found insufficient.
     showing that the costs were paid as


                                                 51
KEARNEY&                                          Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                       Chemonies International, Inc.
                                                                                                             Audit Report



No       Previously Reported Findin2                  Kearney's Conclusion on Current Status
     required by Federal regulations.               As Chemonics disagrees with the finding,
                                                    conective action has not been taken.

                                                    Kearney notes that this condition repeated in this
                                                    audit. See Schedule of Findings and Responses
                                                    Chemonics ASAP NFR 2014-2.4 and
                                                    Chemonics ASI NFR 2014-2.6.
23   Chemonics invoiced USAID for costs             Chemonics disagreed with the finding and
     that may be unallowable or                     provided additional suppo1ting documentation,
     inappropriately allocated to the               which resulted in one item being cleared. The
     contract.                                      documentation provided for the remaining two
                                                    items was found insufficient.

                                                    As Chemonics disagrees with the finding,
                                                    conective action has not been taken on the
                                                    remaining two items related to the finding.

                                                    Kearney notes that this condition repeated in this
                                                    audit. See Schedule of Findings and Responses
                                                    Chemonics ASAP NFR 2014-3 and Chemonics
                                                    ASI NFR2.6.
24   Chemonics entered into a contract              Chemonics disagreed with the finding, as they
     without executing the procurement              did not consider the agreement to be indicative
     process to help ensure that a reasonable       of a vendor contractual relationship, and
     cost was obtained in exchange for the          therefore, did not consider the procurement
     services provided per the Memorandum           requirements to be applicable.
     of Understanding (MOU).
                                                    As Chemonics disagrees with the finding,
                                                    conective action has not been taken.
25   Due to inconsistent approaches to              Chemonics agrees with two of the items related
     converting foreign cmTency to United           to the finding and will be making the
     States Dollars (USD), invoices to              appropriate adjustments in an invoice to US AID.
     USAID have been inaccurately
     calculated.                                    Chemonics disagreed with one item related to
                                                    the finding, asse1ting that the conect exchange
                                                    rate was used.

                                                    As Chemonics disagrees with the finding,
                                                    conective action has not been taken on the
                                                    remaining item related to the finding.
26   A review of eight qua1terly financial          Chemonics disagreed with the finding,
     repo1ts indicated that the actual costs on     indicating that the quaiterly financial repo1ts are
     the quaiterly financial reports did not        required to be sub1nitted prior to the end of the
     reconcile to the expenditures reflected        quarterly billing cycle; therefore, they would not
     in the detail repo1t produced by               reconcile to the actual costs. The repo1t has not


                                                   52
KEARNEY&                                       Office of the Special lnspec.tor Gener al for Afghanistan Reconstrnction

COMPANY                                                                                    Chemonies International, Inc.
                                                                                                          Audit Report



No      Previously Reported Findin2                 Kearney's Conclusion on Current Status
     Chemonics.                                  been finalized to date as to whether this issue is
                                                 closed or needs conective action.

                                                 As Chemonics disagrees with the finding,
                                                 conective action has not been taken.
27   Chemonics did not provide an analysis       Chemonics disagreed with the finding,
     of prevailing wages or other                indicating that the compensation was in line
     documentation to ensure that prevailing     with pay rates for similar work in the area and
     compensation levels were not exceeded.      was in line with Chemonics' own policies and
                                                 procedures. The repo1i has not been finalized to
                                                 date as to whether this issue is closed or needs
                                                 conective action.

                                                 As Chemonics disagrees with the finding,
                                                 conective action has not been taken.
28   Chemonics invoiced USAID for an             Chemonics disagreed with the finding,
     amount of $72,000, which contained          indicating that the CO had previously reversed
     $61 ,320 of questioned costs from a         the rnling that these costs were unallowable an d
     previous audit report.                      provided the letter indicating that these costs
                                                 were allowable. The repo1i has not been
                                                 finalized to date as to whether this issue is
                                                 closed or needs conective action.

                                                 As Chemonics disagrees with the finding,
                                                 conective action has not been taken.




                                                53
                    Office of the Special Inspector General for Afghanistan Reconstruction
                                                              Chemonics International, Inc.
                                                                             Audit Report




               APPENDIX B –
CHEMONICS INTERNATIONAL, INC.’S RESPONSE TO
              AUDIT REPORT




                     54
                                                 CHEMONICS




May2, 2014



David Zavada, CPA
Partner
Kearney & Company, P.C.
1701 Duke Street, Suite 500
Alexandria, VA 22314



Dear Mr. Zavada,

Attached please find Chemonics' response to Kearney's draft audit report for Chemonics
Contract Number 306-C-00-07-00501-00 for the Accelerated Sustainable Agriculture Program
(ASAP) for November 22, 2006 to October 30, 2011, and Chemonics Contract Number 306-DOT-
1-01-08-00033-00 for the Afghanistan Stabilization Initiative (ASI) for June 26, 2009 to June 25
2012.

We appreciate the opportunity to respond to the observations and to provide additional
information and clarify our position in regard to questioned costs in the draft audit report.

As detailed in our response, for the ASAP portion of the audit, Chemonics contests all of the
$1,088,667 in costs that Kearney has characterized as unsupported or ineligible. For the ASI
portion of the audit, Chemonics contests approximately 99% of the $943,818 in costs that
Kearney has characterized as unsupported or ineligible. Although Chemonics acknowledges
some of Kearney's findings, Chemonics does not agree with many of the findings Kearney
characterizes as control issues.

Of particular concern to Chemonics is Kearney's decision to issue a qualified audit opinion for
the ASI portion of the audit. In issuing this opinion, Kearney states it was "unable to obtain
adequate audit evidence specific to the Other Direct Costs (ODC).and Grants balances.for.the _
ASI contract."

We believe the issuance of a qualified audit opinion leaves a misimpression concerning
Chemonics' administration of the project and cooperation with the audit, for the following
reasons. On April 15, 2010, a terrorist detonated a Vehicle Borne Improvised Explosive Device
outside Chemonics' ASI offices in Kandahar city. The attack and en suing confusion resulted in
the death of two guards, injury to several employees, and the loss of certain project equipment
and documentation. During the audit, to support certain grant costs, Kearney asked Chemonics



       1717 H Street NW. Washington. DC 20006   Tel: 202.955.3300   Fax: 202.955.3400   www.chemon1cs.com




                                                      55
to produce documentation that was destroyed or lost as a result of this attack, despite
Chemonics informing Kearney of the attack and the likelihood that such documentation could
not be provided. Although Chemonics was unable to provide the specific documents Kearney
requested, Chemonics provided sufficient documentation to fully support the costs. Kearney
did not accept this documentation.

Further, while preparing our response to the draft audit report, we conducted an exhaustive
search of our archives, which we were unable to accomplish during the audit fieldwork due to
time constraints. As a result, we were able to locate additional documentation to support these
costs. We ask that Kearney consider this supplemental documentation, per GAGAS 4.38, before
issuing the final audit report. These costs comprise a majority of the grants and ODC costs
Kearney characterizes as unsupported for the ASI audit. Chemonics has also provided sufficient
support for the other grants and ODC costs, unrelated to this attack, that Kearney characterized
as unsupported.

We respectfully request that Kearney remove the qualification in its audit opinion as well as any
reference to a qualified audit opinion in the audit report. At a minimum, we request that
Kearney provide a more accurate and complete characterization of the circumstances described
above in its audit opinion.

We appreciate the professionalism of Kearney's leadership and staff during the course of this
audit, and the opportunity to work with Kearney over the last six months as we responded to
an extensive audit program, including thousands of requests, tens of thousands of supporting
documents, and thousands of hours of our staffs time.

Because the audit report will be made a part of the public record, we respectfully request that
Kearney and SIGAR include this letter and our attached response in their entireties when
publishing the final audit report.

Please do not hesitate to contact me if you have any questions or require additional information
regarding our response.



Sincerely,




Eric Hunt Howell
Chief Financial Officer




      1717 H Street NW. Washington, DC 20006   Tel: 202 955.3300   Fox 202 955 3400   www.chemorncs.com




                                                       56
                              Response to Draft Audit Report for
                  Che monics Contract umber 306-C-()(J.fr?-00501·00 for the
                  Accelerated S ustainable Agriculture Program (ASAP) for
               November 22, 2006 to October 30, 2011, and Che mo nics Contract
                   Number 306-DOT-1-01-08-00033-00 for the Afghanistan
                Stabili:£ation Initiative (AS!) for June 26, 2009 to June 25 2012.

C hemonks would like to thank Kearney for the opportunity to respond to this draft audit
report.

We address below each of the findings in the order they are presented in the draft audit report.
We wou ld be happy to address any further questions regarding our responses at Kearney's
convenience.

Finding Chemonics ASA P 'FR 2014-1

Kearney identifies a control deficiency on the basis that, under one grant, the actual signature
date of modifications was later than the effective date. We do not believe this evidences a
deficiency because, as a general contrach1al matter, it is permissible for parties to sign an
agreement subsequent to its effective date. TI1ere are myriad reasons why s imultaneous
signahues would not always be possible in dynamic and conflict-affected environments s uch as
Afghanistan. We note that there were no questions regarding the legitimacy of the
modifications or the costs associated with them. While we agree that obtaining the necessary
signahtres on modification prompt! y is a good practice, we do not believe that the
circumstances here point to a control issue. As a general principle, we agree with the language
Kearney quotes from the GAO publication Standards for Internal Control in the Federal
Government. However, this publication is nol applicable to a private corporation such as
C hemonics and does not appear to address execution of modifications in a fie ld environment
s uch as Afghanis tan.

We therefore res pectfully rec1uest that this finding be removed from the audit report.

Finding Chemon.ics ASA P NFR 2014-2

Response lo Recommendat.ion #2. Olemonics contests all of the $1,068,768 of costs questioned
under this finding. We address Kearney's general comments below, followed by specific
comments on each subfinding.

General comments. At the conclusion of finding ASAP NFR 2014·2, Kearney recites numerous
clauses from the Federal Acquisition Regulation, the Code of Federal Regulations, and USAID's
Auto ma ted Directives System (ADS), but does not explain their connection to the ASAP
contract or relevance to the audit findings. We note that there are no provisions of our contract
that incorporate, or require adherence to, FAR Parts 6or13. Tile 22 CPR 226.53 and 226.71
clauses are requirements for grantees, not contractors. Finally, while we are familiar with the
cost principle Kearney cites at FAR 31.201-2(d), the audit report does not identify whether
Kearney is characterizing these costs as unsupported or ineligible on the basis of whether they




                                                57
were paid, are allocable, or conform to some other specific cost principle. This makes it difficult"
to provide a comprehensive response.

Subfindir1g ASAP NFR 2014-2.1 - Competitive Bidding Documentation.

Kearney characterizes as unsupported the full $49,170 invoiced amount (burdened) for a
s ubcontract for lhe purchase of saplings based solely on lack of competition. However, Kearney
does not address its finding to the terms and conditions of the ASAP contract. As we noted in
our general comments above, the contract does not incorporate the regulatory requirements
Kearney seeks to impose. ·n1e only requirement we find for competition is the requirement at
FAR 52.244-5, Competition in Subcontracting, which states that "The Contractor shall select
s ubcontractors (including s uppliers) on a competitive basis to the maximum practical extent
consistent with the o1'jectives and requirements of the contract." Chemonics takes this clause
serious ly and does promote competition in subcontracting to the maximum extent practical.
However, as this FAR clause also r,ecognizes, there are limes when competition is not
practicable or, due to an urgent need, would be inconsistent with diligent folfillment of the
objectives and requirements of the contract. In s uch circumstances, Chemonics may conduct a
sole-source procurement to ensure that the interests of the project and the government are
protected. The s apling procurement in question was such a circumstance.

We provided Kearney with an explanation of these circumstances and the need for expediency,
which can be summarized as follows: In 2008, ASAP purchased 500,000 Kandahar sweet red
pomeh>ranate saplings as part of a s trategy to spur pomegranate production by Balkh province
farmers under a voucher program. Due to a confluence of circumstances, including an
unusually abrupt transition from harsh winter to hot summer conditions that year and an
avalanche that stopped delivery tr11cks for more than a week in the Salang Pass, local farmers
had already made their own planling decisions by the time the saplings arrived in late February
and early March. This left ins ufficient time to effectively conduct sales and planting in that
season. The unplanted saplings began to die, and there was no s uitable nursery with sufficient
available space to maintain the saplings. To protect USAID' s interests and ensure that the
saplings the agency had paid for would survive and remain available for foture use, ASAP
urgently needed to identify a suitable land site and subcontract the construction and
maintenance of a nursery to transfer the pomegranate saplings and avoid further losses. We
believe our actions were consistent with those that a prudent person would take in the ordinary
course of business, and reflected the seriousness with which we take our role as responsible
stewards of taxpayer resources.

Kearney has not explained why this explanation was inadequate, or why the circumstances for
the sole-sourced procurement were inherently unreasonable.

Kearney also characterizes $2,148 as unsupported for an item that it claims was not competed.
However, this claim is inconsistent with the facts. Chemonks obtained two written quotations
for this item and selected the lower priced vendor. We provided both quotations to Kearney
during the audit. Kearney responded by stating "Yes, we acknowledge that two bids were
provided. However, regulations require three bids. We did not receive documentation that only
two vendors were eligible or that the award was issued through a sole-source transaction."


Chemonics response to d raft audit repo rt for ASAI' and ASI                                   Page 2




                                                         58
(Email, Sarah Lakkis [Kearney] to 0 1emonics, March 17, 2014). We are unaware of any
contractual requirement, or regulalion incorporated in the ASAP contract, that requires three
bids, and Kearney has not provided any evidence that such a contract clause exists. Indeed,
FAR 15.403-l(c)(l), while not incorporated as a requirement of Chemonics' contract, establishes
government wide guidance that two offers- or, indeed, the mere prosped of receiving two
offers- is sufficient evidence of adequate price competition for prime conh·act procurements. It
is unclear to us why Kearney seeks, on a very sma11 expenditu re, to impose on C hemonics a
standard more rigorous than the standard that the FAR Council considers sufficient for
contracting officers conducting multimillion dollar procurements . Also, as noted above,
competition or Lhe lack thereof is not ilself dispos itive of cost allowability under the contract
terms and conditions.

We respectfully request that this subfinding be removed from the audit report.

Sub.finding ASAP NFR 2014-2.2 - Timesheels, Receiving Rep-0rls1 and fnvoices.

Kearney characterizes $440 as unsupported based on the lack of Limesheels or proof of payment
for occasional laborers paid in cash. The laborers were tomato farmers who were assisting the
project wi th demonstrations to other farmers in their region. We provided Kearney with
s upporting documentation related to the payment, including a list of the laborers,
contemporaneous email correspondence requesting payment for the named laborers, a payment
request form from the project's Horticulture and Plant Protection Advisor, and a coding sheet
approving the payment that was signed by three separate ASAP employees. We agree that
timesheets would be an optimal practice, however this is not a realistic documentation
requirement for occasional laborers of this type; our experience is that such persons often have
limited literacy. Moreover, there was no requirement for Chemonics to retain times heets for any
longer than the two-year period specified by FAR 4.705-2(b), nor to retain proof of payment for
longer than lhe two-year period specified by FAR 4.705-2(c). Accordingly, there is no bas is for
characterizing the costs as unsupported solely due to the lack of such documentation. We
believe the documentation we provided is sufficient to demonstrate the required nexus between
the costs incurred and the contract for which they were inC1trred.

While we believe that Lhe above response should be dis positive of the matter, we note that any
claim based on costs Kearney characterizes as unsupported for ASAP NFR 2014-2.2 would be
time-barred under 41 USC§ 7103(a)(4)(A). More than six years have elapsed since the costs
were invoiced to USAID, and the lack of an audit does not toll the statute of limitations for a
claim. See Raytheon Co. v. United States, Fed. Cl. 2012 WL 3040113 (No. 09-306C, July 26, 2012)
(denying reconsideration of Raylheon Co. v Uni led Stales, Fed. Cl. 2012 WL 1072294 [Apr. 2,
2012]).

Kea rney also comme nts in this subfinding on two instances where there was a timing disparity
between when costs for goods provided to a beneficiary were inC1Lrred and when the goods
were acknowledged as received. There could be mru1y valid reasons for such dis parities, from
common commercial terms providing for payment before delivery to responsiveness of the
beneficiary in signing a receiving report. We have focused our response to this sub finding on
the costs characterized as unsupported, however we would be happy to discuss the specific


Chemonics response to d raft aud it report for ASAI' and ASI                                 Page 3




                                                         59
circumstances of these six items with the contracting officer should USAID desire more
informalion.

We res pectfully reques t that this subfinding be removed from the audit report.

Subfinding ASAP NFR 2014-2.3 - Grant Closeout Documentation

Kearney's draft audit report provides two distinct and conflicting narratives for why Kearney
characterizes $856,496 as unsupported, comprising the entire (burdened) amount invoiced for
o ne of the grants under contt act that ASAP issued with USAID approval. On page 2'3 of the
draft audit report, Kearney states they are questioning the entire amount of the gran t because of
alleged "lack of documentation to support the adequate closeout" of lhe gra nt.1l1is is the
rationale that was conveyed to Chemonics at the exit conference and in previous
correspondence. However, on pages 27-28 of the draft audit reporl, Kearney states that the same
purported issue with granl closeout documentation resulted "i n a control issue and no
questioned costs." Kearney also presents a different explanation on pages 13 and 28 that the
entire amount of the grant is being questioned because there were questioned costs in a
previous audit of the grantee that Kearney alleges are unresolved.

We address each of Kearney's two narratives independently below.

Grantee closeout documen talfon
While the failure to issue a h>rant completion certificate may warrant an administrative finding,
nothing in our contract terms and conditions es tablishes a completion certificate as a condition
precedent lo reimbursement for the costs Chemonics incurred in issuing and paying for !'. his
grant on USAID's behalf. Kearney references 22 CFR 226.71 and Chemonics' grant manual as
sources for the completion certificate requirement. However, the cited section of the regulations
does not address s uch certificates. While Lhey are part of the internal g uidance in 0 1emonics
h>rant manual, and a step that Chemonics routinely takes, the lack of such a document does not,.
in itself, negate the government's binding obligation under FAR clause 52.216-7 incorporated in
the contract, to reimburse 01emonics for the costs that it incurred.

Additionally, 01emouics provided sufficient evidence to Kearney that we incurred costs for t:he
grantee consistent with what we invoiced. During the audit, Kearney sampled numerous
transactions for t:his grant, and we provided ample documentation t:hal more than exceeded the
legal standards for s up porting each san1pled charge. TI1is included:

    a. Supporting documentation for all disbursements.
    b. Supporting documentation for direct procmement performed from Chemonics under
       the grant.
    c. Original grant, modifications 1 and 2, and their respective modifications.
    d. Competition related information.
    e. Ferguson audit report and related response information.
    f. Grantee's final report.




Chemonics response to d raft audit report for ASAI' and ASI                                 Page 4




                                                        60
    g. Copies of 300 rural store agreements signed by each beneficiary with their respective
       pictures, list or items received with their serial numbers, and lis t of repairs performed to
       their stores with their estimated U.S. dollar value.
    h. Month ly financia l reports .

Kearney claims that a final financial report was not provided. The following section is part of
Durukshan's final report:

         financial Report:
         The financial report according to ASAP financial requirements and format is prepared
         and submitted. on monthly bases to ASAP Financial Management Unit. This shows the
         cumulative ex penditure to date.

As noted in the list above, these monthly reports were part of the supporting documentation
provided to the auditors.

Nevertheless, to provide even further assurances that match the intent and substance of the
h'Tantee completion report, in preparing the response to this draft audit report Chemonics has
obtained a sworn affidavit from the grantee confirming the amount it received under the grant
in question. We are provid ing this affidavit under sepa.r ate cover. We as k that Kearney consider
this documentation now as part of our full response, and consider modifying its finding in light
of our response, in accordance with GAGAS 4.38.

Prior audit report findings
Kearney's claim regarding the prior audit report from PricewaterhouseCoopers' affiliate A.F.
Ferguson is not supported by the facts. The Ferguson audit of the v·antee did not question the
entire amount of the grant. TI1is was an initial position taken by the auditor, however they
revised this pos ition prior to iss uance of the aud it report upon receipt of add itional
documentation, as noted in Section 3.iii of the Ferguson audit report. In the finalized audit
report, Ferguson questioned only $125,816 (unburdened). TI1is was related to investment in
rural agricultural stores that exceeded the initial estimate of $2,500 per store. The $2,500 was an
initial estimate reflect:ed in lhe " program description" section of the grant· agreement, but
Ferguson mistakenly believed it to be an enforceable ceiling, and this was the source of the
questioned costs. Both Chemonics and the grantee disagreed with the basis for the questioned
costs , and AttachmenL5 of the Ferguson audit report contained a detailed explrurnt:ion of why
the initial estimate was not sufficient to accomplish the objectives of the grant. Moreover, both
Chemonics and the grantee believed there were flaws in Ferg11son's analysis of the value of the
associated construction, which occurred well after the fact. Chemonics followed up on lhe audit
report with written analysis and disposition of the findings by Chemonics' chief of party. We
also shared the audit report with USAID. USAID did not respond with any decision lo disallow
costs or otherwise overturn the determination of Chemonics' chief of party.

A review of our records indicates that we did not initially provide Kearney with Attachment 5
to the Ferguson audit report or the chief of party's decision memo and disposition of the audit
findings. We are submitting under separate cover those documents as part this response, and
request that Kearney consider them, in accordance with GAGAS 4.38.


Chemonics response to d ra ft audit repo rt for ASAI' and ASI                                  Page 5




                                                          61
We could understand an observation from Kearney Lhat the Ferguson audit report was not
concluded with written disposition from USAID. However, such an observation would not
provide any independent basis for Kearney lo question the same costs. Rather, if this is the
nature of Kearney's concern, we believe such concern would more appropriately be reflected as
an outstanding prior audit in the list of prior audit findings Kearney has included in Appendix
A of the draft report. We note, however, that we do not regard the audit as outstanding, since it
was Chemonics and not USAID who was cllarged with administering the grant, and
Chemonics' chief of party performed a proper analysis and disposi tion of the audit findings.

Additionally, Kearney has provided no explanation for why the Ferguson audit report would
justify characterizing as unsupported the full amount of the grant. We previously noted to
Kearney that the Feq,ri.1son audit only questioned $125,816, and asked Kearney to explain its
position. Kearney's response was that "l11e complete amount is being questioned because close-
out documentation created by the grantee and/or Chemonics did not include financial amounts.
The only financial amounts were included with the A. F. Ferguson audit, thus we felt that the
close-out of the grant performed was inadequate when the value of the cost that A. F. Ferguson
was questioning is considered, therefore leading to questioned costs." (Email, Sarah Lakkis
[Kearney] to Chemonics, March 17, 2014). This forther highlights the inconsistency in Kearney's
stated justifications for characterizing the costs as uns upported.

Conclusion
Given that neither of the narratives Kearney has provided justifies characterizing as
unsupported the costs discussed above, we respectfully reques t that this subfinding and
associated cosl:s characterized as uns upported be removed from the audit report.

We no le that any claim regarding the costs characterized as unsupported under subfinding
ASAP NFR 2014-2.3 would, in whole or part, be time-barred under 41 USC§7103(a)(4)(A).

With regard to the statement by Kearney that: there were "20 instances where adequate grant
closeout was not provided," it is unclear to us to whicl1 20 ins tances Kearney is referring. There
were only five grants issued on ASAP. Our records indicate that Kearney had questions about
the closeout documentation for three of the five gra11ts, including the gra11t that is the subject of
the questioned costs under this s ubfinding. We do concur that there were not completion
certificates for these grants.

Subfinding ASAP NFR 2014-2.4 - Miscellaneous

Chemonics contests the $141,027 in costs chai:acterized as uns upported for Modifications 2 and
3 to Chemonics' subcontract with Partners in Revitalization and Building (PRB). We note
Modification 2 increased the obligated amount, not the subcontract ceiling, and thus did not
require contracting officer consent or approval. We do acknowledge that we should have
obtained written contracting officer consent for Modification 3. Obtaining consent when
required is an obligation that we take seriously and, with the exception of this isolated incident,
an obligation that we believe we consistently met on the ASAP contract However, we note that
USAID approved the original s ubcontract and the first subsequent modification thereto, and


Chemonics response to d raft audit repo rt for ASAI' a nd ASI                                   Page 6




                                                          62
that USAID w as aware of the activities covered by the modifications and the government
received the full benefi t for the expenses incu rred. We do not believe the government s hould
now receive those services at no cost due solely to the lack of formalized consent on one of the
modifications to a previous ly consented-to subcontract.

We also note that any claim based on the costs Kearney characterizes as unsupported or
ineligible under this s 'llbfinding, including costs not expli.citly discussed in the preceding
paragraph regarding PRB, would be affected by the time bar at 41USC§7103(a)(4)(A).

We res pectfull y reques t that this subfinding be removed from the audit report.

Response lo Recommendation #3. 0 1emonics has robust systems for maintaining adequate
documentation, as evidenced by the small amount of questioned costs relative to the contract
value. Additionally, we are always continually improving these systems, and in recent years we
have established an ISO 9001-cert:ified quality manage ment system to further reinfo rce o ur
continuo us process im provement loop. We regard the few uncontested documentation related
items in Recommendation lt3 as isolated incidents.

Finding Chemonics ASA P NFR 2014-3

Kearney questions $19,899 of rest and recuperation (R&R) travel charges for an employee who
worked across multi ple USAID-funded prime contracts in order to implement and s upervise a
shared security platform for all Chemonics contracts in Afghan istan. Kearney is questioning this
cost based on what its auditors consider an incorrect methodology for allocating the costs across
contracts. Chemonics does not d ispute that the R&R charges were allocated to the employee's
home project. This was consistent with 01emonics' practices at the time, which were discussed
with USAID. We allocated R&R to an employee's home project so that: there was a central
location w here eligibil ity for s uch travel could be tracked, and because we believed the
marginal benefit that might accrue to the government from a different methodology wo uld be
o utweighed by the increased costs necessary to implement a different methodology.

Nevertheless, to the extent that any claims and counterclaims between the parties wo uld still be
timely under 41 USC§7103(a)(4)(A), we remain o pen l:o discussing t:llis matter with USAID,
and to reallocating a portion of the cost to the o ther releva nt contracts if USAID prefers a
d ifferent methodology. We no te that any s uch reallocation would likely result in increased
overall cost to the government, as the indirect cost rate ceilings C hemonics a nd USAID
negotiated on the ASAP contract were considerably lower than o ur provisional NICRA rates
and lower than w hat we would be required to bill under the terms and conditions of the o ther
contemporaneous contracts at issue.

Finding Chemonics ASI NFR 2014-1

Based on documentation prov ided to the audi tor, Chemonics believes that $115,834.62 of the
$120,268.00 characterized as unsupported under this heading, including all costs under
Subfindings ASI NFR 2014-1.1 and all but $4,433.38 (unburdened) of the costs under Subfinding
ASI NFR 2014-1.4, are supported and allowable under the terms of the contract.


Chemonics response to d raft aud it report for ASAI' and ASI                                      Page 7




                                                         63
111e majority of the costs that Kearney characterizes as uns upported relate to USATD-approved
procedures whereby grant budgets could change by 5-10%, depending on the date, without
add it·ional USA TD/OTT approval or nolificalion requirements. Kearney d id not recognize this
pre-existing approval, and ins tead has attempted to hold Chemonics to documentation
standards that are not required by the ASI contract.

Chemonics agrees that there were some minor administrative processing and documentation
completion issues. This is a challenge common to projects operating in high risk environments
w iU1 limited s taff and resources. Chemonics con tinues to implement processes aimed at
improving these areas. However, we do not agree that the project lacked adequate controls over
material matters, including expenditures.

We address Kearney's general comments below. We then address each of Kearney's specific
s ubfindings in turn. Because there are different explanations for some of the items grouped
together under the s ubfindings, we have interspersed Kearney's bullet points with our
responses l:o provide a more logical flow. We stand ready to answer any additional questions or
provide clarification regarding this response.

Sub.finding AST NFR 2014-1.1- "Tnsufficient Approvals
                                                   11




    •   Grants: Instances of insufficient approval related to Grant and subcontract agreements,
        modifications, Memorandum of Negotiation, Clearance Forms, Completion Certificates,
        and closeout documentation.

Chemonics' response: Chemonics does not believe that the materials provided evidence lack of
proper approvals.

The items cited by the auditors can be broken down into three main categories. First, the
auditors state that memoranda of negotiations were not signed or were signed after the start·
date of the Grant Agreement. While ASI s taff did generally sign the negotiation memoranda,
there was no obligation requiring them to so. T11e lack of signature does not undermine the
legilimacy of the document or evidence a control issue. Because the memoranda exist to
document the results of negotiations, it is not unusual that they would be completed after
finalization of the grant agreement or respective procurement under U1e in-kind grant and filed
in the appropriate files. We do not believe that any failure in controls is present here.

Second, many of the items concern cases where Granl Agreements or modifica tions were signed
after the cited effective date. We believe these are not control issues, because as a general
contraclual maller it is permissible for parHes to an agreemenl lo sign the agreement
s ubsequent to the effective date of the agreement. 111is is especially h·ue for in-kind grants-
comprising the majority of the grants listed in this section- which are not obligating
instruments for the grantee to expend funds.

T11ird, for those instances related to USAID approvals for closeout or grant clearance, the OTI
Activity Database was the method for confirming actions ru1d activities between OTI


Chemonics response to d raft audit report for ASAI' and ASI                                 Page 8




                                                        64
Washington, arr field staff and various ASI offices. ASI updated each activity in the database
with information and status which was uploaded to OTT at USAfD/Washington on a weekly
basis. In coordination and communication with OTI, updates were available in the field for OTI
review and oversight through the database. 011 tracked active and closed aclivities. Timelines
on closeout activities varied based on the ability to coordinate or visit Grantees due to changing
security situations. Management concurs that it is preferable to finalize documentation
expediently and maintain redundant confirmations of approvals. Considering the chm1ging
security situation, it is reasonable that approvals would be captured as actions within the final
011 Activity Database mid that closeout of in-kind grants may have been delayed. We believe
that this is nol an ind ical:ion of an internal control issue, s ince delays or lack of secondary
evidence of 011 approvals caph1red in the database did not affect our ability to prevent or
detect and correct misstatemenl<> on a timely bas is.

Tirns, we respectfully request that this item be removed from the audit report.

    •    Grants: Instm1ces of insufficient approvals of payment related supporting
         documentation.
                One instance in which the invoice was not properly approved by appropriate
                Chemonics personnel, resulting in uns upported costs of $24,190.
                Two instances in which lhe Purchase Order (PO) was not approved until after
                the delivery of goods occurred.

Chemonics' response: The instance Kearney cites in which an invoice "was not properly
approved by appropriate Chemonics personnel" refers to a grant for the purchase of chemistry
kit:s for local schools. During the course of the audit, we provided Kearney with the following
documentation to support this cost:

    a) All procurement documentalion for the purchase.
    b) The approved purchase order.
    c) The final invoice processed for payment with a stamp "received."
    d) A memo to file from the ASI finance team completed post transaction confirming that
       the trm1saclion ent·ry was reviewed and approved by appropriate project finance staff.
    e) The signed and accepted Deed of Donation and grantee completion certificate, showing
       that all of the i:equested materials (37 total chemical sets) were delivered to and accepted
       by the intended beneficiary.

The USAID-approved ASI-South procurement manual provided that a responsible staff
member should review the original invoice to ensure accuracy. If the ilivoice was accurate
according to the purchase order, the staff member should sih'TI or stamp the invoice showing
his/her review and approval, l:hus indicating the invoice is accurate and acceptable. As
mentioned above, the invoice in question was s tamped as "received" with a date indicated.

In discussions during the course of the audit, Kearney s tated that they would determine this
cost to be unsupported because the invoice stan1p included a place to "sign", which was not
signed and by this logic there was nothing on the stamp to indicate which department received
or reviewed it.


Chemonics response to d raft aud ii report for ASAI' and ASI                                  Page 9




                                                         65
However, we dis agree because (a) there was no requirement either in the procurement manual
or in the contract that a reviewed invoice requires a signature, (b) the memo to file from the ASI
finance team completed pos t transaction confirmed that the transaction entry was reviewed and
approved. by appropriate finan<.-e staff, (c) the invoice was s tamped as received and. other
documentation makes dear the beneficiaries received the chemical sets per the grant
agreements, and (d) there is no question that the costs are reasonable.

Therefore, Oiemonics maintains that the documentation submitted support these costs and
respectfully requests that this item be removed from the audit report.

    •    ODCs: Instances of insufficient approval were noted:
              For on~ instance in 2009, the expense report was not approved. As costs were
              sufficiently supported, this exception did not result in questioned costs.
              f or one ins tance, the PO was approved after the invoice and delivery of the
              goods. As the goods were received and the costs were sufficiently supported, this
              excepti.on did not result in questioned costs.

Chemonics' response: We acknowledge these instances were aberrations from our policies. We
agree with the conclus ion tha t we provided sufficien t documentation lo s upport the costs .

Subfindir1g ASI NFR 2014-1.2 - Clerical Issues

    •    Payroll. In one instance related to payroll, due to a clerical error, an employee had an
         incorrect amount of retroactive salary paid on a pay raise. Tiie error resulted in an
         inconsequentially lo wer amount of costs incurred; therefore, this error did not result in
         questioned costs.

Chemonics' response: We provided calculations to the auditor to show that the clerical errors in
applying the retroactive salary approval were negligible.

Tiierefore, we respedfolly request t:hal this item be removed from the audit report:.

    •    Grants: For four instances related to one subcontractor that implemented 13 Grants,
         fingerprints were used in lieu of signatures, and the fingerprints were either smudged or
         faint and wo uld therefore be unusable to verify the identification of the individual. For
         one instance related to one Grant, the incorrect Grant budgeted amount was recorded on
         the activity closeout documentation.

Chemonics' response: We agree Lhat some fingerprints were smudged or faint, possibly as a
result of the passing of time or the relocation of records, and that these and other minor clerical
issues do not result in uns upported costs. Chemonics will continue to place management
emphasis on ensuring that the correct: budgeted amount for grants is recorded in closeout:
documentation.




Chemonics response to d raft aud it report for ASAI' and ASI                                  Pagel 0




                                                         66
ASI NFR 2014-1.3 - Unexplained Discrepancies between CL Balances and Grant Closeou.t
Docume11lalior1

    •    Grants: A total of 12 ins tances related to nine Grants were idenlified in which the
         transactions recorded in the GL did not reconcile to the amount that was recorded on the
         activity closeout documentation. While none of these costs were considered to be
         unsupported as s ufficient supporting documentation was provided to s upport the
         individual costs, a control deficiency was noted.

Chemonics' response: General Ledger balance differences sometimes occurred when the in-kind
grant activity closeout documentation was processed prior to a financial period dosing, or
whe n the grant activity included different Lypes of cos ts; for example, an in kind procurement
as well as short term technical assistance. As Kearney notes, we provided s ufficient
documentation to support these costs.

Therefore, we respectfully request that this s ubfinding be removed from the audit report.

AID NFR 2014-1.4- 11I mproperlf Review Procedures

    •    In one instance in 2012 for Payroll, the period of performance on the Employee
         Ai,>Teement did not reconcile to the period of performance on the Earnings Statement,
         resulting in unsupported costs of $234.

Chemonics' response: During the course of the audit, we explained to Kearney that the
electronic payroll system put into place during the project captured the termination date for all
employees based on data entered from the Human Resources Department. Although we were
unable to locate the hard copy modification to the employment agreement related to the $234 of
burdened costs that Kearney has characterized as unsupporled, we did provide Kearney with
the earnings statement generated from the payroll module indicating that the employee's adive
status started on 2009-12-12 and terminated on 2011-12-11, as well as the employee' approved
full-time timesheet an.d corresponding pay rate for the month in question. The payroll module
would not have allowed the employee's pay to be processed had her status no t been active with
time approved. We believe the employee's limesheet and earnings slat·ement are s ufficient
documentation to support this cost.

We therefore respectfully request that that this item be removed from the audit report.

    •    For two instances for Payroll, a transliteralion issue occurred, resulting in the
         employee's name not appearing the same on all supporting documentation. Since the
         costs were otherwise fully supported, only a conl:rol issue was noted.

Chemonics' response: We acknowledge the transliteration issue identified and agree with the
conclusion that these costs were fully supported. We also note that tohe issue of l:ransliteration or
translation for names was significantly reduced when Chemonics developed and began using
an automated payroll module on the projects we implement in Afghanistan.



Chemonics response to d raft aud it report for ASAI' a nd ASI                                 Page J l




                                                          67
    •   For one instance for Grants, the total amount of subcontract costs incurred exceeded the
        amount of US Dollar costs authorized by USATD in the consent to subcontract. This was
        the res ult of a change in the exchange rate applied per the consent to subcontract versus
        the exchange rate applied to the actual payment due lo the tim ing of the paymen t. 111e
        final amount paid by Chemonics for all costs, including this subcontract, did not exceed
        the ceiling of the previously, USAID-approved in-kind grant, nor did it exceed the
        ceiling for the Afghani amount per the s ubcontract, and therefore did nol result in a
        questioned cost.

C hemonics' res ponse: We agree with the conclusion that there are no questioned costs for this
item. We further note that the ASI Activities Management Guide (AMG) included provisions
whereby the grant budget could change by 5-10%, depending on the date, without USATD/011
approval or notification requirements. This provision allowed for exchange rate changes and
minor changes to actual cost:s for items procured in-kind to move ahead without undue
adminislTative burden and delays in the challenging conflict environment. ~n1is s tructure was
agreed to by USAID/OTI as part of the contracting officer's approval of the AMG.

Activities that included short-term technical assistance or direct distribution of goods and
services were processed in accordance with the subcontracts issued to vendors within the
USAID/OTI cleared activity description.

111e final USD value for the subcontract is within the budget change threshold aul:horized per
the USAID/OTI approved AMG; thus, no additional approvals were requested or required.

11\erefore, we respectfolly request that this item be removed from the audit report.

    •   For eight instances in 2010 for Grru1l:s, the total costs incurred exceeded the budgeted
        amounts, resulting in unsupported costs of $69,671.
    •   For four instances in 2011 for Grants, the total costs incurred exceeded the budgeted
        runounts, resulling in unsupported costs of $26,173.

Chemonics' response: As noted above, the USAID-approved ASI Activities Management Guide
(AMG) included provisions whereby the grant budget could chru\ge by 5-10%, depending on
the date, without USAID/OTI approval or notification requirements. This provision allowed for
exchange rate changes ru1d minor d1anges to actual cosl:s for items procured in-kind to move
ahead without undue administrative burden and delays in the challenging conflict
environment.

When the activity involved an in-kind grant, the 1:,>rant completion certificate was used to
finalize the details for lhe adivily in the OTI e-Rooms files and Grants Database which served
as OTl's official record of grant activity actions. Tirns, overages within this parameter for in-
kind t:,>Tant activities could be recognized through the grant completion certificates signed by
bot:h parties certifying the completion of U1e activity and final reconciliation of in-kind grant
value.




Chemonics response to d raft audit report for ASAI' and ASI                                    Page 12




                                                        68
Activities that included short-term technical assistance or direct distribution of goods and
services were processed in accordance with the s ubcontracts issued to vendors with in the
USAID/OTI cleared activity description.

The discussion below provides detail of the agreements that Kearney has d1cuacterized as
unsupported:

    i.   PBC 25-68, Activity ARG-011
            a. Original budget: $89,188.37
            b. Costs incurred in excess of original budget: $1,756 (2.0%)
            c. Discussion: The original USD grant budget was the equivalent of 4,459,419AFA.
               The grant completion certificate, signed by both the grantee and Chemonics
                representatives, served as the final reconciliation of the value of all in-kind
               support provided under the grant, and certified to the completion of the grant
               activities. Chemon ics provided to Kearney the final duly executed gr.ant
               completion certificate amending the Grant Budget to $90,944.72 along with the
               supporting document:ation for the selected cost sample under this grant. TI1e
                final USD value was within the budget change threshold authorized per the
               USAID-approved AMG; thus, no additional approvals were requested or
                required.

    ii. PBC 25-92, Activity ARG-032
           a. Original budget: $44,545
           b. Costs incimed in excess of ori!,>inal budget: $1,510 (3.4%)
          c. Discussion: This was a non-grants activity. TI1e clearance form sig11ed by
              USAID/OTI is for a short-term technical assistance activity with a private entity
              which was accomplished t:hrough a fixed price subcontract. The total payments
              were consistent w ith the subcontract as amended for 2,045,434AFA, which at the
               prevailing exchange rate resulted in cos ts billed to the government of $46,055
               (unburdened). Because the subcontract was firm-fixed-price and did nol exceed
               the simplified acquisition thres hold, 01emonics had discretion to enter into and
               modify the subcontract without further USAID action consistent with FAR
              52.244-.2. Furthermore, the subcontract entered into was consistent with the
              activity budget as modified and the final USD equivalent was within the budget
              change threshold authorized per the USAID-approved AMG. Kearney has not
              provided any argument that supports its characterization of this cost as
               uns upported.

    iii. PBC 25-41, Activity GAR-052
            a. Original budgel: $74,230
            b. Costs incu rred in excess of original budget: $2,899 (3.9%)
            c. Discussion: The AFA ec1uivalent at the time of grant signature was 3,686,006AFA.
               Follow.ing initial grant clearance, there was a significant change in the exchange
               rate between the USD and AFA. Total subcontract payments under this in-kind
               grant were consistent with the subcontract as amended for a total fixed price
                amount of 3,449,400 AFA. Although this amount was lower in AFA terms than


Chemonics response to d raft aud it report for ASAI' and ASI                                   Page 13




                                                         69
                 the original budget, the exchange rate fluchiation resulted in a higher USD value
                 for the AFA in-kind grant and corresponding fixed price s ubcontracts
                 denominated in AFA. The final USD value was within the budget change
                 threshold authorized per the USA ID-approved AMG; thus, no additional
                 approvals were requested or required.

    iv. PBC 7.5-27, Activity GAR-054
           a. Original budget: $312,454
           b. Costs incurred in excess of original budget: $19,907 (6.4%)
           c. Discussion: Following initial gnnt clearance, there was a significant change in
               the exchange rate between USD and AFA. This resulted in a higher USD value
               for the AFA in-kind grant and corresponding fixed price s ubcontracts
               denominated in AFA. This was explained in a note to the file included in the
               grant documentation Chemonics submitted to Kearney. The to tal s ubcontract
               payments were consis tenl with the s ubcontract as amended and as approved at
               the time of issuance. However, due to exchange rate changes, the USD equivalent
               increased. The final USD value was within the budget change threshold
               authorized per the USAID-approved AMG; thus, no additional approvals were
               requested or required.

    v. PBC 7.5-661 Activity GAR-068
          a. Original budget: $28,086.85
          b. Costs incurred in excess of original budget: $466 (1.7%)
          c. Discussion: The AFA equivalent at the time of grant signah1re was 1,292,002AFA.
              This activity was a fixed obligation grant. Payments made on this activity
              equaled the original AFA budget. However, there were slight exchange rate
              differences when recording the aclual payments in AFA during the course of the
              activity, resulting in a slightly higher total USD expended amount for the grant.
              The final USD value was within the budget change threshold authorized per the
              USAID-approved AMG; thus, no additional approvals were requested or
              required.

    vi. PBC 7.5-47, Activity MAR-003
           a. Original budget: $55,533
           b. Costs incurred in excess of original budget: $2,127 (3.8%)
          c. Discussion: The APA equivalent at the time of grant signahtre was 2,776,650AFA.
               The grant completion certificate signed by !,'Tantee and ASI for the value of
               2,663,900 AFA was less than the original AFA eqt1ivalent at lime of grant
               sii,'llahue and was eq11al to the exact amount of a s ubcontract issued under the
               grru1t. TI1e s ubconlrad, according to lhe cost selected for the audil, was paid in
               full. Although the amount paid for this grant was less than the original value of
               the !,'Tant in AFA terms, exchange rate fluchiation resulted in a higher USD value
               than originaJly budgeted. TI1e final USD value was within the budget change
               threshold authorized per the USAID-approved AMG; thus, no additional
               approvals were requested or required.



Chemonics response to d raft audit report for ASAI' and ASI                                 Page 14




                                                        70
    vii. PBC 25-62, Activity MAR-011
            a. O riginal budget: $149,360
            b. Costs incurred in excess of original budget: $12,825 (8.6%)
            c. Discuss ion: The AFA equi valent at the time of grant signature was 7,429,000AFA.
               The grant completion certificate sii:,'lled by the grantee and ASI certified the
                amount reimbursed as 7,309,000AFA which was the exact amount of a
               subcontract issued under the gtant. Although this amount was less thaJ1 the
               original value of the grant in AFA terms, exchange rate fluchiation resulted in a
               higher USD value than originally budge ted. The final USD value was within the
               budget change th reshold authorized per the USAn) -approved AMG; thus, no
               additional approvals were reques ted or re<1uired.

    viii.    PBC 25-28, Activity SPI-030
             a. Original budget: $284,510
             b. Costs incurred in excess of originaJ budget: $25,270 (8.9%)
             c. Discussion: The AFA e'luivalent at the time of grant signahtre was
                14,225,SOOAFA. As shown on the Activity Completion Certificate and Final
                Evaluation Repo rt submitted to OTI, the fixed price subcontract for the work
                under this grant was issued at 13,939,020AFA and payments were issued in
                accordance with tha t s ubcontract. Although Lhis amoun t was less than the
                original value of the grant in AFA terms, exchange rate fluctuation resulted in a
                higher USD value than originally budgeted. The final USD value was wilhin the
                budget change threshold authorized per the USAID·approved AMG; thus, no
                additional approvals were reques ted or re'luired.

    ix. PBC 25-102, Activity KAN-031
           a. Original budget: $78,668
           b. Costs incurred in excess of originaJ budget: $7,816 (9.9%)
           c. Discussion: KAN-031 was a non-gran ts activity involving the provision of
               technical assistance from engineers hired on short- term e mployment agreements
              to be embedded with counterparts at the Kandal1ar City mayo r's office with all
              costs managed by ASI. The clearance form signed by USAID/OTI is for a short-
              term technical assistance adivily and was modified to the referenced activity
              budget. T he final USD value was within the budget change thresho ld authorized
               per the USAID-approved AMC; thus, no additional approvals were requested or
               required.

    x. PBC25-81, Activity KAN-047:
          a. Original budget: $71,082
          b. Costs incurred in excess of original budget: $11,146 (15.7%)
             Discussion: The budge t change threshold authorized per the USAIO/OTI
             approved Activities MaJ1agement Guide (10%), was $78,190.20. The subcontract
             costs charged to the contrad under this grant exceeded this thres hold by
             $4,037.38. The overage was an aberration due to an internal miscommunication.

    xi. PBC 25-38, Activity ARG-049


Chemonics response to d raft audit report for ASAI' and ASI                                 Page 15




                                                        71
             a. Original budget: $55,900
             b. Costs incurred in excess of the original budget: $5,986 (10.7%)
             c. Discussion: The AFA equivalent at the time of grant signature was 2,571,400AFA.
                As shown on the Activity Completion Certificate s ubmitted to OTI, the costs
                charged to the contract for in-kind support provided under this &>rant were
                2,802,714AFA. In USD terms, it appears on review that this exceeded the AMG-
                authorized. budget change threshold by$396 (unburdened). We would not
                contest a revised total that characterized as uns upported this $396 amount.

    xii. PBC 25-92, Activity ARG-032
            a. Discussion: This activity was discussed in item (ii) in our response above. We
                refer the reader to Lhat discuss ion.

As shown above, for !'.en of the twelve USAID cleared activities Kearney cites, the final USD
value was within the budget change threshold authorized per Lhe USAID-approved AMG; thus,
no additional approvals were requested or required. The purcl1ases, s ubcontracts, and provision
of short-term teclu1ical assistru1ce under each of the adivities were administered consistent with
contract rec1uirements. For the other two activities, we believe only the costs incurred in excess
of the budget change t hreshold authorized per the AMG, totaling $4,433.38, should be
characterized as uns upported.

During the course of the audit, Kearney asserted that, while 011 may not be required t:o
approve budget modifications under 10% of the total budget, modifications to the grants are
still required and therefore should be documented and approved by Chemonics and the
grru1tee. However, we maintain that as the grant was not an obligating instrument, formal grant
modifications were not necess ary to authorize provision of s upport within the USAID/011
thresholds for the activity budget. Further, the final grru1t completion certificates, when s igned
by ASI and the Grantee, provided s ufficient additional documentalion of the value of the in-
kind grant. When ASI activities were outside of an in-kind &>rant, no formal modifications were
necessary, as the activity budget was tracked in the 011 Activities Database and was in
accordance with the AMG authorized budget thresholds.

Regardless, since 01emonics possessed Lhe authority to allow limited deviations in budget and
properly recorded final grant runounts in the &>rant completion certificates and on Activities
Database, the lack of an intervening modification is not a material matter ru1d would not form
any basis for disallow ance. Requiring such a modification places an added administrative
burden (and expense) on projects with no apparent corresponding benefit. 01emonics will
nonetheless address this matter with in the future USAID to determine USAID's preferences.

We therefore res pectfully request Urnt l:he audil report be amended to characterize as
unsupported only the uncontested amount of $4,433.38 in this subfinding, and to remove other
unassociated items fro m this subfinding.

ASJ 2014-1.5 - Timing issues




Chemonics response to d ra ft audit report for ASAI' a nd ASI                               Page 16




                                                          72
    •    For nine instances for subcontractors, the payment was not made within 30 days of
         receipt of the invoice, as required by the s ubcont·ract agreement. ·n1ro ug h review of
         other relevant documentation provided by Chemonics, the costs incurred were
         cons idered reasonable. As a res ult, these instances did not res ult in unsupported costs.

Chemonics' response: We agree with the conclusion that there are no unsupported costs for this
item. We do not agree this represents a control issue because there can be many reasons for
delayed payments, including reasons that exist to protect the legitimate interests of USAID
and/or Chemonics. Chemonics takes seriously its responsibilities to pay s ubcontractors in a
timely manner, but this obligation is balanced against our other obligations. Most commonly, a
delay in payment is due to questions from project staff regarding the invoice and associated
s upporting documentalion from the subcontractor, though security concerns in delivering
payment, incorrect or suspicious payment instructions, or security or logistical restrictions
preventing communications can also be factors. 1l1ese delays are not due lo control issues; to
the extent that they are within any party's manageable contTol, they are commonly examples of
effective controls in action.

    •    For one instance for Grants, the Grant modification was not issued until the previous
         modification had ended, res ulting in a control issue
    •    For two instances for Grants related to one Grant, the Gran t modification was not issued
         until six months after the orii,rinal contract period of performance had ended, resulting
         in a control issue.

Chemonics' response: We agree with the condltsion that there are no questioned costs for these
two items. We also note that there can be many reasons for delays in execul'ing modifications to
grants, including reasons that exist to protect the legitimate interests of USAID and/or
Chemonics.

finding Chemonics ASI NFR 2014-2

Chemonics contests $819,640 of the $823,550 questioned under this finding, including all costs
questioned under Subfindings ASI NFR 2014-2.1 through 2014-2.5 and the $130 of pllrporled
"luxury goods" questioned under Subfinding ASI NFR 2014-2.6. We do concur with some of
Kearney's observations related to internal controls.

We first provide commentary below on Kearney's qualified opinion and a general cause for
some of the items Kearney cites as missing, as we believe Kearney did not i,rive due
consideration to the terrorist altack that dest:royed a significant portion of ASI documentation.
We then address Kearney's general comments in this finding, followed by our response to each
of Kearney's s pecific subfindings.

Terrorist attack. At 9:03 PM on April 15, 2010, a terrorist detonated a massive Vehicle Borne
Improvised Explosive Device (VBIED) outside 01emonics' ASI offices in Kandahar. In the blast,
two Chemonics guard s were slain, several other employees were injured, and equipment and
documenl:ation was destroyed or lost. TI1e photographs below show the extent of the
destruction l:o the project's offices.


Chemonics response to d ra ft audit repo rt for ASAI' and ASI                                  Page 17




                                                          73
At the entrance conference, during audit field work, and at the exit conference, Chemonics
informed Kearney's auditors of this event, and be likelihood that we would not be able to
produce all of the complete original documentation supporting certain costs as a result of this
terrorist attack. Chemonics made clear that it would provide alternative documentation to
support costs where original materials were not complete or unavailable.

In its draft audit report, Kearney has made clear it was unwilling to consider any
documentation other than the specific documentation requested. As such, Kearney's draft audit
report contains a qualified opinion for the ASI portion of the audit, stating that this action is
because Kearney was "unable to obtain adequate audit evidence specific to the Other Direct
Costs (ODC) and Grants balances for the ASI contract."

Chemonics is perplexed as to how Kearney came to such a conclusion. Characterizing costs for
which the supporting documentation was destroyed or lost as a direct result of a terrorist attack
as "unsupported" does not accurately reflect thE circumstances surrounding these costs nor
does it take into consideration the challenging operating environment present in Southern
Afghanistan during 2010. In addition, Kearney's determination to question all costs not
supported by complete sets of original documentation, without considering the adequacy of
evidence and available alternatives, is inconsistent with the regulatory and audit standards that
apply to government contracts and with well established legal precedent.



O,emonics response to draft audit report for ASAP and ASI                                  Page 18




                                                      74
We believe it is inequitable for Kearney to issue a qualified audit opinion without s tating that
Chemonics s uffered a terrorist attack and as a result was unable to produce documentation
Kearney reques ted. Doing so leaves a misimpression concerning Chemonics' administration of
the project and cooperation with the audit.

Further, as outlined below, we conducted an exhaustive search of our archives while preparing
our response to the draft audit report and we were able to locate additional documentation to
support these costs. We are providing this documenl:ation to Kearney for consideration.

We respectfully request that Kearney remove the qualification of its audit opinion, and remove
any reference to a qualified audit opinion in the audil reporl. At a minimum, we request that
Kearney provide a more accurate and complete characterization of the circumstances described
above in its audit opinion.

Response to Kearney's general comments. At the conclusion of finding ASI NFR 2014-2, Kearney
recites numerous clau.ses from the Federal Acquisition Regulation, the Code of Federal
Regulations, and USAID's Automated Directives System (ADS), but does not explain their
connection to the AS! contract or relevance to the audit findings. We note that there are no
provisions of our contract that incorporate, or require adherence to, FAR Parts 6or13. The 22
CFR 226.53 and 226.71 clauses are requirements for grantees, not contractors. Finally, we are
familiar with the cost principle found at FAR 31.201-2(d). But the audit report does not identify
whether Kearney is characterizing these costs as unsupported on the basis of whether they were
paid, are allocable, or conform to some other specific cost principle. This makes it difficult to
provide a comprehensive response.

Subfinding ASJ NFR 2014-2.1 Competilive Bidding Docurnenlation
Kearney has characterized as unsupported $787,795 that was invoiced for multiple grants or
s ubcontracts based solely on the amount of documentation provided to support competition.
We believe Kearney's finding is flawed for multiple independent reasons. First, each of the
grants in q11estion was approved in writing by USAID, according to the approval procedures
that had been mutually agreed between Olemonics and USAID. Ille information USAID
examined as part of its approval included budget estimates that the cognizant USAID officiaJI
deemed to be reasonable. The procurements-under-grants that form the basis for Kearney's
questioned costs were conducted wit:hin these estimates. The SWIFT Ill IQC cont·r act under
which ASI was tendered additionally provides that, in selecting grantees, "USAlD mus t be
significantly involved in establishing selection criteria and mus t approve the actual selection of
granl recipients and grant acl'ivilies,'' which accurately describes the level of USAID/OTI's
participation in the process. Kearney has provided no explanation as to why Kearney has
effectively subslil11ted its own relrospedive judgment of this malter, no twithstanding the prior
and contemporaneous approvals by the cognizant USAID officials.

1 Depending on the g rant value and type o f recipient, the cognizant official could be the OTI cow\try represenlative

or field d irector, the task order contracting officer's technical representative, or the tas.k order contractillg o fficer,
accordillg to 1he approval procedures that were approved by the contracting officer as part of the project's grant
mallual.



Chemonics response to d raft audit repo rt for ASAI' a nd ASI                                                         Page 19




                                                             75
Second, while our contract does generally incorporate the requirements of ADS 303, this
includes clauses that existed contemporaneously with the contract period of performance whid1
provide s pecific authority for exemption from com petition due to several circums tances s uch as
exclusive or predominant capability. Kearney has provided no analysis of the justifications for
absence of competition that Chemonics provided during the audit for some of the questioned
items, nor explanation as to why it believes these justifications were so facially deficient as lo
require the substitution of Kearney's retrospective judgment, nor explanation as to why, even if
this were t:he case, USAID would therefore be entitled to a refund of the entire universe of costs
associated with these gra nts and subcontracts.

Third, we have, s ince the issuance of the draft audit report, recovered so me of the
documentation that was believed lost in the VBIED attack or its aftermath that establishes
competition did occur for each of the procurements under grants that are ques tioned in this
s ubfinding. We have included this documentation as part of our res ponse, as discussed h1 rlher
below.

i.   Grant SPI002 awarded to FAF in 2009 for $256,694 (burdened): The project received an
     unsolicited list of 10 proposed projects for Spin Boldak area for consideration by ASI and
     USAID/OTI. AST a11d USA ID agreed to an initial project as one of the firs t major aclivities
     for the ASI project and negotiated the grant accordingly. The auditors asser t that the
     justification included in the negotiation memorandum for Grant SPI002 awarded to FAF is
     insufficient, although USAID/OTI approved the grant as required by the ASI AMG. TI1is
     was a grant with a U.S. firm with specific technical expertise and local knowledge and so
     meets the exclusive or predominant: capability requirements of ADS 303.3.6.S(c) (as it existed
     during the contract period of performance). FAF was also a USAID/OTI vetted firm with
     strong-track record, adequate financial systems and active engineering capacily in Kandahar
     Oty and presence in the key districls of Arghandab and Spin Boldak, w hich was required
     for implementation of this activity.

     The grant documentation provided to Kearney includes the USAID/OTI h>Tant approval as
     well as the negoti ation memorru1da for the grant:. Chemonics also provided to the auditors a
     copy of the FAF corporate capabilities statement as evidence of FAF' s expertise related to
     the activity. Present in Afghanistan since 2004, FAF had a long history working in the
     technical and geographic areas relevru1t to ASI ru1d predominru1l: capability with U1e
     expertise and context for this activity.

     Kearney asserted in discussions aboul this item that U1ey did not believe the documentation
     proved FAF was uniquely capable. However, the re<1uired s tandard was predominant
     capabilily, no t unique capability. More importantly, USAID/OTI considered Lhe
     documentation to be s ufficient in granting its clearance of the activity and approval of the
     grant. Therefore, C hemonics maintains that the h>Tant was awarded with the appropriate
     justification for lack of competition as required by the ASI contract, and that a ll costs of the
     grant are fully supported.

     We therefore respectfully request that this item be removed from the audit report:.


Chemonics response to d raft aud it report for ASAI' a nd ASI                                   Page 20




                                                          76
ii. Grants ARG-004, ARG-006, ARG-026, ARG-016, ARG-049, KAN-028, KAN-095 and KAN-
    105, totaling $531,201 (burdened). The procurements in question under these grants
    occurred either prior to (in the case of the first three grants) or s hortly after (in the case of
    the other five) the VBIED terrorist attack. M uch of the documentation associated with
    competition, as well as any applicable justifications for lack of competition, was lost or
    destroyed. TI1e project files related to the first three grants contain a memorandum with the
    following language:

         "On Apri l 15, 20'!0, the ASl-S Kanda har City office and residence was attacked via a massive
         Vehicle Borne Improvised Explosion Device (VBlED). The VBIED destroyed the office and U1e
         expatriate residen <.-e was severely dam aged. Wi th the integrity of security for the compound
         severely compromised, the expall·iate members of the team were evaCl.lated U1at evening.
         Concerted efforts were made over the following days to recover as much paper and electroni c
         progran1 docum entation as possible. However, d ue to U1e magnitude of U1e attack and
         subsequent damages, with the structurnl integrity o f the buil ding compromised and deemed
         unsafe to enter, a substa nti al amount of progra m doo.1menl:ation had been lost. Upon t:he transfer
         of tJ1e project office from the build ing follow ing the incident, tJ1e landlo rd precl uded furtJ1er
         access to th e property. Additionall y, many of the individ ual computers utili zed by t·he nationa l
         staff were damaged or destroyed du ring th.e blast, and thus m any of tJ1e electronic fil es were
         lost."

    The project files for the other five grants contain a note that the procurements occurred after
    the VBIED terrorist attack but during the period when the project offices moved several
    times and there were high ins tances of htrnover due to the unstable security situation. T he
    general language u sed is as follows, accompanied by a list of the missing documentation for
    each grant:

         "The fi les listed below are missing from the subcontracts folder due to th e foll owing reasons. In
         April of 2010 the ASl-South office in Kandahar was the target of a car bomb. After the explosion
         the subcontract:; department moved to Kabu l from May 2010 through November 2010. In
         November the s.ubcontracts team relocated back to Kandahar and was based out of the Sherzai
         office located by KAF. During this tin1e the subcontracts management team changed numerous
         ti mes. Every new subcontracts manager/director initiated a new fi le structure but d id not stay
         with the project Jong enough to fully imp lement the changes. This memo justifies the absence of
         the items listed below due to the high turnover rate in the subcontracts management team, th e
         blast in April, and the multiple times the office relocated during the course of the pro ject."

    Additiona lly, s ince receiving the draft aud it report, 0 1emoni cs conducted an exhaustive
    scan of staff computer arch ives lhat was not possible w ithin the audit limeframe. We were
    able to retrieve documentation from staff computer archives that s hows there was
    competition for each of the eight items in ques tion. We are submitti ng these documents
    under separate cover to Kearney as a part of our response, though we maintain that the
    costs would be adequately s upported even without th is addilional documentation. Due to
    the lime required to retrieve such archived in formalion, we were not able to locate th is
    information within the time constraints of the audit field work. We respectfully request that
    Kearney consider this documentation now as part of our res ponse and modify its findings
    as appropriate, consistent with GAGAS 4.38.


Chemonics response to d raft audit report for   ASAI' and ASI                                          Page 21




                                                          77
    Tn s um, we have, in each of the eight instances, provided Kearney with sufficient
    documentation to support allowance of the costs. We have now, additionally, provided
    documentation with this response that we believe addresses Kearney's comments on
    competition.

    We therefore respectful ly request that these items be removed from the audit report.

    Additionally, we note that Kearney has characterized as unsupported the entire val ue of the
    in-kind grant ARG-004 despite the fact that the sample cost aJ1d ques tion on competition
    documentation was associated with only one of the fixed price subcontracts issued under
    this grant. TI1e Grant with the Arghandab Joint District Coordination Center 00CC) was
    cleared by OTI on November 7, 2009 for the in-kind provision for strengthening the security
    at the JDCC, including boundary wall construction and installation of blast film. The
    selected cost under the audil was related only to the fixed price s ubcontract for boundary
    wall construction. The remainder of the grant was for blast film. While we maintain that all
    costs characterized as unsu pported under this subfinding should be removed from the audit
    report, we believe that for internal consistency Kearney should, at a minimum, revise its
    questioned costs to correspond only to the procurement in question.

iii. Questioned ODC costs of $13,307 (burdened). T he project s upported maintenance and
     repairs to the toilets in the MAIL building in Garmseer District. The rehabilitation and
     maintenance service was procured through a fixed price s ubcontract with payment due
     upon the completion of the work. Supporting documentation provided to the auditors
     included the fixed price subcontract, the approved invoice and payment request form, as
     well as the approved financial processing forms. The scope of work required the excavation
     of ru1 old septic tank, repairing the slab for the septic tank and installing toilet connecting
     pipes, repairing two toilets, and installing two wash tubs and one shower as well as
     repairing electrical switches and lights.

    Consistent with FAR 52.244-5, Chemonics promotes competition in procurements to the
    maximum extent practicable. For obvious reasons, the nature of work servicing a septic tank
    and repairing toilet connections typically requires a quick response. It is reasonable to
    include related items in the same procurement s uch as ins tallation of fixtures to minin1ize
    disruption to facilities. Chemonics maintains that the services provided under this
    subcontract were reasonable with costs sufficiently supported per the requirements of the
    contract, and that it was necessary to avoid the delays that competition would have required
    in the case of this urgent circumstance for these s mall-value services. Th e prices paid and
    visible on the Bill of Quantities we supplied to the auditors were based on the company's
    commercial rales, and s uch rates are themselves established in a commercial marketplace
    with robust competition. Kea rney has provid ed no analysis of Chemonics' justification for
    absence of competition, nor any basis grounded in the contract terms and conditions for
    characterizing these costs as uns upported. We main tain that the costs are fully supported
    according to the contract terms and conditions.

    We therefore respectfully request that this item be removed from the audit report.


Chemonics response to d raft audit report for ASAI' and ASI                                   Page 22




                                                        78
Sub.finding ASJ NFR 2014-2.2 - Travel Documentation

Kearney characterizes as uns upported $7,764 as the burdened cost of lodging for two local
nationals who were lodged in Kandahar for one month each in October 2010 due to the needs of
the project. The basis Kearney provides for questioning these costs is the lack of international
travel approval.

As the lodging provided was for local national staff, international travel approval was not
applicable. We find nothing in .ASL contract requiring USA rD approval for in-country trnvel.
The invoice from the PSS !,'1.testhouse, naming the two local employees for whom
accommodation had been provided, was approved by the AST deputy chief of party and finance
team. The local engin~ers' timesheets s how corresponding days worked for the month. We
believe that per the contract terms, this is sufficient to document that the costs were incurred for
the benefit of the contrnct.

We therefore respectfully request that this subfinding be removed from the audit repor t.

We do not dispute Kearney's assertion regarding the expense report issue Kearney noted. We
regard this as an isolated incident. We appreciate Kearney's concurrence with our position that
the other s upporting evidence for this charge is s ufficient to substantiate allow ability.

Su.bfinding ASI NFR 2014-2.3 -Receiving Reports

Kearney comments in this s ubfinding on five instances where there was a liming disparity
between when costs for goods provided to a beneficiary were incurred and when the goods
were acknowledged as received. There could obviously be many valid reasons for such
d is parities, from common commercial terms providing for payment before delivery to
responsiveness of the beneficiary in signing a receiving report. We would be happy to discuss
the specific circumstances of these items with the contracting officer should USAID desire more
information.

For the grant example Kearney highlighted, the goods that did not have a receiving report were
expendable items that were incorporated into the larger construction (gravel, sand, rebar, etc).
TI1e engineer inspections noted work progressing and the delivery of materials, and the final
construction documentation serves as evidence of completion/receipt. We consider such
documentation sufficient for internal control purposes and we disagree that Kearney's
observation points to a conlTol issue.

We therefore respectfully request that this s ubfinding be removed from Lhe audit report.

Su.bfinding ASI NFR 2014-2.4 - Grant Supporting Documentation

Kearney characterizes $10,528 as unsupported under this subfinding because Kearney asserts a
grant agreement was not provided to support the costs. We contest these questioned costs,
because: (a) a grant agreement was not required for the implement:ation of these activities, and


Chemonics response to d raft audit report for ASAI' and ASI                                  Page 23




                                                        79
(b) the costs were approved by USAID. The costs characterized as unsupported were part of a
cash-for-work (CFW) activity performed by JRD and authorized under fRD's s ubcontract for a
cleared activity. The subcontract itself had USAID consent. The s pecific CFW activity received
the required Activity Clearance from OTI, which we provided to Kearney during the aud it as
well as the email authorization from Chemonics to IRD to implement the work order activity as
cleared by OTI. Additionally, because this particular CFW activity was cancelled after three
months due to lack of cooperation from the local village and security considerations,
USAID/OTI specifically approved the amo unt paid to JRD as part of its approval of the
cancellation of the activity . We provided this cancellation approval to Kearney. Kearney has
provided no basis for questioning costs that were incurred under IRD's valid, consented to
s ubcontract, and that were in fact approved by USAID/OTI.

We therefore respectfully request that this element of Subfinding ASI NFR 2014-2.4 be removed
from the audit report.

Regarding Kearney's other assertions about missing documentation, we note that we received
some 416 follow up questions from Kearney for grants alone after our initial submission of
documents, most related to sampling of certificates or other grant documents. We were pleased
that, in the relatively s hort time period afforded to us after the receipt of this set of questions,
we were able lo locale most of the requested documents. We do concur that there were some
documents we were not able to locate within the required timeframe, but we believe these may
have been available had the timeframe been less limited. We concur with Kearney that none of
the unfulfilled requests for documentation would be reason to characterize any of the related
costs as unsupported.

Subfinding ASJ NFR 2014-2.5 - Grant Closeout Documentation

While we do not dis pu le Kearney's comments regarded differences in doseou t docu men talion
for grants under the contract, we note that such differences largely reflect changes that oc<.<ured
over the life of the contract: in how ASI and OTI slaff interpreted the closeout documentatio n
procedures in the grant manual. However, in all cases one cons tant remained: The OTI database
was the final official record for closeout, and approval by OTI of a grant closure was inherent in
a grru1t being marked "closed" in that database. TI1us, we believe there were adequate controls
s urrounding the grant closeout process, notwithstanding minor differences in the s pecific
documents that were retained in ASfs project files.

Subfinding ASI NFR 2014-2.6 - Miscellaneous

Kearney has characterized as unsupported $4,026 of costs (burdened) related to ODCs, and has
characterized as ineligible $130 of alleged luxury items. The $4,026 of ODCs consists of fuel
charges in August 201.1 and the purd1ase of a juicer in 2009.

Chemonics has decided it will not contest the questioned fuel charges, which are $3,726
(unburdened). Although the amount incurred for fuel charges is consistent with what
Chemonics incurred for contemporaneous and fully-documented fuel purchases on the ASI
contract, we have been unable to locate the supporting documentation for this specific charge.


Chemonics response to d raft aud it report for ASAI' and ASI                                   Page 24




                                                         80
81
                 Office of the Special Inspector General for Afghanistan Reconstruction
                                                           Chemonics International, Inc.
                                                                          Audit Report




             APPENDIX C –
 AUDITOR’S EVALUATION TO CHEMONICS
INTERNATIONAL, INC. RESPONSE TO AUDIT
               REPORT




                  82
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this document)
appreciates the thorough and thoughtful responses to the audit report provided by Chemonics
International, Inc.’s (Chemonics) management. Chemonics disagreed with the majority of the
issues presented and agreed with a limited number of the issues presented. Kearney presents a
complete evaluation to the full response from Chemonics’ management below.

Chemonics has indicated they are particularly concerned with the issuance of a qualified opinion
for the Afghanistan Stabilization Initiative (ASI) Special Purpose Financial Statements (SPFS),
as it leaves the reader with a “misimpression concerning Chemonics’ administration of the
project and cooperation of the audit.” The audit was conducted in accordance with auditing
standards generally accepted in the United States of America, and the standards applicable to
financial audits contained in the Generally Accepted Government Auditing Standards (GAGAS),
issued by the Comptroller General of the United States. Specifically, GAGAS, Section
“Integrity”, Paragraph 1.17, states:

      “Public confidence in government is maintained and strengthened by auditors performing
       their professional responsibilities with integrity. Integrity includes auditors conducting
       their work with an attitude that is objective, fact-based, nonpartisan, and nonideological
       with regard to audited entities and users of the auditors’ reports. Within the constraints of
       applicable confidentiality laws, rules, or policies, communications with the audited entity,
       those charged with governance, and the individuals contracting for or requesting the audit
       are expected to be honest, candid, and constructive.”

An auditor’s report offers the auditor’s opinion. Kearney has taken care to determine that the
proper opinion was issued. Kearney respectfully declines to remove the qualification from the
opinion. The report taken as a whole, with Management’s Responses and the Auditor’s
Evaluation of Management’s Response, presents a thorough and accurate depiction of the
findings as of the end of fieldwork. Kearney believes that the findings as written present a clear
and unbiased depiction of the conditions that occurred.

The root cause of the qualified opinion was a lack of sufficient audit evidence. Kearney is aware
of the Vehicle Borne Improvised Explosive Device (VBIED) that detonated outside of the ASI
offices. From the standpoint of internal controls, contingency plans should include data and
documentation back-up requirements that would prevent or reduce the impact of loss of
information in case of an uncontrollable event, such as the one that occurred. Documentation
redundancy is essential, even more so when documentation is being retained in a location that is
susceptible to events such as a VBIED. Upon review of the testing results, the VBIED does not
appear to be the primary cause for the lack of supporting documentation, as Chemonics was able
to recover “some of the documentation that was believed lost in the VBIED attack or its
aftermath” (e.g., documentation to establish competition) and also because documentation that
would have been available only after the VBIED attack was also missing (e.g., ASI NFR 2014-
2.1 Competitive Bidding Documentation included five grants that did not have adequate
documentation that were procured after the April 15, 2010 VBIED attack).

Chemonics also stated, “Although Chemonics was unable to provide the specific documents
Kearney requested, Chemonics provided sufficient documentation to fully support the costs.


                                                83
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


Kearney did not accept this documentation.” Kearney used its understanding of Chemonics’
controls and processes and auditor judgment to test and conclude on which transactions were
adequately supported by documentation, and which costs should be questioned based on the
documentation obtained. An example is evidence of adequate competition. When Chemonics
could not provide documentation supporting adequate competition, the entirety of the costs were
determined to be questioned as unsupported.

As these SPFS are classified as “special purpose”, the SPFS structure is designed to
communicate very specific information to the readers. The content of these SPFS includes
management’s contract costs incurred and fees applied for two contracts, followed by the
reporting of questioned costs as a result of applied audit procedures. Questioned costs are
reported, in conjunction with control and compliance findings, in order to alert the users of this
report, which are limited to specific instances in which questioned costs exist within Chemonics,
the Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR), and the
United States Agency for International Development (USAID). The SPFS requirements were
designed to support the identification and communication of questioned costs, whether
unsupported or ineligible, and are intended to assist USAID’s Contracting Officer (CO) in the
execution of his/her duties in compliance with Federal Acquisition Regulation (FAR) Subpart
1.6, Career Development, Contracting Authority, and Responsibilities. The SPFS requirements
are also intended to support SIGAR in its duties in accordance with Section 1229 of the National
Defense Authorization Act for Fiscal Year 2008. Ultimately, FAR Section 1.602-2,
“Responsibilities” states:

      “Contracting officers are responsible for ensuring performance of all necessary actions for
       effective contracting, ensuring compliance with the terms of the contract, and
       safeguarding the interests of the United States in its contractual relationships… (c)
       Request and consider the advice of specialists in audit, law, engineering, information
       security, transportation, and other fields, as appropriate.”

As part of FAR Subpart 1.602-2, it is the CO’s responsibility to make a final determination as to
allowability of a cost, but he/she may consider the audit results when doing so. It is Kearney’s
responsibility to conduct this SPFS audit in accordance with GAGAS and the requirements of the
SPFS, which includes reporting questioned costs. When considering the instances of control and
compliance findings, including those with related questioned costs, we have sufficient audit
evidence in support of our conclusions related to our audit opinion and supporting Schedule of
Findings and Responses.

Kearney defers to the CO to determine the final amount of costs that should be recorded as
unsupported. Kearney was unable to determine which portion of the amount of costs paid were
reasonable without evidence of competition; therefore, a determination could not be made as to
the amount that should be considered reasonable and thus allowable, leading Kearney to question
the entire amount of the transaction. There were also instances where documentation was
provided to determine that costs were allowable; however, an internal control issue persists. An
example of this is when an invoice is paid, and evidence to demonstrate that the goods and/or
services were received prior to the date of payment is not provided. Overall, Kearney considers



                                                84
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


the costs questioned in this report as being necessary for the CO’s review and final determination
as to allowability.

Chemonics has indicated that an insufficient amount of time was provided for an adequate
response, and that while preparing their response to this report during a two-week timeframe, an
exhaustive search of Chemonics’ archives was conducted. Kearney believes that sufficient time
was provided for Chemonics to obtain documentation from their records. During fieldwork,
Kearney provided between one and two months to provide documentation in response to our
initial requests, and provided between two weeks and two months for Chemonics to respond to
follow up questions. Therefore, Kearney has determined that the total amount of time provided
was considered adequate to research and locate the supporting documentation.

Chemonics frequently noted that FAR references cited as criteria for several findings were not
applicable. In these instances, Chemonics noted, “there are not provisions of our contract that
incorporate, or require adherence to FAR [applicable reference inserted here].” Kearney has
determined that the FAR guidance remains relevant and applicable for both the Accelerating
Sustainable Agriculture Program (ASAP) and ASI contracts. Supporting this position is
Chemonics internal guidance, including:

      Chemonics’ Procurement Guidelines for ASAP in Afghanistan, Section III, “Chemonics
       Home Office Procurement Policy/Procedures”, Subsection A, “General”, Paragraph 2
       states, “The Procurement Department’s procurement and contracting methods will be
       guided by the FAR, AIDAR, and other USAID guidelines to the maximum extent
       possible.”

      Chemonics’ Procurement Manual for the USAID Afghanistan Stability Initiative Project,
       Section III, “Chemonics Home Office Procurement Policy/procedures”, Subsection A,
       “General”, Paragraph 2 states, “The home office procurement department
       procurement/contracting methods will be guided by FAR/AIDAR to the most practicable
       extent as a Contractor.”

Kearney would like to thank Chemonics for their professionalism and dedication to the support
of this audit. Kearney appreciates the efforts that were undertaken by Chemonics to provide the
requested documentation, respond to inquiries, and provide detailed responses to the findings in
this report.

Throughout the detailed findings, Chemonics indicated that all questioned costs would be
affected by the time bar at 41 USC § 7103(a)(4)(A). The purpose of this report is to alert its
users, specifically USAID, with regard to questioned costs. Kearney defers to the CO, in the
course of executing their assigned duties, to determine allowability of the questioned costs and
the effects of the USC referenced by Chemonics.

Below, Kearney has provided our evaluation of Chemonics’ management’s individual responses
to the findings noted in the Schedule of Findings and Responses.




                                                85
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


ASAP NFR 2014-1 – Inadequate Review and Approval Procedures

Chemonics indicated, “While we agree that obtaining the necessary signatures on modification
promptly is a good practice, we do not believe that the circumstances here point to a control
issue.” Kearney contends that while there may not be a legal requirement to sign a grant
modification prior to the effective date, the operating environment is why Chemonics should take
added care in ensuring that signatures are obtained timely. Circumstances may rapidly change,
thus Chemonics should be vigilant in ensuring that both parties agree to any grant agreements or
modifications prior to the effective date. The purpose of the signatures is to ensure
understanding and agreement with the terms and conditions of a legal document by those
individuals who are parties to the agreement. Internal controls should be designed to ensure
agreement with the terms and conditions of a legal instrument prior to commencing efforts
against said grant or other legal instrument.

Chemonics also indicated that the stated criteria were not applicable, but they agreed to the
criteria in concept. Kearney has modified the Schedule of Findings and Responses to provide
additional criteria; however, otherwise maintains the finding as appropriate. The responsibility
to design and implement a control environment lies with management, including the adaption of
that control environment to the circumstances that exist within the locations it conducts business.

Kearney acknowledges that this finding alone does not meet the definition of material weakness
or significant deficiency; however, when taken collectively with other findings as presented in
Table 3 of the Schedule of Findings and Responses, we believe an aggregated material weakness
exists. As such, this issue is included in the report for an understanding of the aggregated
material weakness.

ASAP NFR 2014-2 – Inadequate Recordkeeping

In regard to Chemonics’ position that the cited FAR criteria are not applicable, Kearney contends
that the FAR criteria remains applicable. In support of this position, Kearney provided an
evaluation of management’s response at the sub-finding level below.

Chemonics further indicated they were unable to determine whether a cost was considered to be
ineligible or unsupported. In the audit report, Kearney states whether an amount has been
determined to be unsupported or ineligible. All but $43 of the questioned costs have been
determined to be unsupported; specific references were included in each Notice of Finding and
Response (NFR) that further explained why costs were questioned. The remaining $43 dollars
were deemed ineligible.

ASAP NFR 2014-2.1 – Competitive Bidding Documentation

Chemonics indicated:

      “As we noted in our general comments above, the contract does not incorporate the
       regulatory requirements Kearney seeks to impose. The only requirement we find for
       competition is the requirement at FAR 52.244-5, Competition in Subcontracting, which


                                                86
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


       states that ‘The Contractor shall select subcontractors (including suppliers) on a
       competitive basis to the maximum practical extent consistent with the objectives and
       requirements of the contract.’ Chemonics takes this clause seriously and does promote
       competition in subcontracting to the maximum extent practical. However, as this FAR
       clause also recognizes, there are times when competition is not practicable or, due to an
       urgent need, would be inconsistent with diligent fulfillment of the objectives and
       requirements of the contract. In such circumstances, Chemonics may conduct a sole-
       source procurement to ensure that the interests of the project and the government are
       protected. The sapling procurement in question was such a circumstance.”

Kearney contends that the FAR criteria remain applicable. This is supported by Chemonics
Procurement Guidelines for the Accelerating Sustainable Agriculture Program (ASAP) in
Afghanistan, Section IV, “Local Procurement Procedures”, Subsection C, “Direct Contract
Procedures”, which states, “Procurements of commodities and services within the host country
which are undertaken directly by USAID or its contractors shall be in accordance with the
requirements of FAR/AIDAR.”

Chemonics indicated that an explanation of the need for expediency and lack of competition for
the sampling procurement was provided; however, FAR criteria and Chemonics guidelines state
that competition, or the determination to provide a sole source award, must be documented.
Further, a sound internal control structure requires that documentation should occur timely.
Chemonics Procurement Guidelines for ASAP in Afghanistan, Section IV, “Local Procurement
Procedures”, Subsection I, “Document the Award” requires such documentation be in the award
file. Without support for competition, or a written justification for a lack of competition
documented at the time of the procurement, the costs are determined to be questioned as
unsupported. For the purposes of the audit of these SPFS, it is our responsibility to alert the
users of this report as to instances where costs are unsupported, so as to aid the CO in executing
their responsibility under FAR Subpart 1.602-2 in making a final determination as to the
allowability of a cost.

In regard to the $2,148 amount, for which Chemonics responded was adequately competed based
on the fact that they obtained two bids, Kearney reasserts that Chemonics is required to follow
the FAR, and FAR, Subpart 13.1, Procedures, Section 13.104, “Promoting Competition” states,
“consider solicitation of at least three sources to promote competition.” FAR, Subpart 13.106,
Soliciting competition, evaluation of quotations or offers, award and documentation, Section
13.106-3, “Evaluation of quotations or offer”, (a), 2 states, “If only one response is received,
include a statement of price reasonableness in the contract file.” FAR, Subpart 13.104,
Promoting competition states, “Unless the contract action requires synopsis pursuant
to 5.101 and an exception under 5.202 is not applicable, consider solicitation of at least three
sources to promote competition to the maximum extent practicable.” Further, as copied below,
Chemonics’ Procurement Guidelines for ASAP in Afghanistan, Section IV, “Local Procurement
Procedures”, Subsection G, “Simplified Acquisition Procedures” states, “at least three (3)
quotations required” for transactions between $500 and $100,000. If three vendors were not
available to provide a bid, this should have been documented as part of the justification for
proper competition and award. Kearney noted that Chemonics had support for one bid received



                                                87
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


and documentation that a second vendor had been contacted twice, but a quote was not obtained.
No further evidence of competition or sole source justification was provided.
Kearney has modified the Schedule of Findings and Responses to provide additional criteria;
however, otherwise maintains the finding as appropriate.

ASAP NFR 2014-2.2 – Timesheets, Receiving Reports, and Invoices

Kearney maintains that the documentation provided to support the validity of payment to these
laborers was inadequate, as there is no support from the final payee that work was performed and
cash received.

Chemonics indicated there may have been valid reasons for receiving reports and invoices to
have a timing disparity; however, specific explanations were not provided.

Therefore, Kearney has determined that the finding stands as issued.

ASAP NFR 2014-2.3 – Grant Closeout Documentation

Chemonics indicated that there were “two distinct and conflicting narratives for why Kearney
characterizes $856,496 as unsupported.” Kearney would like to note that the explanation on
Page 23 relates to the ASAP NFR 2014-2.3 as a whole; however, to further clarify, Kearney has
provided additional discussion below of the findings identified during fieldwork.

When testing grant payments Kearney selected a sample of grant transactions recorded in the
general ledger (GL). Upon review of these transactions, Kearney noted that for 20 transactions
related to two grants (Grant Numbers ASAP-0001-G-07-Durukshan and ASAP-0001-G-07-
Samaritan’s Purse), documentation to support adequate grant close out in accordance with
Chemonics’ controls requiring a grant completion certificate was not provided. There was
adequate documentation provided for one grant, ASAP-0001-G-07-Samaritan’s Purse, with ten
instances to support the costs incurred. Chemonics concurred that completion certifications were
not provided for our review. Kearney alerted the users of this report as to the lack of compliance
with Chemonics’ own reporting requirements and to the resulting control issue.

The costs questioned relate to ten instances for one grant, ASAP-0001-G-07-Durukshan, as
discussed above, where adequate close-out documentation was not provided to support the costs
incurred; this is the same grant for which the A.F. Ferguson audit report was issued where a
significant portion of costs were questioned. Chemonics provided additional documentation in
response to this draft audit report. Documentation included: an affidavit dated 2014 signed by
the grantee asserting the validity of the costs; a document explaining the justification for the
costs from the Durukshan Agriculture and Social Association (DASA) dated 2011; and a
memorandum to the file dated 2011 stating the reasons why Chemonics accepted the costs
questioned in the audit report as allowable. The two items dated 2011 were related to the A.F.
Ferguson audit previously performed over this grant. The memorandum stated that the DASA’s
confirmation of the validity of the costs was a reason to determine the costs were valid and
allowable. Another explanation was that too much time, approximately three years, passed
between completion of the work and assessment of the value of the work. These assertions and


                                                88
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


explanations made by Chemonics and DASA are not sufficient for the purposes of audit
evidence.

Further, Chemonics stated that the $2,500 ceiling was an unenforceable limit, thus the costs
reported in the A.F. Ferguson audit report should not have been questioned. The DASA grant
agreement, Grant Number ASAP-0001-G-07-Durukshan, Attachment II Program Description,
Section, “What will ASAP do?” states, “Provide US$2,500.00 (two thousand and five hundred)
to each retailer to renovate or reconstruct a rural farm store according to ASAP specifications
and design… Any extra cost will be borne by the store owner.”

The statement that “any extra cost will be borne by the store owner” sets a not-to-exceed ceiling,
which was exceeded. This resulted in questioned costs.

ASAP NFR 2014-2.4 – Miscellaneous

Chemonics noted that the lack of signatures on the grant modifications was an “isolated
incident”; however, this occurred twice on the same grant (modifications 2 and 3), suggesting
that this was not an isolated incident. Kearney provided additional criteria in the Schedule of
Findings and Reponses to further support the finding as issued.

ASAP NFR 2014-3 – Improper Cost Allocations

Chemonics does not dispute that the Rest and Relaxation (R&R) charges were allocated to the
employee’s home project; therefore, the finding stands as issued, in order to alert the users of
improper cost allocation to the ASAP cost objective.

ASI NFR 2014-1 – Inadequate Review and Approval Procedures

Chemonics has indicated that the majority of the questioned costs related to exceeding the grant
budgets should not be considered questioned costs. Kearney maintains that these costs were
properly questioned and presents additional information below.

Chemonics stated, “grant budgets could change by 5-10%, depending on the date, without
additional USAID/OTI approval or notification requirements.” Review of the requirement in its
entirety indicates that individual line items could change by 5 to 10 percent without additional
USAID/Office of Transition Initiatives (OTI) involvement, but that the total amount of the
budget could not be exceed without prior USAID/OTI involvement. Further detail is provided
below in the specific subsections.

ASI NFR 2014-1.1 – Insufficient Approvals

With regard to insufficient approvals surrounding various grant and subcontractor related
documentation, Chemonics policy and best practice related to internal controls dictate the receipt
of proper and sufficient approvals. For example, Chemonics specifically noted that the
Memorandum of Negotiation is not required to be signed; however, the Chemonics, Activity
Management Guide Afghanistan Stabilization Initiative, Section VI, “Forms”, Subsection 11,


                                                89
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


“Memorandum of Negotiation” states, “This is an internal form for completion by the grant
specialist and signature by the Operations Manager or Field Director.”

For this example, this policy established the internal control program under which Chemonics
expended Government resources for ASI. Accordingly, when insufficiently documented
approvals were noted during our testing, they resulted in a finding.

In regard to the timing of grant agreements and modifications, Chemonics should reconsider the
position that it is permissible to obtain valid signatures/authorization subsequent to the start of
activities, or work against a grant or other agreement. The presence of a signature or other
evidence of acceptance confirms the recipient or an officer of the receiving organization
understands and concurs with the terms and conditions of the agreement. In a volatile
environment, such as Afghanistan, signature prior to the effective date is even more critical.

Chemonics indicated that lack of evidence of OTI approvals on grant close-out documentation is
not an internal control issue. However, the database system currently in place does not retain
evidence of review by OTI. As with each action performed on a grant in the database, the prior
approval is overwritten, thus preventing adequate audit trail.

In regard to the second grants issue, Chemonics has indicated that a “received” stamp is
sufficient evidence that an invoice has been approved for payment. Per Chemonics’
Procurement Manual for the USAID Afghanistan Stability Initiative Project, “The Procurement
Process, Step 8”:

      “Payment of the vendor begins with the receipt of their original invoice following
       acceptance of the equipment and/or services.

       The original invoice should be reviewed by the Procurement Specialist to ensure
       accuracy. If the invoice is accurate according to the purchase order, the Procurement
       Specialist will stamp the invoice showing his/her review and approval that indicates the
       invoice is accurate and acceptable. The invoice and approval memo are then forwarded
       to the DCOP [Deputy Chief of Party].”

Chemonics guidance suggests that a stamp showing approval be included on the invoice as a
separate step from the acceptance of the goods or services. Kearney maintains this should not be
the same as the “receipt” which starts the process. Chemonics provided a memorandum in
regard to “Missing Coding Sheet Approvals” that “will serve as approval although post
transaction.” This memo, which does not include a list of applicable transactions, was dated
April 19, 2011; the transaction in question was dated October 31, 2010. Evidence of the
approval memo to be forwarded to the DCOP was also not provided.

ASI NFR 2014-1.2 – Clerical Issues

In regard to the payroll issue, Kearney agrees that the clerical error for payroll resulted in an
inconsequential dollar difference. However, this does not negate the fact that an error in
computation occurred. In regard to the grants issue, Chemonics should take care to ensure that


                                                 90
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


fingerprints used as evidence of agreement to an agreement or receipt of a payment are legible,
due to the fact that in some cases they represent the only means afforded to Chemonics to
support approval or acceptance. These findings are presented as further support of the various
instances where controls did not prevent or detect an error, or where evidence supporting the
control was not sufficient.

ASI NFR 2014-1.3 – Unexplained Discrepancies between GL Balances and Grant Closeout
Documentation

Kearney contends that Chemonics does not disagree with the existence of the condition, and as
such, the finding stands as a control deficiency even though costs were not questioned.
Chemonics’ processes and controls should have identified and addressed the issue within the GL
within a reasonable amount of time.

ASI NFR 2014-1.4 – Improper Review Procedures

Kearney agrees that sufficient documentation was provided to support the costs incurred;
however, sufficient documentation was not provided to support the update or modification of the
Employment Agreement. Without a modified agreement, the employee should not have been
incurring hours, nor receiving pay. Such agreements are to protect the employee and
Chemonics, and by extension the Government, from any misunderstandings with regard to their
employment status and resulting payments.

In regard to the grant transactions that exceeded the budget amount, Chemonics stated “the ASI
Activities Management Guide (AMG) included provisions whereby the grant budget could
change by 5-10%.” For 10 of the 12 grants questioned, Chemonics indicated that the amount of
the grant budget was exceeded, but was within allowable limits. Per review of the Activity
Management Guide for ASI, the flexibility of the budget amount on which Chemonics is
speaking is for “the Grantee … to adjust costs within Approved Budget line items”, not for the
total grant budget amount to be exceeded by 10 percent. Further, the removal of OTI approval
for changes less than 10 percent does not negate Chemonics’ responsibility to enforce proper
controls and procedures between themselves and the grantees. The relevant sections of the AMG
to support this position are included below, and added to criteria within the finding in the
Schedule of Findings and Responses. By exceeding the budgeted amount on these grants
without proper modifications with the grantee, Chemonics has not provided the grantee with an
opportunity to understand the revised terms and conditions. Also, for the two instances where
the budget was exceeded by 10 percent, USAID was not provided with an opportunity to approve
the revised grant amount.

Per Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section II,
“Grants”, Subsection F, “Grant Implementation”, Sub-subsection F4, “Modifications”:

      “The OTI country representative must approve all modifications to grants where
       substantive programmatic elements are changing or that increase the total estimated cost
       by more than 10% or based on other criteria agreed established by either the TO or OTI.
       A modification is defined as a change in the project description, change to the start or end


                                                91
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


       dates, or a change to the activity budget. OTI approval will be requested in writing by
       the COP and maintained in the grant file.”

Per Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section VI,
“Forms”, Subsection “Grant Agreement Templates, Certifications, and Annexes”, Sub-
subsection 16(b), “Simplified Grant Agreement Format for US grantees”:

      “ANNEX ONE: TERMS & CONDITIONS OF THE GRANT AGREEMENT
       7) Allowable Costs. The Grantee shall neither request nor be reimbursed for
       expenditures incurred that are not allowable costs under this Agreement as detailed in
       Annex 4 or that are in excess of the ASI Grant Budget Commitment. Costs allowed are
       those that are both included in the approved Budget and allowable under all applicable
       USAID, Chemonics, and GRANTEE regulations including OMB Circular A-122. The
       Grantee is authorized up to ten percent (10%) flexibility to adjust costs within Approved
       Budget line items, as long as the ASI Grant Budget Commitment is not exceeded.”

Per Chemonics’ Activity Management Guide Afghanistan Stabilization Initiative, Section VI,
“Forms”, Subsection “Grant Agreement Templates, Certifications, and Annexes”, Sub-
subsection 16(a), “Simplified Grant Agreement Format for non-US grantees”:

      “ANNEX ONE: TERMS & CONDITIONS OF THE GRANT AGREEMENT
       7) Allowable Costs. The Grantee shall neither request nor be reimbursed for
       expenditures incurred that are not allowable costs under this Agreement as detailed in
       Annex 4 or that are in excess of the ASI Grant Budget Commitment. Costs allowed are
       those that are both included in the approved Budget and allowable under all applicable
       USAID, Chemonics, and GRANTEE regulations including OMB Circular A-122. The
       Grantee is authorized up to ten percent (10%) flexibility to adjust costs within Approved
       Budget line items, as long as the ASI Grant Budget Commitment is not exceeded.”

ASI 2014-1.5 – Timing Issues

While valid reasons for delayed payments may exist, Chemonics should document the
circumstances for the delays to show that active involvement and continued effort was being
conducted on these transactions, in order to evidence controls were in place and operating
effectively. Maintenance of this information as support of the control structure should occur
while the transaction is being reviewed and questions resolved.

ASI NFR 2014-2 – Inadequate Recordkeeping

Kearney maintains that Chemonics was aware of the environment in which operations were
occurring and should design and implement policies and controls to mitigate those
circumstances. It should also be noted that certain documentation unavailable for audit were for
transactions and financial events that occurred after the attack, and some documentation that was
thought to be lost in the attack was later able to be found. Based on the varied causes for missing
documentation, it is important for the users of this report to understand the impact of missing



                                                92
                                                Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                          Chemonics International, Inc.
                                                                                                         Audit Report


documentation as a result of our tests. Kearney is acting in the users’ best interest by questioning
these costs, thus bringing them to the COs attention for final determination on allowability.

Chemonics stated, “Kearney did not give due consideration to the terrorist attack that destroyed a
significant portion of ASI documentation.” To aid in the users’ review of the report, Kearney
has added language to the opinion section of the Executive Summary related to the effects of the
terrorist attack. Further, the inclusion of management’s responses in our audit report gives the
perspective of the responsible officials and further communicates the causes of the lack of
supporting documentation.

Chemonics has again indicated that the FAR references cited do not apply; Kearney maintains
these references are still relevant based on the same premises outlined in above findings and
specifically stated within the sub-findings below.

ASI NFR 2014-2.1 – Competitive Bidding Documentation

Overall, Kearney contends that the FAR criteria requiring competition remains applicable.
Chemonics indicated that an instance where an explanation on lack of competition was provided,
however, requirements state that the justification for lack of competition must be documented.
In the instances where a finding was recorded, the justification was determined to be inadequate
based on a review of the justification provided using the criteria for an “Exemption from
Competition Requirement”. USAID’s Automated Directives System (ADS), Chapter 303,
Grants and Cooperative Agreements to Non-Governmental Organizations, Section 303.3.6.6
(2)(a), “Exclusive or predominant capability” states that, “When this exception is used, the
Activity Manager must describe in detail the uniqueness of the proposed recipient and how it
applies to the activity to be supported.” Further, a sound internal control policy means that
documentation should occur timely. Without timely documented support for competition, or a
sole-source procurement, the costs are determined to be questioned as unsupported.

Chemonics stated that, “Kearney has provided no analysis of the justifications for absence of
competition that Chemonics provided.” When Chemonics provided its documentation, it did not
provide an explanation of the specific reason as to why a vendor met the criteria, only the criteria
was stated. Criteria alone is inadequate to justify lack of competition. An example from a
Memorandum of Negotiation of an explanation is included below.

      “3. Description of Competitive Process or Justification for Exemption from
       Competition Requirements. ASI South determined that competition was not required
       for award of a grant to Abdul Matalib Marjeh District Sub-Governor because Abdul
       Matalib met the ADS 303.3.6.5 Exemptions from Competition Requirement as follows:

               (c) Exclusive or predominant capability. USAID does not require competition
               when it considers one recipient to have exclusive or predominant capability based
               on the following criteria:
               • Proprietary capability,
               This Activity involved on Rehabilitation of Kuru Chareh Bazaar in Marjeh
               District


                                                 93
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


               • An existing unique relationship with the cooperating country or beneficiaries
               ASI-South has on established working relationship in implementing projects in
               Marjeh.”

Per the ADS, Chapter 303, Grants and Cooperative Agreements to Non-Governmental
Organizations, Section 303.3.6.6 (2)(a), “Exclusive or predominant capability”:

      “USAID may make other than full competition, including sole-source, awards when it
       considers a recipient to have exclusive or predominant capability based on one of the
       following criteria:

              Proprietary resources,
              Specialized facilities or technical expertise,
              An existing and unique relationship with the cooperating country or beneficiaries,
               or
              Participation in a Global Development Alliance, USAID‘s business model
               promoting public-private alliances as a central element of the Agency‘s strategic
               assessment, planning, and programming efforts.

       This exception may not be used to continue an on-going relationship when the applicant
       developed the exclusive or predominant capability during performance of a USAID
       award, or when the previous award was made without competition using the small grants
       award exception.
       When this exception is used, the Activity Manager must describe in detail the uniqueness
       of the proposed recipient and how it applies to the activity to be supported. The JEC must
       also describe what other options USAID explored.”

Chemonics also stated, “we have, since the issuance of the draft audit report, recovered some of
the documentation that was believed lost in the VBIED attack or its aftermath that establishes
competition did occur for each of the procurements under grants that are questioned in this
subfinding.” Chemonics has indicated that they were able to locate and provide additional
documentation. As discussed above, Kearney will not review documentation received after the
close of field work. Chemonics should present this documentation to the CO as part of the final
determination of allowability of costs. Kearney maintains that adequate time was provided to
Chemonics to provide supporting documentation.

Chemonics stated that an incorrect amount of grant ARG-004 was questioned. Kearney was
unable to determine, due to insufficient vendor information in the general ledger detail provided,
which specific vendor the costs recorded in the GL were charged to, therefore resulting in the
entire amount of the grant being questioned.

ASI NFR 2014-2.2 – Travel Documentation

While Chemonics’ approval was indicated on the guesthouse invoice, approval of the
employee’s authority to travel prior to the trip was not received. Chemonics’ internal policies



                                                94
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


indicate that all travel should be approved in advance, as shown below and added to the Schedule
of Findings and Responses in support of the issue.

Per the Administrative Procedures Afghanistan Stabilization Initiative - South, Section II (L)
“Travel Procedures”:
       “Both expatriate and local employees might be required to travel on field trips outside
        project offices, and perhaps to other parts of Afghanistan. Chemonics’ policy is that such
        trips should, to the extent possible, be programmed and approved in advance by the
        employee‘s supervisor and the Project, Country, or Regional Security Directors (as
        appropriate to the project) on a monthly basis. Under no conditions should travel be
        made on the assumption of approval.”

Per the Administrative Procedures Afghanistan Stabilization Initiative - South, Section II (L.1)
“International & Regional Travel Programming”:

      “All employees who anticipate that they will be traveling for project purposes should
       submit a detailed agenda to their supervisors as early as possible. The high-risk security
       environment necessitates that trip programming is also reviewed and approved by
       appropriate Security Director in addition to the employee‘s supervisor. The agenda
       should show the purpose of the field trip and its justification, the anticipated date and
       time of departure and return, as well as with whom they expect to meet and how they
       expect to allocate their time and effort in support of the trip purpose. Within two weeks
       of returning, the individual or team shall submit a trip report to their supervisor
       comparing the trip with the proposed agenda. The trip report shall show the reason for the
       trip, general observations, details of all activities, deliverables accomplished and/or
       failures and explanations, and shall conclude with recommendations. The same
       procedures and approvals apply to necessary but unanticipated field trips.”

ASI NFR 2014-2.3 – Receiving Reports

A strong internal control environment would indicate that an invoice should not be paid until the
goods have been inspected and accepted. Therefore, Kearney has determined the finding stands
as issued. For the construction example provided by Chemonics, when Chemonics is required to
reimburse on a cost-by-cost basis, inspection and receipt should occur for ordered materials as
they are received prior to their use. This process not only provides support from a cost
standpoint, but also protects Chemonics, and by extension the Government, from using inferior
or unsuitable materials in the execution of the program objectives.

ASI NFR 2014-2.4 – Grant Supporting Documentation

Chemonics has stated that, “We contest these questioned costs, because: (a) a grant agreement
was not required for the implementation of these activities, and (b) the costs were approved by
USAID”. Kearney maintains that a grant agreement was required due to the nature of the costs
incurred being against grant KHA002. During fieldwork, Chemonics stated, “KHA002 did not
have a signed grant agreement and the activity was cancelled. No certifications or neg
[negotiation] memo were signed, as the grant was never signed. An activity modification was


                                                95
                                               Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                         Chemonics International, Inc.
                                                                                                        Audit Report


approved by USAID, but since no grant had yet been signed, there was no grant modification.”
The documentation provided by Chemonics supports USAID’s approval of the Grant Under
Contract Clearance Form and Time Modification 1 to grant number KHA002; however, the
initial grant agreement, approved or otherwise, was not provided by Chemonics. USAID
approved the Grant Agreement Cancellation Request, which included an amount disbursed
against the grant. However, the Grant Agreement Cancellation Request and related approving
USAID email did not contain explicit approval of the costs incurred related to this grant, but
states, “As a result of the above considerations, ASI-South respectfully requests to cancel
Activity Number: KHA002 with final signatory authority residing with the USAID/OTI Country
Representative or designee.”

See below for additional references, which were also added to the Schedule of Findings and
Responses.

Per the Activity Management Guide Afghanistan Stabilization Initiative, Section II (E), “Grant
Award”:

      “Once the grant has been cleared by the OTI representative (or TOCOTR/CO when
       applicable), the GS [Grant Specialist] will generate the grant agreement. Grant
       agreements are generated through the Activity Database, using information contained in
       database grant fields. The template for these grant agreements are included in Forms 14-
       19. Any information required by the grant agreement that must be customized will be
       input into the grant agreement by the GS, and the grant agreement will be printed and
       finalized for signature by the grantee and ASI South’s representative (must have
       delegation of authority). The DCOP or designee signs all grants on behalf of ASI South.
       The official Grant Agreement will also document that the required USAID approval
       (country representative and, where applicable, TOCOTR or CO) has been obtained and is
       on file.”

ASI NFR 2014-2.5 – Grant Closeout Documentation

Chemonics has indicated general agreement with this finding. Chemonics uses a database to
record closeout activities. However, the database system currently in place does not retain
evidence of review by OTI. As with each action performed on a grant in the database, the prior
approval is overwritten, thus preventing an adequate audit trail. The finding stands as issued.

ASI NFR 2014-2.6 – Miscellaneous

Chemonics has indicated they were able to locate and provide documentation related to the ODC
questioned cost for a juicer. Kearney reviewed the documentation provided and determined it
was insufficient to support the costs, as it only included a list of transactions and no invoices,
evidence of approval, evidence of competition, etc. The finding for this transaction stands as
issued.

In regard to the “luxury goods”, Kearney agrees that the USAID Acquisition Regulation
(AIDAR) does not sufficiently define this term in detail. The ADS reference provided by


                                                96
                                                 Office of the Special Inspector General for Afghanistan Reconstruction
                                                                                           Chemonics International, Inc.
                                                                                                          Audit Report


Chemonics in its response is not a full listing, but rather examples of certain types of goods that
should be considered luxury. This finding was the result of Chemonics’ purchase of an iPod and
a DVD player, and while we appreciate Chemonics’ position that such purchases aid in
maintaining the mental health of program staff, such purchases should not result in cost
reimbursement plus a fee on behalf of the Government. Further, Chemonics indicated that a
DVD player and iPod are “basic amenities (that were less than what would be available in a
commercial hotel).” While television and music are available in a typical hotel, DVD players
and iPods are not available in a typical hotel, thus resulting in our finding that these are classified
as “luxury goods”.




                                                  97
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
